<html>
<title> - PLANNED PARENTHOOD'S TAXPAYER FUNDING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                 PLANNED PARENTHOOD'S TAXPAYER FUNDING

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2015

                               __________

                           Serial No. 114-153

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-029 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                    Andrew Dockham, General Counsel
Sean Hayes, Healthcare, Benefits and Administrative Rules Subcommittee 
                             Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 29, 2015...............................     1

                               WITNESSES

Ms. Cecile Richards, President, Planned Parenthood Federation of 
  America
    Oral Statement...............................................     9
    Written Statement............................................    12

                                APPENDIX

Representative Gerald E. Connolly Statement......................   108
July 27, 2015 Organizations to Congress Supporting Planned 
  Parenthood submitted by Ms. Duckworth..........................   110
Aug 3, 2015 Latino Organizations to Congress Supporting Planned 
  Parenthood submitted by Ms. Lawrence...........................   114
Aug 25, 2015 GPS Fusion Analysis Center for Medical Progress 
  Videos submitted by Ms. Watson Coleman.........................   116
Sept 28, 2015 Coalfire Digital Forensics Analysis Report 
  submitted by Mr Chaffetz.......................................   126
Sept 21, 2015 Committee Democrats to JEC - Planned Parenthood GOP 
  politics submitted by Mr. Cummings.............................   140

 
                 PLANNED PARENTHOOD'S TAXPAYER FUNDING

                              ----------                              


                      Tuesday, September 29, 2015

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:03 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Turner, Duncan, 
Jordan, Walberg, Amash, Gosar, DesJarlais, Gowdy, Farenthold, 
Lummis, Massie, Meadows, DeSantis, Mulvaney, Buck, Walker, 
Blum, Hice, Russell, Carter, Grothman, Hurd, Palmer, Cummings, 
Maloney, Norton, Clay, Lynch, Cooper, Connolly, Cartwright, 
Duckworth, Lawrence, Lieu, Watson Coleman, Plaskett, 
DeSaulnier, Boyle, Welch, and Lujan Grisham.
    Also Present: Representatives Black, Love, Jackson Lee, and 
Adams.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    The chairman is responsible under the rules of the House 
and the rules of the committee to maintain order and preserve 
decorum in the committee room. Members of the audience are 
reminded that disruption of congressional business is a 
violation of law and a criminal offense. We welcome your 
presence, but we will not tolerate disruption. We hope to have 
a good, lively debate. This is what Congress is intended to do, 
and we need everybody in this room--we need everybody's 
participation along the way.
    This is an important topic. At the risk of getting a little 
personal, my wife Julie and I have been married some 24 years. 
We have our 25th wedding anniversary coming up in February. I'm 
proud of my wife. She got her degree in psychology later in 
life after helping to raise three kids. Some are still at home. 
She has started to work for a plastic surgeon. This plastic 
surgeon is involved in helping women who are having to have 
their breasts removed, and my wife spends her day helping these 
women. And I'm proud of her for doing that.
    My mother, she passed away when I was 28 years old. She 
fought cancer for more than 10 years. She had breast cancer. 
And I miss her. I lost my father to cancer, as well.
    Cancer in this country kills about 1,500 people a day--a 
day. And yet our Federal Government only spends about $5 
billion to fight it. If they were shooting 1,500 people a day, 
if there were rockets coming in, we'd be fighting this with 
everything we've got.
    And as I said before I came to Congress and I'm saying here 
today, as fiscally conservative as I can possibly be, we don't 
spend enough on cancer. We don't spend enough. We need to spend 
more. I would quadruple the amount of money, if I had my 
chance, to fight cancer and win.
    And the reason I'm passionate about the hearing today is 
we've got a lot of healthcare providers who I think in their 
hearts know that they're trying to provide good, but the 
question before us is, does this organization, does Planned 
Parenthood really need Federal subsidy? Does it need Federal 
dollars?
    Every time we spend a Federal dollar, what we're doing is 
we're pulling money out of somebody's pocket and we're giving 
it to somebody else. What I don't like, what I don't want to 
tolerate, what I don't want to become numb to is wasting those 
taxpayer dollars. And, as best I can tell--we're going to have 
a hearing here--this is an organization that doesn't need 
Federal subsidy.
    For the year ended June 14--June of 2014, I should say, 
Planned Parenthood reported $127 million in revenue over 
expenses. They had $127 million more in revenue than they had 
in expenses. Yet, between 2005 and 2013, in large part under 
Ms. Richards' leadership, there's a 53-percent reduction in 
cancer screenings, a 42-percent reduction in breast exams and 
breast care. I don't understand why. I don't understand why.
    Let me give you a sense of the numbers that we're talking 
about here. Government dollars from taxpayers going to Planned 
Parenthood is roughly $528 million. $450 million of that comes 
in Federal funds. Roughly $390 million comes in the form of 
Medicaid.
    There's going to be a lot of bluster today about shutting 
down the government over Planned Parenthood. The funding amount 
that we're talking about under Title X is $60 million. 
Remember, I just told you that, last year--last year, they had 
more than $100 million in revenue without expenses. And we're 
talking about $60 million, roughly 4.6 of their total revenue.
    Planned Parenthood is an organization with massive 
salaries. Ms. Richards makes nearly $600,000 a year. The 
affiliate--the person that runs the affiliate in Minnesota, 
North Dakota, and South Dakota makes roughly $450,000 a year. 
And I could be here for a long time listing out some very 
exorbitant salaries.
    This is also an organization that seems to have exorbitant 
travel expenses. 2013, they spent more than $5 million in 
travel--first-class tickets, private chartered aircraft. 
Roughly, they're spending $14,000 a day on travel. That's a 
lot. That's money that isn't going to women's health care.
    In 2012 and 2013, they spent roughly $600,000 on blowout 
parties--chocolate and champagne events, and Salt-N-Pepa came 
and performed a concert, and all kinds of celebrities and other 
hoopla. These are things they lost money doing, according to 
their tax record.
    In the past 3 years, they've spent more than $67 million on 
fundraising. They're pretty good at it. That's partly my point. 
They're pretty good at fundraising. They don't necessarily need 
taxpayer dollars to go pay for it.
    And this part I really hope we do have a deeper discussion 
about. We may not learn everything that we need to, but, over 
the past 5 years, more than $22 million has been transferred 
from their 501(c)(3) to 501(c)(4) organizations as well as 
PACs. This is advocacy, it's lobbying, it's ``get out the 
vote.'' And, in one case in Alaska, it was about redistricting.
    Ladies and gentlemen, that has absolutely nothing to do 
with providing health care to young women who need a breast 
exam or need to get a mammogram. None of that money goes to 
that. It's a political activity. I was, I guess, naive but 
surprised that you could take 501(c)(3) money and simply give 
it to the 501(c)(4).
    Shared employees. If you look at Planned Parenthood and the 
other organizations underneath it, you're going to find shared 
employees, shared facilities, mailing lists, shared assets. 
It's a political organization. And that's something that needs 
to be ferreted out.
    Then when you start saying, ``Oh, they have to have Federal 
money, they have to have Federal money,'' over the past 5 
years, they've spent more than $32 million sending money 
overseas. It didn't even come to the United States of America. 
It didn't affect people in low-income situations. They're so 
flush with cash, they started sending and giving out money 
overseas. I don't understand that. We have USAID, we have the 
State Department, we have all kinds of foreign aid. We don't 
need Planned Parenthood foreign aid. But that's what we got. 
And their desire for more of taxpayer dollars is just 
sensational.
    There are going to be some discussions today, I'm sure, 
about the video, or videos. Let me just explain that. I know 
I've gone over time, but we're going to have to address it one 
way or the other, so let me address it.
    I think it was legitimate to look at all of the videos--all 
of the videos. So we issued a subpoena to get all of the 
videos.
    Now, in California, there's a court case where there is a 
temporary restraining order that doesn't allow the producers of 
these videos to release them publicly. So we actually sent a 
letter asking for the videos.
    Democrats, I think the record will reflect, didn't want us 
to ask for the videos. They wanted to take that language out. 
Nevertheless, we moved forward and actually went to the 
extraordinary step of subpoenaing--something, I think, that 
actually both sides of the aisle should support. If you want 
the totality of the record, let's send a subpoena for all the 
videos.
    Now, with the temporary restraining order in place, there 
is conflict between the legislative branch and the judicial 
branch. And so what we're seeing here is they, on one hand, 
have a restraining order, can't send the videos; on the other, 
they have a duly issued subpoenaed from the United States 
Congress. That is going to have to work itself out.
    There has been discussion about the producer of this video 
coming and testifying before Congress. I don't know which 
direction we're going to go to that. The first step, though, is 
seeing all the videos--all the videos.
    Democrats have said, well, they've been doctored, they've 
been edited, even though they haven't even necessarily seen 
them. And then they have videos that they want to show that 
show that. Well, the reason that they're out there is that 
they're publicly available.
    So there is more to this story, there is more that needs to 
come out. But that's going to have to play itself out.
    The prime thrust of this hearing today is about the 
finances. We were very clear and blunt in our--in what we were 
talking about in terms of what we're trying to accomplish here 
today. I have great latitude to members; they can ask what they 
want to ask. But the focus of what we're doing today is how 
this organization is funded and how they spend their money. If 
they're going to accept taxpayer dollars, they're going to have 
to withstand the scrutiny of Congress asking tough questions 
about how they spend that money. And that's the direction that 
I'm coming from today.
    And if there is more clarification needed, please let me 
know, but we will now recognize the ranking member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And let me be clear from the very beginning, we have asked 
for all of the tapes, Mr. Chairman, and we wanted all of it, 
everything. And we would, of course, welcome a subpoena for 
everything, because we think that that goes to the integrity of 
this committee and it goes to the integrity of this Congress.
    Today's hearing is very important. It will reveal whether 
this committee is more interested in facts or fiction. The 
questions members pose will show whether they are engaged in an 
evenhanded search for the truth or a partisan attack based on 
ideology. The way we conduct ourselves will demonstrate whether 
this committee is seeking integrity in our investigation or is 
being usurped by the most extreme forces of partisan warfare.
    Let's look at the facts. David Daleiden and his group 
engaged in a 3-year campaign of deceit against Planned 
Parenthood. They set up fake companies, created fake 
identities, repeatedly lied about who they were, and secretly 
recorded Planned Parenthood employees without their knowledge 
or consent. These are facts that Mr. Daleiden admitted to. He 
admitted to this.
    Mr. Daleiden's goal for the past 3 years was to entrap 
Planned Parenthood into selling fetal tissue for profit--
selling it for profit. He deceived, misled, and essentially 
conned Planned Parenthood employees to try to achieve his goal. 
He gave them illegal contract proposals, he offered them huge 
sums of money, and he pursued them relentlessly. Some would say 
he was obsessed.
    Despite his best efforts, Mr. Daleiden failed. There's no 
credible evidence before this committee that any Planned 
Parenthood employee agreed to any proposal to sell fetal tissue 
or for profit in violation of the law.
    Republicans keep making this claim over and over again, but 
that does not make it true.
    When Mr. Daleiden was faced with the failure of his 3-year 
effort, he did not relent. Instead, he took the video footage 
he had, manipulated it, and put it out to the public. He 
removed every single time Planned Parenthood employees rejected 
his offers. He edited out all of this exculpatory evidence, and 
he twisted what was left to distort the truth. Something is 
awfully wrong with that picture.
    Last week, all the committee members on this side of the 
aisle asked for Mr. Daleiden to testify here today. Since his 
video is at the fundamental basis of this committee's 
investigation, we wanted to ask questions about his tactics and 
his evidence. That's only fair. But Republicans refused. They 
did not want him to testify. They don't want to subject him to 
the difficult or uncomfortable questions that relate to the 
actual facts.
    But the facts are, indeed, critical. And here are some of 
the key facts we now know.
    Federal law authorizes fetal tissue research, and it 
expressly allows for recouping reasonable costs. That's a fact. 
That law was passed by Congress with strong bipartisan support 
based on the work of President Ronald Reagan's blue-ribbon 
panel on fetal tissue research in 1988.
    This is also a fact. Planned Parenthood receives no Federal 
funding for fetal tissue donation programs, and only 1 percent 
of Planned Parenthood's health centers even participate in 
these programs. Those are facts.
    Unfortunately, I suspect these facts will have little 
impact on the Republican talking points, and they will just 
keep accusing Planned Parenthood of selling fetal tissue for 
profit.
    Today's hearing is supposed to be about Federal funding, so 
let me highlight one more fact. Republicans have been saying 
that Planned Parenthood receives a half a billion dollars in 
taxpayer funds. They make it sound as if the Federal Government 
writes a check to Planned Parenthood each year. But the vast 
majority of that funding, approximately $400 million, comes 
from reimbursements from individual health services under 
Medicaid.
    Medicaid provides healthcare services for people who are 
poor, elderly, and have disabilities. In my home State of 
Maryland, banning funds for Planned Parenthood would have a 
negative and disproportionate impact on poor women, who rely on 
Planned Parenthood for a host of healthcare services, including 
pap tests, breast exams, and cancer screenings.
    And, Mr. Chairman, as I listen to you talk about cancer and 
breast cancer, I agree with you; we need every dollar we can 
get for research with regard to these diseases. As you know, on 
Friday I'll be funeralizing my mother-in-law, who was very dear 
to me, who died from breast cancer less than a week ago. So I 
understand what you're talking about. I get it.
    And a lot of people who need these services are like--are 
the people who live in our districts, and they live in areas 
where they do not have these services. And I'm sure Ms. 
Richards will testify with regard to that. And so, for many 
poor women, Planned Parenthood may be one of their only sources 
of medical care in underserved or rural communities.
    That brings us to the big question for my Republican 
colleagues: Do you really want to do this? Do you really? Do 
you want to align yourselves with the radical extremists who 
manipulate the facts? And, most importantly, do you want to 
attack millions of women who have a constitutional right, 
affirmed by the Supreme Court of the United States of America, 
to make their own healthcare decisions with the advice of their 
doctors?
    Based on the evidence of last week, it appears that you do. 
You threatened to shut down the government. You ousted your 
Speaker. And now you want to set up yet another select 
committee to investigate. It looks like you have made your 
choice.
    Unfortunately, I think your actions will result in even 
more chaos and discord in this Congress, which is exactly what 
the American people don't want. They do not want the discord.
    Ms. Richards, I want to thank you very much for being here 
today to give us the facts. Your group has been extremely 
helpful during this investigation, providing tens of thousands 
of pages of documents. Your cooperation stands in stark 
contrast to Mr. Daleiden, whose notable absence speaks volumes.
    And, with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. We have agreed to allow the subcommittee 
chairmen to also make opening statements. So we'll now 
recognize the chairman of the Subcommittee on Health Care, 
Benefits, and Administrative Rules, Mr. Jordan of Ohio, for his 
opening statement.
    Mr. Jordan. Thank you, Mr. Chairman. Thank you for this 
hearing, and thank you for your heartfelt remarks in your 
opening statement.
    Here's the troubling truth: A picture is worth a thousand 
words. You can say all you want that these things were heavily 
edited, they were changed, but if that's the case, why did Ms. 
Richards apologize for the videos 2 days after they first 
surfaced?
    Everyone knows these videos are, as the Speaker of the 
House said, barbaric and repulsive. And this argument, this 
argument that we keep hearing from the other side, 
``Republicans want to shut down the government,'' are you 
kidding me? We want to fund the government at the levels 
everyone agreed to, the Ryan-Murray budget, the levels the--the 
levels the President agreed to.
    We simply want to shift the money from an organization 
caught doing what they were caught doing and give it to the 
community health centers; shift it from the 700 Planned 
Parenthood clinics, give it to the 13,000 federally approved 
community health centers; take the money from the guys doing 
the bad things and give it to the ones who aren't; take the 
dollars from one private company doing what the Speaker said, 
barbaric things, and give it to federally approved community 
health centers.
    Now, if the Democrats insist that, in spite of all that, 
this organization should still get your tax dollars and that 
that somehow is more important than funding our troops, our 
veterans, and, frankly, women's health issues and some of the 
things the chairman talked about in health care, if that's 
their position, then they can go defend that position.
    So let's just be honest here. This is what this--what this 
is really all about, plain and simple: money and politics. 
Here's how it works. Politicians give money to Planned 
Parenthood, who give it back to politicians at election time 
who get elected and give it back to Planned Parenthood, who 
give it back to politicians who get elected, and the game plays 
on.
    In 2012, in that election cycle, Planned Parenthood spent 
almost $12 million in advertising. Fact: $11,874,052, 100 
percent of that went to Democrats. Every penny--every single 
penny went to Democrats. No wonder they're defending this 
repulsive game. Politicians give money to Planned Parenthood, 
they give it back to politicians, and it keeps on going.
    The nice thing about these videos, it's lifted the curtain. 
We can now see what's going on there. And that's why we should 
fund the government and shift the money from this organization 
to organizations who didn't do this kind of behavior.
    And, with that, I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize Ms. Maloney of New York for her opening 
statement.
    Mrs. Maloney. Well, thank you. Thank you, Mr. Chairman.
    And welcome, Ms. Richards.
    Last week, the Democratic members of this committee sent a 
letter warning our chairman that the relentless campaign by the 
conservative House Freedom Caucus to attack Planned Parenthood 
was in fact part of a broader power struggle to unseat Speaker 
Boehner led by an extreme wing of the Republican Party that is 
using this issue to force a government shutdown unless the 
Speaker bows to their demands.
    Our warnings proved prescient. On Friday, Speaker Boehner 
announced that he will resign at the end of next month, but not 
before creating a new select committee to investigate Planned 
Parenthood.
    Make no mistake, despite what we hear from the other side, 
Republicans are doubling down on their war against women.
    I request unanimous consent to place in the record this 
letter from the Republicans threatening to close down the 
government unless Planned Parenthood is defunded. And there 
is----
    Chairman Chaffetz. Without objection, so ordered.
    Mrs. Maloney. And when you read this, there are certain 
things that jump out. All of the signatories are men, none of 
whom will get pregnant or need a cervical screening for cancer 
or a mammogram or a pap smear or other lifesaving services that 
are provided by Planned Parenthood.
    We will hear today lots of arguments to justify the extreme 
actions of the Center for Medical Progress, those who created 
these videotapes, but there is one simple reason we are at this 
point: Republicans want to outlaw a woman's right to choose.
    Republicans say that this is all about videos purporting to 
show violations of our laws, but when the facts come out that 
contradict their narrative and it comes to light, it never 
seems to matter.
    For example, when we learned that the videos had dozens of 
unexplained edits removing phrases like, quote, ``We do not 
profit from tissue donation,'' from those who work for Planned 
Parenthood, that did not matter.
    When we learned that less than 1 percent of Planned 
Parenthood centers had any involvement whatsoever in fetal 
tissue donation, that did not matter.
    When we learned that some Planned Parenthood centers 
involved in tissue donation took the extra precaution of 
accepting no reimbursement for their costs, far beyond what is 
even required by Federal law, that did not matter.
    When we learned that Planned Parenthood centers that 
lawfully accepted reimbursement recouped only their costs and 
repeatedly refused offers from anti-abortion extremists to 
entrap them into accepting far larger amounts, even in one case 
10 times more, Republicans still insisted they were trying to 
profit from these donations.
    The righteous rhetoric we've heard for weeks about Planned 
Parenthood trafficking in baby parts has one fundamental law: 
It is not true, and it never has been true. But it makes for 
great sound bite.
    The reason the facts don't matter is that this whole 
episode is not about tissue donation or the Hyde Amendment or 
Medicaid reimbursement. The core issue is that Republican 
Members of Congress now almost universally oppose a woman's 
right to choose. They oppose the constitutional right of 
abortion.
    An increasing number, like Senator Marco Rubio, support 
banning abortion with no exceptions, none whatsoever, not even 
in cases of rape, incest, or when the life of the mother is 
threatened.
    The majority of Americans disagree with these extreme 
views, and we will do everything we can to stop them. Because 
if we don't, there will be serious consequences for women 
across this country that rely on the services--lifesaving 
services. It is their choice, of over 2.7 million women, to 
have their basic healthcare services provided by Planned 
Parenthood.
    In 103 counties with a Planned Parenthood health center, 
Planned Parenthood serves all of the women obtaining publicly 
supported contraceptive services. There aren't any community 
health centers that can step in to fill the void. If we don't 
continue this lifesaving service, women will be denied health 
care across this great Nation.
    This continued assault on constitutionally protected 
reproductive freedom is based on outright falsehoods and lies, 
backed up by fraudulent recordings selectively edited by 
radical anti-choice activists.
    And if they have their way, over 630,000 patients will lose 
access to birth control, STD screenings, and other reproductive 
health care, mammograms, cervical cancer screenings.
    We need to recognize this fight for what it is: It's about 
banning a woman's right to choose. And it is being driven by 
politicians, most of whom are men, who think they have the 
right to dictate to women about their most private healthcare 
decisions.
    And I might add that Planned Parenthood polls four times 
stronger than Congress. And I might add that we should be 
investigating this group that did fraudulent, edited tapes and 
not a distinguished healthcare-providing, health--lifesaving 
group that is across this Nation saving lives and providing 
basic reproductive health care to American women, many of whom 
are very poor and many of whom are very vulnerable.
    So I want to publicly thank Planned Parenthood. One in five 
women in America have gone to Planned Parenthood for services, 
including myself, at times in their life when they needed it. 
And I want to thank you for the work that you are doing to 
provide basic healthcare, reproductive healthcare services to 
American women and men.
    Chairman Chaffetz. I will hold the record open for 5 
legislative days for any members who would like to submit a 
written statement.
    Chairman Chaffetz. We've had wide interest from a number of 
our colleagues and from broader House membership. I'd ask 
unanimous consent that the Congresswoman Ms. McMorris Rodgers 
of Washington, Congresswoman Sheila Jackson Lee of Texas, 
Congresswoman Black of Tennessee, and Congresswoman Love of 
Utah be allowed to fully participate in today's hearing.
    If there are additional Democrats that would like to 
participate, I'd be happy to waive them in, as well, to have an 
even balance.
    Without objection, so ordered.
    We'll now recognize our witness. Please welcome Ms. Cecile 
Richards, president of Planned Parenthood Federation of 
America.
    Ms. Richards, pursuant to committee rules, all witnesses 
will be sworn in before they testify. If you will please rise 
and raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you.
    Let the record reflect that the witness answered in the 
affirmative.
    In order to allow time for discussion, we would appreciate 
if you would limit your testimony to 5 minutes. And, obviously, 
your entire written statement will be made part of the record.
    Ms. Richards, you're now recognized for 5 minutes.

  STATEMENT OF CECILE RICHARDS, PRESIDENT, PLANNED PARENTHOOD 
                     FEDERATION OF AMERICA

    Ms. Richards. Thank you, Mr. Chairman.
    I'm proud to be here today speaking on behalf of Planned 
Parenthood, a leading provider of high-quality reproductive 
health care in America. One in five women in this country has 
sought care from a Planned Parenthood health center, and they 
trust us because our rigorous healthcare standards have been 
developed with the Nation's top medical experts over our 99-
year history.
    There has been a great deal of misinformation circulated 
about Planned Parenthood recently, and I want to be absolutely 
clear at the outset: The Federal funding that Planned 
Parenthood receives allows our doctors and clinicians at our 
health centers to provide birth control, cancer screenings, and 
testing and treatment for sexually transmitted infections. Now, 
while the Federal policy, in my opinion, discriminates against 
low-income women, no Federal funds pay for abortion services at 
Planned Parenthood or anywhere else, except in the very limited 
circumstances allowed by law. These are when the woman has been 
raped, has been the victim of incest, or when her life is 
endangered.
    Planned Parenthood operates just like all other health 
centers and hospitals that provide medical care to Medicaid 
patients. Medicaid reimburses us for the preventive health 
services that we provide, and the Department of Health and 
Human Services conducts routine audits of the Medicaid program 
to ensure that these funds are used appropriately. And the same 
is true for the Title X, the Federal Family Planning Program, 
which was signed into law by President Richard Nixon.
    Planned Parenthood has been in the news recently because of 
deceptively edited videos released by a group that is dedicated 
to making abortion illegal in this country. And this is just 
the most recent in a long line of discredited attacks, the 
tenth over the last 15 years.
    The latest smear campaign is based on efforts by our 
opponents to entrap our doctors and clinicians into breaking 
the law. And, once again, our opponents failed.
    To set the record straight, I want to be clear on four 
matters.
    First, using fetal tissue in lifesaving medical research is 
legal according to the 1993 law passed by the Senate 93 to 4 
and based on recommendations from a blue-ribbon panel that was 
created under the Reagan administration.
    Second, currently less than 1 percent of Planned Parenthood 
health centers are actually facilitating the donation of tissue 
for fetal tissue research.
    Third, in those health centers, donating fetal tissue is 
something that many of our patients want to do and regularly 
request.
    And, finally, Planned Parenthood policies not only comply 
with but, indeed, go beyond the requirements of the law.
    The outrageous accusations leveled against Planned 
Parenthood based on heavily doctored videos are offensive and 
categorically untrue. I realize, though, that the facts have 
never gotten in the way of these campaigns to block women from 
health care they need and deserve.
    And, Mr. Chairman, you and I do disagree about whether 
women should have access to safe and legal abortion. At Planned 
Parenthood, we believe that women should be able to make their 
own decisions about their pregnancies and their futures. And 
the majority of Americans agree. We trust women to make these 
decisions in consultation with their families, their doctors, 
and their faith, and not by Congress.
    It is unacceptable that in the 21st century women in 
America are routinely harassed for accessing a legal medical 
procedure. Doctors who provide abortion, as well as their 
families, often face harassment and threats of violence, and 
after this recent smear campaign, it's only gotten worse. These 
acts against women and healthcare providers don't reflect 
American values or the rule of law, and I hope this committee 
will condemn them.
    For 99 years, Planned Parenthood has worked to improve the 
lives of women and families in America. And, largely, as a 
result of access to birth control, women are now nearly half 
the workforce in America and more than half of college 
students. And as a result of better sex education and more 
access to birth control, we are now at a 40-year low for teen 
pregnancy in the United States.
    But for all the progress we've made, there is much still to 
do. For many American women, Planned Parenthood is the only 
healthcare provider they will see this year. And it is 
impossible for our patients to understand why Congress is once 
again threatening their ability to go to the healthcare 
provider of their choice.
    Two weeks ago, I was in Plano, Texas, with one of these 
patients, Dayna Farris-Fisher. And Dayna can't be here today 
because she has a new job and she's supporting her family, but 
if she were here, Dayna would tell you what she told me: that 
Planned Parenthood saved her life.
    In 2013, her husband lost his job and, therefore, their 
health insurance, and not long after, Dayna found a lump in her 
breast. And the only two clinics that would take a patient 
without health insurance couldn't see her for at least 2 
months. So Dayna came to Planned Parenthood for a breast exam.
    And there, our clinician of 21 years, Vivian, guided her 
through the process of followups and referrals and helped make 
sure that her treatment was covered. And she called Dayna 
repeatedly to check on her as she entered treatment. And I am 
really happy to say today that Dayna is now cancer-free.
    Mr. Chairman, I wish this Congress would spend more time 
hearing from women like Dayna. All women in this country 
deserve to have the same opportunities as Members of Congress 
and their families for high-quality and timely health care. And 
so I want to thank you to be here today and the opportunity to 
testify on behalf of Dayna and the 2.7 million patients who 
rely on Planned Parenthood for high-quality, essential health 
care every year.
    Thank you.
    [Prepared statement of Ms. Richards follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Chairman Chaffetz. Thank you.
    I'll now recognize myself for 5 minutes.
    Ms. Richards, Planned Parenthood has sent 32-plus-million 
dollars in grants overseas. Does any of these funds go to the 
Democratic Republic of the Congo?
    Ms. Richards. Congressman, let me tell you----
    Chairman Chaffetz. No, no, no, no. We don't have time for a 
big narrative. I just want to know----
    Ms. Richards. I'm not going to give you--you asked me----
    Chairman Chaffetz. --yes or no.
    Ms. Richards. You asked me a question.
    Any of the money that Planned Parenthood raises and is 
given by foundations and individuals to support family planning 
services around the country is in Africa and in Latin America, 
and they go to individual organizations. I'm happy to provide 
you a list of those organizations, but I did not bring them 
with me today.
    Chairman Chaffetz. If you could give us a list of those 
organizations.
    Does Planned Parenthood have any ownership in foreign--a 
foreign company?
    Ms. Richards. I don't believe so. I don't know what you 
mean by ``ownership.'' We have----
    Chairman Chaffetz. Well, in your 2013 tax return, it lists 
$3.3 million marked as, quote, ``investment,'' end quote, in 
Central America and the Caribbean. I'm just asking if that 
investment was an actual investment.
    Ms. Richards. We don't own anything in those countries. 
What our----
    Chairman Chaffetz. Okay. Let me keep going.
    Ms. Richards. Our global----
    Chairman Chaffetz. I have to keep going. I need to get a--I 
would appreciate a list. And you've been very cooperative so 
far. Give us a list----
    Ms. Richards. We have been extremely cooperative.
    Chairman Chaffetz. Yeah, and I just cited that. If you can 
give us a listing, as you said you would, of where those 
dollars go overseas, we would very much appreciate it.
    Your compensation in 2009 was $353,000; is that correct?
    Ms. Richards. I don't have the figures with me, but I'm--I 
don't want to----
    Chairman Chaffetz. It was. Congratulations.
    In 2013, your compensation went up some $240,000. Your 
compensation, we're showing and based on your tax returns, is 
$590,000, correct?
    Ms. Richards. That's not my annual compensation. Actually, 
my annual compensation is $520,000 a year. I believe there was 
a retirement--there was a program that the board sort of put 
together for a 3-year----
    Chairman Chaffetz. Okay.
    Ms. Richards. I'm happy--again, I think we've been 
extremely forthcoming with all of our documents, so----
    Chairman Chaffetz. Let me go to the next one.
    Mrs. Maloney. Will the chairman yield?
    Chairman Chaffetz. No, I won't.
    Planned Parenthood and its lobbying arm, Planned Parenthood 
Action Fund, control two 527 organizations that have their own 
political activities, Planned Parenthood Votes and Planned 
Parenthood Action Fund PAC.
    Do they receive money from Planned Parenthood to conduct 
these activities?
    Ms. Richards. The Planned Parenthood Action Fund is a 
totally separate corporation, receives no Federal dollars 
whatsoever.
    Chairman Chaffetz. What about the management? Who manages 
it? Do you manage it?
    Ms. Richards. It's managed by a team of people who are 
employed by the Planned Parenthood Action Fund.
    Chairman Chaffetz. Are you one of those that helps manage 
it?
    Ms. Richards. I don't directly manage it, no, sir.
    Chairman Chaffetz. Do you help manage it?
    Ms. Richards. Some of my time is allocated to it, but I do 
not oversee the--I oversee----
    Chairman Chaffetz. In 2013, you were listed as a shared 
employee. In fact, you were compensated with $31,000 to help 
run that organization, correct?
    Ms. Richards. You asked me--excuse me, sir, but you asked 
me if I ran the organization. Some of my time----
    Chairman Chaffetz. Or do you help run it?
    Ms. Richards. Some of my time is allocated to the Planned 
Parenthood Action Fund, which is required by law, and we meet 
all of the legal requirements.
    Chairman Chaffetz. And so you also are involved in the 
Planned Parenthood Action Fund. What--if you could help us 
understand what the duties are for your $31,000 of 
contribution. My guess is--you're running the mothership here--
when you show up and want to have something done, it's probably 
done.
    Does Planned Parenthood control any organizations that 
lobby?
    Ms. Richards. The Planned Parenthood Action Fund is a 
separate organization that has its own board and its own 
fundraising and no Federal employees.
    Chairman Chaffetz. Shared employees, shared assets, shared 
lists, shared emails, shared assets. This is the concern.
    Tell me about the----
    Ms. Richards. Could I--I just want to make sure you 
understood my statement, since I know that we're talking about 
Federal funds. Zero Federal funds are related to the Planned 
Parenthood Action Fund.
    Chairman Chaffetz. It is the commingling that bothers us. 
Every dollar there----
    Ms. Richards. We are----
    Chairman Chaffetz. No. Hold on. Every dollar that you get 
in a Federal--from Federal dollars means you don't necessarily 
have to allocate it for these particular assets. So that's what 
we're concerned about.
    Tell me about the $200,000 you gave to the Ballot 
Initiative Strategy Center. What was that for? That was in 
2013, as well.
    Ms. Richards. So I'm not familiar with that exact payment, 
but I'm happy----
    Chairman Chaffetz. Well, you gave them $200,000. If you 
don't know--you're running this organization.
    Ms. Richards. Sir, I----
    Chairman Chaffetz. Let me--let me----
    Ms. Richards. Excuse me, sir.
    Chairman Chaffetz. No. No. Hold on. Let me list out what 
their goal is. Their mantra is, quote, ``Envisioning a future 
where progressives change the game and use ballot measures as a 
political and civic engagement tool for victory.'' And you gave 
them $200,000.
    Ms. Richards. Sir, I run an organization that has a budget 
of roughly $200 million, and so when you pull out one figure 
out of the last 5 years, I'm trying to be responsive.
    It's important--and perhaps you're not aware that there 
have been many efforts in States over the last several years to 
pass ballot initiatives that restrict women's access to birth 
control and reproductive health care.
    Chairman Chaffetz. But you've also----
    Ms. Richards. So we've absolutely been involved in ballot 
initiative measures that have been introduced by people----
    Chairman Chaffetz. This is why I don't think you need----
    Ms. Richards. --that want to restrict women's health care.
    Chairman Chaffetz. If you want to be a private entity, be a 
private entity, but you don't need Federal dollars in order to 
do this.
    Ms. Richards. I don't use Federal dollars to do that, sir.
    Chairman Chaffetz. You do to run the organization. Planned 
Parenthood----
    Ms. Richards. Excuse me.
    Chairman Chaffetz. Planned Parenthood has given Planned 
Parenthood Action Fund more than $22 million to exercise what--
involved in their lobbying expenditures and their advocacy 
efforts.
    Ms. Richards. None of these--none of the dollars that you 
are discussing are Federal dollars. And the Planned Parenthood 
Federation of America receives almost no Federal dollars. I 
think, at this point, only $21,000----
    Chairman Chaffetz. So it goes through the----
    Ms. Richards. --for a clinical trial network----
    Chairman Chaffetz. It goes through the same organization--
--
    Ms. Richards. --for birth control.
    Chairman Chaffetz. --and you just separate all that out.
    Let me----
    Ms. Richards. We are highly accountable--excuse me?
    Chairman Chaffetz. My time--I've gone over time. I need to 
show this last slide. This one I don't understand.
    And, in the case of Dayna, when she came to Planned 
Parenthood, did she get a mammogram?
    Ms. Richards. No. She was referred for a mammogram. 
Absolutely.
    Chairman Chaffetz. And that's part of the challenge, is 
that you don't do mammograms. So if you----
    Ms. Richards. We----
    Chairman Chaffetz. Go ahead.
    Ms. Richards. I'm sorry, I've never----
    Chairman Chaffetz. You don't do mammograms, correct? 
There's, like, one or two places that does it, but----
    Ms. Richards. That's----
    Chairman Chaffetz. --you don't do mammograms.
    Ms. Richards. If you would give me one moment----
    Chairman Chaffetz. Sure.
    Ms. Richards. --to explain.
    Planned Parenthood is a women's health center, just like 
every--where I go for my breast exams every year. If you need a 
mammogram, you're referred to a radiological center, and that's 
how women actually receive their care.
    And we provide breast exams to--I can get you the numbers 
of how many hundreds of thousands of women received breast 
exams at Planned Parenthood last year. Has nothing to do with--
I don't--again----
    Chairman Chaffetz. Here's the problem.
    Ms. Richards. You created this slide.
    Chairman Chaffetz. And I will try to wrap up.
    Ms. Richards. I have no idea what it is.
    Chairman Chaffetz. Well, it's the reduction over the course 
of years--in pink, that's the reduction in the breast exams. 
And the red is the increase in the abortions.
    Ms. Richards. I----
    Chairman Chaffetz. That's what's going on in your 
organization.
    Ms. Richards. This is a slide that has never been shown to 
me before. I'm happy to look at it, and--but it absolutely does 
not reflect what's happening at Planned Parenthood.
    Chairman Chaffetz. You're going to deny that if we take----
    Ms. Richards. I'm going to deny----
    Chairman Chaffetz. --those numbers out of your report----
    Ms. Richards. It's a slide that you've just shown me, that 
no one has ever provided us before. We've provided you all the 
information about everything, all the services that Planned 
Parenthood provides. And it doesn't feel like we're trying to 
get the truth here. You just showed me this; I'm happy to look 
at it.
    Chairman Chaffetz. I pulled those numbers directly out of 
your corporate report.
    My time has----
    Ms. Richards. Oh, excuse me. My lawyer is informing me that 
the source of this is actually Americans United for Life, which 
is an anti-abortion group. So I would check your source.
    Chairman Chaffetz. Then we will get to the bottom of the 
truth of that.
    We will now recognize Mr. Cummings for a generous 7 
minutes.
    Mr. Cummings. I thought it was 8, Mr. Chairman. I think 
it's 8.
    Chairman Chaffetz. Go ahead.
    Mr. Cummings. Thank you very much.
    Ms. Richards, you know, I often hear women, including my 
wife, talk about the way women are treated as opposed to men. 
And, not being a woman, I at the same time try to be sensitive. 
So I want to just--you know, the chairman just gave you a 
series of questions. I just have a few other ones.
    Ms. Richards, I find it extremely hypocritical that 
Republicans criticize the salaries of Planned Parenthood 
officials when you have violated no laws, especially while 
these same Republicans completely ignore the CEOs of huge 
companies that are actually guilty of breaking the law.
    Earlier this year, Citicorp, J.P. Morgan, and other major 
banks pled guilty to manipulating currency markets and interest 
rates. They were fined more than $5 billion for their actions. 
Yet Citigroup's CEO still received $13 million last year, and 
J.P. Morgan's CEO received $20 million. These banks get 
extensive Federal support in the form of borrowing through the 
Federal Reserve's discount window and access to deposit 
insurance through the FDIC.
    Ms. Richards, do you know if House Republicans made any 
effort to strip the banks of their Federal support that I just 
talked about?
    Ms. Richards. I'm not aware.
    Mr. Cummings. Well, I can tell you. They didn't.
    Johnson & Johnson, another one, was fined more than $2 
billion for illegally marketing drugs and paying kickbacks to 
doctors and nursing homes, yet the company's CEO still received 
$25 million last year.
    Ms. Richards, do you know if the House Republicans 
conducted an investigation of this company or other drug 
companies that violated the law? Do you?
    Ms. Richards. I do not.
    Mr. Cummings. Well, I can answer that for you. No, they 
didn't. And they also never sought to deny them Federal funding 
through Medicaid or to block their NIH grants.
    Let me go on. Last month, Lockheed Martin was fined 
millions of dollars for using taxpayer funds to lobby Congress 
to maintain its hold on a multibillion-dollar Pentagon 
contract. Lockheed's CEO received a stunning $33 million last 
year.
    Ms. Richards, do you know if there has been any 
investigation or any effort--any--to eliminate Lockheed 
Martin's Federal funding?
    Ms. Richards. Sounds like there hasn't been.
    Mr. Cummings. You got it. Of course there wasn't.
    These are huge companies that are actually guilty of 
breaking the law, and their CEOs make millions of dollars. 
Republicans never criticize the salaries of their CEOs, and 
they never try to strip their Federal funding, their government 
subsidies, or their tax breaks.
    But when it comes to women's health--when it comes to 
women's health, the Republicans' approach is completely 
different. Republicans targeted Planned Parenthood, which 
provides essential, high-quality care to millions of American 
women more aggressively than all of these companies combined. 
With no evidence of wrongdoing, these Republican investigations 
multiply, and the political theater continues.
    This whole defunding fight is just a pretext for the real 
Republican agenda--it's a pretext: Take away the constitutional 
right of women and their doctors to decide what is best for 
them. I reject these shameful--these shameful attacks on 
women's health.
    Let me go on.
    Now, Ms. Richards, I want to--again, I want to thank you 
for being here. And Republicans accuse Planned Parenthood of 
selling fetal tissue from abortion for profit. Federal law 
explicitly allows for the reimbursement of reasonable expenses 
for tissue samples. But the Republicans say that Mr. Daleiden's 
videos are proof that Planned Parenthood was making a profit.
    So, at this time, I'd just like to--do you know who Dr. 
Deborah Nucatola is?
    Ms. Richards. Yes, sir.
    Mr. Cummings. And who is that?
    Ms. Richards. She works for us in our medical division.
    Mr. Cummings. I was going to show some clips, but the--our 
friends had some problems with it, so I want to just do some 
quotes from some of the stuff that Mr. Daleiden left on the 
cutting floor when he was doing his--working with the tapes.
    Dr. Deborah Nucatola said, and I quote, ``To them, this is 
not a service they should be making money for,'' end of quote. 
That's left on--that was left on the floor. She said also, 
quote, ``no one's going to see this as a moneymaking thing,'' 
end of quote. She went on to say, ``We're not looking to make 
money from this. Our goal is to keep access available,'' end of 
quote.
    Another quote that was left on the cutting room floor: ``We 
really just want it to be reasonable for the impact it has on 
the clinic. This is not something--this isn't a new revenue 
stream that affiliates are looking at. This is a way to offer 
patients a service that they want, do good for the medical 
community, and still maintain access at the end of the day,'' 
end of quote.
    She went on to say another piece on the cutting room floor. 
You know, this was on the floor. Quote, ``Are there affiliates 
that would just donate the tissue for free?''--or--and then 
there's another one. And then I'll just end with this one. Dr. 
Nucatola said, and I quote, ``Probably, I mean, really the 
guidance is, this is not something you should be making an 
exorbitant amount of money on.''
    And so let me ask you this. Ms. Richards, I cannot imagine 
a more clear answer than these. I mean, as far as I can tell, 
Dr. Daleiden and his group spent the better part of 3 years--3 
years, Ms. Richards--trying and failing to entrap Planned 
Parenthood employees. They tried to get someone to sign a 
contract, agree to a sale, or provide even one tissue sample at 
a price above the reasonable expenses that are allowed under 
the law. But nobody--nobody has identified a single--a single 
incident where that occurred.
    Is that right, Ms. Richards?
    Ms. Richards. That's correct.
    Mr. Cummings. It's amazing how hard Mr. Daleiden and his 
group tried to get your affiliates to accept more than 
reasonable expenses. Over and over again, they pressed, they 
pushed, they cajoled, but they never succeeded.
    So, after they failed in this 3-year effort, when they were 
unable to get even one agreement, they put out these misleading 
videos instead, and they cut out every single time an employee 
said, ``No,'' ``No,'' ``No,'' ``No.''
    Ms. Richards, this is my final question as I run out of 
time. In the clips that I just talked about, Dr. Nucatola was 
not aware that she was being secretly recorded. Do you know 
whether that's accurate or not?
    Ms. Richards. That's completely accurate.
    Mr. Cummings. So she was sharing the truth; that is, 
Planned Parenthood does not seek to profit from its 
participation in fetal tissue research. Is that correct?
    Ms. Richards. That's correct.
    Mr. Cummings. My time is up.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentlewoman from Wyoming, Ms. 
Lummis, for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Thank you, Ms. Richards, for being with us today.
    My first question is, how many Planned Parenthood clinics 
have mammogram machines?
    Ms. Richards. There aren't any Planned Parenthood clinics, 
I believe--to the best of my knowledge, not any have mammogram 
machines at their facility.
    Mrs. Lummis. And how many Planned Parenthood clinics are 
there?
    Ms. Richards. On any given day, between 650 and 700.
    Mrs. Lummis. Okay. So none, to your knowledge, have a 
mammogram machine.
    Ms. Richards. Right. We have different kinds of 
arrangements with--depending on the State, to refer women for 
mammograms.
    Mrs. Lummis. And----
    Ms. Richards. As I said earlier to, I think, the question 
to the chairman, this is----
    Mrs. Lummis. And what surgical services does Planned 
Parenthood provide? Surgical services.
    Ms. Richards. Well, we provide surgical abortions, and we 
provide colposcopy. We do a variety of services. And, Ms. 
Lummis----
    Mrs. Lummis. Can you explain----
    Ms. Richards. --Ms. Lummis, to be responsive, you know, we 
have core services across the country, but some Planned 
Parenthoods provide broader services. Some----
    Mrs. Lummis. Okay.
    Ms. Richards. --provide primary care, et cetera.
    Mrs. Lummis. Okay. I was just asking about surgical 
services with that question.
    Ms. Richards. Okay.
    Mrs. Lummis. Tell me--so abortion is included in ``surgical 
services.'' But can--I want to find out where you get your 3-
percent figure that you cite for abortion procedures. That's 
your self-reported abortion statistic.
    Ms. Richards. That's 3 percent of all the procedures we 
provide in----
    Mrs. Lummis. The----
    Ms. Richards. --all the services that we provide.
    Mrs. Lummis. Okay.
    Well, let's talk about Planned Parenthood revenue from 
abortions. If you look at the 2013 statistics that you report, 
abortions from--if you--from revenue would have been over 86 
percent of your nongovernment revenue.
    How do you explain this massive disparity between the 
amount of revenue you collect from abortion and the fact that 
you only report 3 percent of your services being abortion?
    Ms. Richards. Well, I think there's two questions you've 
sort of mixed in there, so let me try to address both.
    One is, as we've already stated, Federal money does not go 
for abortion, so the Federal portion that we were discussing is 
reimbursement for preventive care services. I think the other--
so that's why they're not--those numbers don't--aren't 
connected.
    Mrs. Lummis. How many----
    Ms. Richards. The----
    Mrs. Lummis. Can you tell me how many of your affiliates 
receive the majority of their revenue from abortion?
    Ms. Richards. I don't know that answer.
    Mrs. Lummis. Could you get it for me?
    Ms. Richards. I'll talk to my team.
    Mrs. Lummis. Thanks.
    Ms. Richards. But I do think it's important to understand 
that abortion procedures are probably more expensive than some 
other procedures that we--that we provide, which might, you 
know, might explain what you're trying to get at.
    Mrs. Lummis. Okay.
    According to your 2013 tax return--I'm switching now to 
travel expenses--Planned Parenthood spent over $5.1 million on 
travel last year. So, as the chairman said earlier, that's 
nearly $14,000 per day.
    What is all that money being spent on?
    Ms. Richards. Well, we're an organization that--we're in 50 
States. We also, as the chairman has noted, we have programs in 
Latin America and in Africa, as well, where we support family 
planning programs in those--so I can certainly--and I think we 
have provided very detailed information, thousands of pages of 
both our financial statements, our audited financials, our 
annual report. And if there's anything that we need to break 
down further, I'm happy to do that.
    What I would say, that, again----
    Mrs. Lummis. I would very much appreciate it if you would 
break it down, because the taxpayers are funding over 40 
percent of Planned Parenthood. And my point is they just have a 
right to know how this money is being spent----
    Ms. Richards. Absolutely.
    Mrs. Lummis. --and if taxpayer dollars are being used to 
free up services that you provide that are aberrant services in 
the view of many taxpayers, when there are alternatives in this 
country, many, many, 13,000 clinics that cater specifically to 
women's health.
    Ms. Richards. Well, Congresswoman Lummis, I'd like to 
address that, Because one of the comments that was made 
earlier, I wasn't able to respond, is that we don't get a 
Federal subsidy. Really it is important to understand for 
everyone here how the Medicaid program----
    Mrs. Lummis. Can you function--let me ask you this--could 
you function on non-Federal dollars? Why do you need Federal 
dollars? You're making a ton of dough.
    Ms. Richards. We don't make any profit off of Federal 
money. And if I could just have a moment to explain, $1.6 
million----
    Mrs. Lummis. But you are using Federal dollars and 
displacing money that could go to the 13,000 healthcare 
clinics.
    My time is up. I yield back.
    Ms. Richards. Could I answer the question?
    Chairman Chaffetz. Sure.
    Ms. Richards. I'm not sure exactly what the whole question 
was, but I do think it's really important that you understand 
that 60 percent of our patients are receiving either--they are 
either Medicaid patients or they may be Title X patients. 
Seventy-eight percent of our patients live at 150 percent of 
poverty or below, and for many of them Planned Parenthood is 
the only family planning provider that will see them in their 
area. Half of our health centers are in medically underserved 
communities.
    So it is not a--we are getting--we don't just get a big 
check from the Federal Government. We, like other Medicaid 
providers, we are reimbursed directly for services provided.
    Mrs. Lummis. Mr. Chairman, thank you for allowing Ms. 
Richards to answer the question. Thank you.
    Chairman Chaffetz. Just as a point of clarification, Ms. 
Richards, I want to make sure there is no ambiguity here. The 
gentlewoman from Wyoming asked for a listing of affiliates 
where the majority of revenue comes from abortion services. You 
said you'd talk to your team. Will you actually provide us that 
list?
    Ms. Richards. I will talk to my team. Just for the record, 
I am here voluntarily. We have provided tens of thousands of 
pages of documents to you. We have provided audited financial 
statements. I will talk to my team and we will do everything we 
can to be----
    Chairman Chaffetz. For the record, you have been very 
cooperative. I just want to keep that rolling. And you were 
good at agreeing to give other bits of information. Why not 
this part of information?
    Ms. Richards. I don't want to commit to anything that I 
don't actually have. I said I will work with you and your team. 
We have no interest in hiding any information.
    Chairman Chaffetz. If you have it, will you give it to us?
    Ms. Richards. I don't have it, so I'm just saying to you, I 
will work with my team, and we are working with your staff to 
provide any and all information that we can.
    Chairman Chaffetz. I would hope that that would include the 
request from Mrs. Lummis of Wyoming as well.
    I now recognize the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman. And I first would 
like to register my opposition and my objection to the chairman 
beating up on a woman, on our witness today, for making a good 
salary. In the entire time I have been in Congress, I have 
never seen a witness beaten up and questioned about their 
salary. Ms. Richards heads a distinguished organization 
providing healthcare services to millions of Americans, and I 
find it totally inappropriate and discriminatory.
    Ms. Richards, are you aware that there are over 285 rallies 
in support of Planned Parenthood, including one in my district 
today, and that many are calling today National Pink Out Day in 
support of the services and life-changing and life-support 
services of Planned Parenthood? Are you aware of that?
    Ms. Richards. I am aware of that, and I look forward to 
changing into pink as soon as these proceedings are finished 
today.
    Mrs. Maloney. And are you aware that over 2.7 million men 
and women in America choose Planned Parenthood as their primary 
health provider and that there are two Planned Parenthood 
clinics in the district that I am privileged to represent? And 
if you go at the end of the day, young women and men are lined 
up through the waiting room, out the door, and on some days 
clear down the block waiting for the healthcare services of 
Planned Parenthood.
    Ms. Richards. I'm glad to hear that. And, again, we're 
pleased to provide services to anyone who walks in our door.
    One of the things that I think is very important and refers 
a little bit to the question earlier is that 60 percent of our 
health centers are able to see patients on the same day. And I 
know for many women, if they are concerned about a lump in 
their breast or they need birth control, and for some of them 
they haven't had an annual exam in many, many years, we are 
proud to be able to serve them with high-quality care when they 
need it.
    Mrs. Maloney. And are you aware that this hearing today is 
promoted by a series of deceptively edited and purposely 
misleading videos that have been found to be deceptively edited 
by leading fact-checking organizations in this country, 
including five States? Five States had their own individual 
investigations. Now it's six. Missouri did their own review, 
and they found that they are complying, that Planned Parenthood 
is complying with all State laws and regulations regarding 
tissue donations.
    Now, are you aware of any other efforts by Republicans and 
others to defund other organizations that provide health care, 
reproductive health care to women in this country?
    Ms. Richards. I'm not aware of any, but there may be.
    Mrs. Maloney. What about attacks on Title X?
    Ms. Richards. Well, I think it has been concerning that not 
only are we seeing in this country efforts to end access to 
safe and legal abortion, which is an important right of women 
in America, but the reductions in support for family planning 
are equally disturbing.
    I'm very encouraged actually that finally we are beginning 
to see some breakthrough. As I said earlier, we have now the 
lowest teen pregnancy in 40 years in America. We are seeing 
much better birth control and through the Affordable Care Act 
now 50 million women getting access to no-cost birth control. I 
think there is a lot we can do to reduce unintended pregnancy 
in America.
    Mrs. Maloney. What do you say to those who want to defund 
Planned Parenthood and outlaw abortion altogether in our 
country?
    Ms. Richards. Well, I think what is important to me is, you 
know, at Planned Parenthood we trust women to be able to make 
their own healthcare decisions and to make their decisions 
about where they want to go to for health care. And I know that 
a lot of the members of this committee feel strongly that 
people should be able to go to their own doctor. So this isn't 
really an attack on Planned Parenthood. This is an attack on 
2.7 million patients who each year choose Planned Parenthood as 
their healthcare provider, and I think they should have that 
right.
    Mrs. Maloney. And I agree with you completely. We in 
Congress can choose our healthcare provider. Vulnerable men and 
women should likewise be able to choose their healthcare 
provider.
    I would just like to end by saying that using these videos 
to justify efforts to defund Planned Parenthood is an extreme 
abuse, it is deceitful, and it undermines the integrity of this 
committee.
    Thank you. My time has expired.
    Chairman Chaffetz. The gentlewoman's time is expired.
    I now recognize the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Ms. Richards, if the videos were selectively edited, 
heavily edited, if this was entrapment, if this was all untrue, 
then why did you apologize?
    Ms. Richards. Well, Congressman, first I think everyone has 
agreed they were heavily edited and that certainly I think even 
the perpetrator agreed----
    Mr. Jordan. My question is, why did you apologize?
    Ms. Richards. The perpetrator has agreed they were done 
undercover. I spoke with Dr. Nucatola, who was featured in one 
of the videos, and I thought it was important. In my opinion, 
it was inappropriate to have a clinical discussion in a 
nonconfidential, nonclinical setting, and I told her that.
    Mr. Jordan. What were you apologizing for?
    Ms. Richards. That she used, I think, in my judgment, it 
was bad judgment to have a clinical discussion in a nonclinical 
setting.
    Mr. Jordan. I mean, the first video comes out July 14. Two 
days later you go and issue an apology. And you said this: 
``It's unacceptable. I personally apologize for the tone and 
statements.'' Well, I want to know----
    Ms. Richards. I felt like----
    Mr. Jordan. No, here is the question. Which statements were 
you apologizing for?
    Ms. Richards. It was really the situation that she was in. 
And I believe that, again, at that----
    Mr. Jordan. But, Ms. Richards, that's not what you said. 
You said: I apologize for statements. I'd like to know, I think 
the American people would like to know which statements in the 
video were you apologizing for. Were you apologizing for 
statements that were untrue? Because you normally don't do that 
in life. If something is untrue and false, you don't apologize 
for that, you correct the record. But that's not what you said. 
You said: ``I personally apologize for the tone and 
statements.''
    And I'm asking you a simple question. There was only one 
video at the time you issued this statement, when you did your 
video. There was only one video. I want to know, in that video 
that you were referencing, which statements were you 
apologizing for?
    Ms. Richards. Well, Congressman, at the time, as you I'm 
sure remember, that video was released, we'd had no time to 
actually evaluate how much editing had happened. It was days 
later that we were able----
    Mr. Jordan. Which true statements in that video were you 
apologizing for, Ms. Richards?
    Ms. Richards. And so I was reflecting that on that video, 
not any particular statement, that given--did not reflect the 
compassionate care that we provide at Planned Parenthood.
    Mr. Jordan. Okay. Well, that raises an important question. 
So is what you said in your video untrue, you weren't really 
apologizing for statements made?
    Ms. Richards. I was apologizing for what was said in a 
nonclinical setting, in a nonappropriate way, and I don't 
believe--and I don't believe----
    Mr. Jordan. You can't have it both ways. You can't say, I'm 
apologizing for statements in one video, and then not tell us 
what those statements were.
    Ms. Richards. I don't believe that Dr. Nucatola----
    Mr. Jordan. Or you can do this. You can say:You know what? 
What I said in the video I produced wasn't true. I really 
wasn't apologizing for any statement. You can tell us that here 
on the record if you'd like. But it can't be both positions. It 
has to be one. And I want to know which one is it? And, 
frankly, the American people want to know which one is it?
    Ms. Richards. In my judgment it was inappropriate to have 
that conversation in a nonclinical setting, in a non 
confidential area about clinical matters, and I have told that 
to Dr. Nucatola.
    Mr. Jordan. Okay. Why didn't you say that?
    Ms. Richards. I will also tell you, Dr. Nucatola----
    Mr. Jordan. Why didn't you say that? This wasn't a reporter 
sticking a mic in front of your face. This was a video you 
produced to send out to the whole world.
    Ms. Richards. Congressman, we may just have to agree to 
disagree----
    Mr. Jordan. Why didn't you say that? If that's what you 
were thinking, why didn't you say that?
    Ms. Richards. We may just have to agree to disagree on this 
matter. I think I've explained myself.
    Mr. Jordan. I don't think we're agreeing to disagree. I 
think you're not answering my question.
    Ms. Richards. Well, I've answered it, I think, repeatedly 
here. And I want to say also for the record----
    Mr. Jordan. Real quickly, just for the record, but this to 
me is critical. Because at the moment you did this, there was 
only one video. And then you do your video in response to that 
video. And you made a specific statement. I'm sure your staff 
worked on the issue, prepared it. This probably went through a 
number of drafts. And you were very specific in what you said: 
``I apologize for the tone and statements.''
    So there are obviously statements in that first video that 
were accurate that you didn't think needed to be out there, and 
you wanted to apologize for it, and you wanted that message 
heard by the American people. And I'm asking you a simple 
question. In that first video----
    Ms. Richards. Congressman Jordan----
    Mr. Jordan. In that first video, tell me what you needed to 
apologize for?
    Ms. Richards. That highly edited video, that now, of 
course, as we have gotten further and I have read pages--pages 
and pages now----
    Mr. Jordan. That highly edited video that you apologized 
for.
    Ms. Richards. Excuse me. I have now read hundreds of pages 
of all of the things that were said, and what is clear now, 
that there were many, I think 10 times during that 
conversation, in which Dr. Nucatola expressly said----
    Mr. Jordan. Ms. Richards, it's a simple question.
    Ms. Richards. Well, I have answered it as best----
    Mr. Jordan. It is as simple and as basic as it gets. You 
don't apologize for things that are inaccurate. You apologize 
for things that are accurate. And you said there were 
statements in that first video that I want to apologize for. 
I'm asking you to tell this committee chairman, this committee, 
and the American people, what were those statements?
    Ms. Richards. Well, I think I have already made my 
explanation. And just for the record, Dr. Nucatola is an 
excellent doctor.
    Mr. Jordan. I'm not saying she's not. I'm asking what you 
said.
    Ms. Richards. Well, I'd just like--you've had your moment.
    Chairman Chaffetz. The gentleman's time has expired.
    Ms. Richards. I wanted to make sure that you understood 
that she provides incredibly compassionate care and I'm proud 
of her.
    Chairman Chaffetz. Thank you.
    I now recognize the gentlewoman from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Ms. Richards, first I want to thank you for the 
Medicaid funds you do receive. The fact that they are Medicaid 
funds makes its own statement about who you are serving. You 
are serving low-income women in my community and throughout the 
country. I want to thank you for that.
    I want to congratulate you on raising your own funds. You 
receive a very small grant. You are being investigated by four 
committees of the United States Congress and the Speaker wants 
a standing committee. None of them have indicated they want to 
investigate this deceptive tape, which at the moment is 
enjoined because it may indeed be illegal. Yet, this committee 
is about uncovering illegal matters, not providing a cover for 
such matters.
    You know, when I saw this tape I had a sense of dj vu, and 
I asked the staff to look to see, you know, isn't there some 
kind of pattern here, and discovered that there were nearly 10 
of these deceptive sting operations over the past 10 or 15 
years.
    Ms. Richards. Correct.
    Ms. Norton. May I ask you, has any one of those stings 
uncovered wrongdoing on the part of Planned Parenthood?
    Ms. Richards. Absolutely not. And thank you, Congresswoman 
Norton, I think it is important to recognize this is a tactic 
that has been used repeatedly, and as you say, 10 times in the 
last 15 years, and every single time it's been thoroughly 
discredited.
    Ms. Norton. You know, and it seems they never learn, Ms. 
Richards. I want to bring to your attention a sting from 2000 
that looks remarkably like this one. An anti-abortion extremist 
approached the committee, I think it was the House Energy and 
Commerce Committee, to say that they had evidence that Planned 
Parenthood was selling fetal tissue for profit, which is, of 
course, what has been alleged by Republicans consistently.
    Of course, there was an investigation, a hearing with this 
whistleblower, who claimed he had helped Planned Parenthood 
sell fetal tissue for profit and that he had seen intact 
fetuses at a Planned Parenthood clinic. By the way, does that 
not sound familiar? He said--there was an affidavit at the 
hearing. He swore that in his affidavit--this is somebody who 
was watching out for perhaps being prosecuted at the hearing--
that he had no personal knowledge of anyone at Planned 
Parenthood selling fetal tissue for profit.
    During his testimony--this is about 15 years ago--he 
admitted that he was paid by an anti-abortion group to appear 
in the sting video. And I want to quote what he said. ``When I 
was under oath, I told the truth. Anything I said on the video 
when I was not under oath, that is a different story.'' Does 
that not sound like the story of this video?
    Ms. Richards. I think it does.
    Ms. Norton. I want to know how you can protect yourself as 
an institutional matter, how do you deal with these repeated 
stings, unsuccessful though they are, being approached year 
after year as you attempt to provide health services for low-
income women? What do you do as an institutional matter with 
repeated stings to keep going in the face of this activity?
    Ms. Richards. Well, I think what keeps us going, and I 
think I could speak here for the thousands of folks that work 
at Planned Parenthood, many of whom deal with threats to their 
own personal safety, is it's the patients, that's what keeps 
you going.
    Ms. Norton. But is there anything you could do to protect 
yourself, excuse me, to protect yourself when people come off 
the street? You presume they would be in good faith. Is there 
anything that an organization could even do to protect 
themselves against unethical activity of this kind?
    Ms. Richards. Well, we work--I mean, we work very hard to 
protect our patients, and they are our number one priority 
always, and so we have security. We take it very, very 
seriously. It's a shame to think that there are people in this 
country who are so committed to ending women's access to both 
birth control and safe and legal abortion that they will really 
resort to any means to try to entrap people, twist the truth, 
in order to reach their ends.
    But again, we believe, and why I'm here voluntarily today, 
is that the facts are on our side. We're proud of the health 
care that we deliver every single year, despite the animosity 
by some, and we are grateful that the American people stand 
with Planned Parenthood, as I think as the Wall Street Journal 
showed last night.
    Ms. Norton. Sixty-five percent.
    Ms. Richards. Thank you, Congresswoman.
    Chairman Chaffetz. I thank the gentlewoman.
    We'll now recognize the gentleman from Florida, Mr. Mica, 
for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    Thank you, Ms. Richards, for being with us.
    I guess we're all products of our personal experience. We 
heard the chairman, we heard the ranking member, how their 
lives are affected. I guess when I was young I had a different 
opinion, but when my wife and I lost our first child your life 
and your philosophy change. And from that time, I tried to be a 
champion for the unborn. They don't have advocates. A lot of 
groups, they get a lot of money advocating. But they don't have 
a very good lobby.
    You are an advocate for abortion, and your organization 
provides a significant number of abortions. I think the staff 
told me there were about 300,000 abortions last year in the 
United States. Is that approximate?
    Ms. Richards. About 300,000 at Planned Parenthood.
    Mr. Mica. At Planned Parenthood.
    Ms. Richards. That's correct.
    Mr. Mica. What's the total in the United States?
    Ms. Richards. I think it's about a million. Actually, don't 
hold me to that, though. I don't have the numbers in front of 
me.
    Mr. Mica. So basically you provide about a third of the 
abortions. So you're the leader--you would probably have to be 
the leading provider of abortion in the country, your 
organization?
    Ms. Richards. I don't know if that's exactly true. I just 
only know what we do.
    Mr. Mica. You know, I have had belief of some exceptions, 
but there are many people that I represent myself who object to 
any public money going into abortions. I think the majority of 
Americans would oppose public Federal dollars going into 
abortion. Would you agree with that?
    Ms. Richards. I don't think the polling reflects that, but 
I guess--and it depends. I'm not familiar with your district.
    Mr. Mica. Again, I think if you ask people, I think they 
would, and that's part of it.
    Now, the most recent controversy raised questions about 
public money and your organization. I looked at it, I was kind 
of stunned. It's about 41 percent of your total money is 
Federal money. That's not just a small amount, because if you 
had your--the money you get from different programs, grants, et 
cetera, it's 41 percent, and I have had that figure confirmed. 
That's a significant amount of money.
    Nobody--I don't think most people have any problem with you 
spending the money on women's health care. I'm a strong 
advocate for that. You have 650 clinics?
    Ms. Richards. Roughly. There are new ones opening all the 
time.
    Mr. Mica. You told Mrs. Lummis that you don't have one 
mammogram machine in one?
    Ms. Richards. We have never--mammograms have never----
    Mr. Mica. So you don't do that, but you----
    Ms. Richards. We do breast exams.
    Mr. Mica. You do.
    Ms. Richards. Just like my own doctor does for--right.
    Mr. Mica. But your breast exams actually are down 
significantly. And I have got the numbers from your reports, 
from 830,312 exams in 2009 to 487,029 in 2013. And those are 
your statistics. So you are getting more money. You are not 
spending it there.
    Now, do all 650 of the clinics perform abortions?
    Ms. Richards. No, sir.
    Mr. Mica. How many?
    Ms. Richards. Roughly half provide abortion services.
    Mr. Mica. So half of the clinics. Again, this is where when 
41 percent of the money is coming out of the public treasury, 
people become concerned. And there are people who their 
religion, their principles, they feel very strongly, as do I, 
that no public money should go into this.
    Mr. Cummings said we should do everything we should to put 
money into research. You're not putting money into research.You 
know, you're criticized for your salary, which is, you know, 
it's a big organization. But then you look at where's the money 
going? In Minnesota, North Dakota, South Dakota, one employee 
got $459,000; in southern New England one employee got nearly 
$400,000, $398,000; another one, in Mira Monte, $387,000; 
another one, $377,000; another one, a-quarter-of-a-million 
dollars. There are dozens of employees in the quarter-of-a-
million-dollar range.
    People want the money to go for research, people want the 
money to go for helping women with their health care, 
identifying the problem, or putting the money where it can do 
the most good. And again, we don't--we have at least the 
perception of it not being the case when the chairman outlined 
travel, lavish parties, and expenses. And maybe you separate 
that money out, but I'm telling you, it does not look good.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    Ms. Richards. I would love a chance to respond, but I guess 
that wasn't really----
    Chairman Chaffetz. It was more of a comment than a 
question. We need to keep the pace here.
    Ms. Richards. Okay.
    Chairman Chaffetz. We'll now recognize the gentleman from 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. I thank the chair.
    Welcome, Ms. Richards.
    Ms. Richards. Thank you, Congressman.
    Mr. Connolly. I wish your mom were here today. She'd be 
handing out Texas boots to a lot of my colleagues.
    Ms. Richards. She's here in spirit.
    Mr. Connolly. Yeah, thank God.
    You know, I hope every American woman is watching today's 
hearing because just the visuals, as well as the audios, tell 
you a lot. My colleagues like to say there is no war on women. 
Look at how you've been treated as a witness: Intimidation, 
talking over, interrupting, cutting off sentences, criticizing 
you because of your salary. How dare you? Who do you think you 
are? Making a professional salary as the head of a premier 
national organization and daring to actually make decisions as 
the head of that organization. Lord Almighty, what's America 
coming to?
    The disrespect, the misogamy rampant here today tells us 
what is really going on here. This isn't about some bogus 
video, the author of whom does not have the courage to appear 
here, nor would the majority call him because they know he'll 
make a bad witness under oath. This is about a conservative 
philosophy that says we are constitutionalists. They hold it 
up. We believe in rugged individualism and personal liberty. 
With one big carveout, though, there is an asterisk in that 
assertion, and that is except when it comes to women 
controlling their own bodies and making their own health 
decisions.
    You would never know that the Constitution, according to 
the Supreme Court, guarantees a right of choice. Hopefully, 
apparently, we're going to erode that choice and that right by 
using insinuation and slander and half truths to besmirch a 
premier organization whose primary mission is to provide health 
services both to men and women, but primarily women.
    You know, this notion, one of my colleagues said, well, 
getting rid of Planned Parenthood will just hand over these 
functions to community health clinics and other nonprofits that 
can take up the slack. Now, if you were really committed to 
that principle, surely you would agree to the expansion of 
Medicaid as provided under the Affordable Care Act to, in my 
home State of Virginia, 400,000 people who aren't currently 
covered.
    Ms. Richards. That's correct.
    Mr. Connolly. Make your job a lot easier, wouldn't it?
    Ms. Richards. A lot of women, a lot of families in this 
country need access to health care that are getting it.
    Mr. Connolly. Right. So if we really mean it, that's what 
we do. But of course the very same people who are saying that 
vehemently oppose the expansion of Medicaid, which would be 
funded in the first 3 years by 100 percent of Federal dollars 
and thereafter 90 percent, a good deal for any State, which 
might be why the Governor of Ohio, the Republican Governor of 
Ohio actually agreed with that and expanded it.
    Ms. Richards. That's right.
    Mr. Connolly. Is there anything else you want to add, 
uninterrupted, with some sense of respect, Ms. Richards? Let me 
at least provide that to you.
    Ms. Richards. Well, thank you, Congressman. And I did want 
to respond to some of what's been said. We are a healthcare 
provider to 2.7 million people every year. They come to us by 
choice. And so when I think about what's really at stake here, 
particularly for folks who think about ending access to Planned 
Parenthood, I think about those folks.
    Last year, we provided 3.5 million birth control services 
in this country; 4.4 million STD testing and treatments; 
378,000 Pap tests; and almost half a million breast exams; and 
more than a million pregnancy tests. I think it's interesting, 
one of the things we do at Planned Parenthood is we work to the 
highest level, most current level of health care for women. And 
so it's interesting, we are being criticized for the decline in 
Pap smears, but in fact that's because we actually have adopted 
the recent--the best medicine, which is that not every woman 
needs a Pap smear every year.
    To me that's what we're about, is making sure that every 
woman in this country, regardless of where she lives, 
regardless of her income, her immigration status, whether she 
is insured, can get access to health care. That's what we do at 
Planned Parenthood and we're proud to do it.
    Chairman Chaffetz. I thank the gentleman.
    Mr. Connolly. And there's other thing, and that's called 
respect. Thank you, Ms. Richards, for being here.
    Ms. Richards. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Tennessee, Mr. Duncan, 
for 5 minutes.
    Mr. Duncan. Ms. Richards, this is my 27th year in Congress. 
I can assure you, I have seen many male witnesses treated much 
tougher than you have been treated here today. And also, 
surely, you don't expect us--I can assure you, I'm not going to 
be tough on you, but surely, you don't expect us to be easier 
on you because you're a woman?
    Ms. Richards. Absolutely not. That's not how my mama raised 
me.
    Mr. Duncan. Right.
    Let me ask you this. You say in your testimony that a lot 
of women wouldn't have access to certain types of health care 
were it not for Planned Parenthood. Do you know that the 
Department of Health and Human Services says there are 9,727 
healthcare service delivery sites, there are 4,082 rural health 
clinics, 1,200 federally funded qualified health centers that 
also operate 9,000 other sites--over 9,000? Do you know about 
that?
    Ms. Richards. Uh-huh.
    Mr. Duncan. And you also know that there are over 2,000 
pregnancy health centers, over 80 percent of which receive no 
Federal funds at all. And that doesn't even count the many 
hundreds of thousands of private doctors, nurses, and 
healthcare delivery services, walk-in clinics, and so forth. 
Have you taken all of that into consideration?
    Ms. Richards. Certainly. I mean, what I can speak to is 
what I know about is the patients that choose--again, 
voluntarily--to come to us. I think one of the interesting 
things is that for nationally a third of the women who access 
family planning services through a safety net provider, a third 
of the women get that from Planned Parenthood, even though--
even though we are only----
    Mr. Duncan. But my point is there's many, many thousands of 
other alternative healthcare providers.
    Let me ask you this. According to our reports, there are 
2.3 million private charitable organizations. Almost all of 
them receive no Federal funds. But do you know how many receive 
41 percent of their funding from the taxpayers?
    Ms. Richards. I don't know how many see as many patients as 
we do. We see 2.7 million patients a year.
    Mr. Duncan. Well, I'm saying, do you know of any other 
private charitable organizations that are receiving 41 percent 
from the government or $528 million from the taxpayers?
    Ms. Richards. Well, again, I think the comparison, the fair 
comparison would be, who is seeing 2.7 million patients? 
Because as I said earlier, we don't get a big check from the 
Federal Government. We actually are reimbursed for services 
delivered, for birth control, for STD testing and treatment, 
for well-woman visits.
    Mr. Duncan. Well, I can tell you that almost every one of 
those 2.3 million charitable organizations would, I'm sure, if 
given the opportunity, would tell us that the government--
taxpayers benefit from what they're doing also. And just to 
give you an example, the national Boys & Girls Clubs in their 
last annual report said they received $26 million from the 
Federal Government compared to your $528 million. It seems a 
little bit lopsided to me.
    Ms. Richards. Well, I think the cost of providing health 
care to 2.7 million people, and I very much respect the Boys & 
Girls Club, but we are actually just--we work like hospitals 
and other healthcare providers and being reimbursed for--
directly for services that we provide. Again, I think it's--the 
comparison is a little apples and oranges.
    Mr. Duncan. Let me ask you this. Do you think it's right in 
a free country to force people to contribute to your 
organization? Because that's what you are doing, taking 
taxpayer money from people that are totally opposed to what 
you're doing.
    Ms. Richards. We provide health care under the Medicaid 
program just like every other hospital and healthcare provider 
that sees Medicaid patients. And I think one of the things 
that's important to understand is in many areas there aren't 
new doctors or healthcare providers that will see Medicaid 
patients. So particularly when you are talking about OB-GYN 
services, it's not always easy for women, and particularly in 
the southern United States, to find someone who will actually 
provide them a well-woman visit, birth control services.
    Mr. Duncan. Let me ask you this because my time is running 
out. But I know you apologized for the discussion and the tone 
and maybe the laughter--I don't know whether you apologized for 
the laughter or not on the videos. But I'm not clear on this: 
Do you defend the sale of baby body parts?
    Ms. Richards. No. And I think that is really a total 
mischaracterization. Fetal tissue research, which as I 
mentioned was started, the whole commission that legalized and 
created the structure under fetal tissue research was started 
under the Reagan administration. And it is--actually what it 
does is facilitates fetal tissue donation. And that is 
actually, as I said, fewer than 1 percent of our health centers 
do any--facilitate fetal tissue donation for the patient. But 
fetal tissue research----
    Mr. Duncan. My time has run out. I just want to say this. 
It seems to me that the apology you offered was like what some 
criminals do. They're not really sorry for what they've done, 
they're sorry they got caught. And it seems to me that your 
apology is more because you got caught on these videos.
    Thank you, Mr. Chairman.
    Ms. Richards. I respectfully disagree.
    Mr. Jordan. [Presiding.] I thank the gentleman.
    The gentlelady from Illinois, Ms. Duckworth, is recognized.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Ms. Richards, thank you for being here and testifying 
today. I'm troubled by the ongoing attacks to defund Planned 
Parenthood, an organization that provides such extensive 
preventative healthcare services to millions of women.
    And in fact, I ask unanimous consent to submit for the 
record a letter from 92 organizations that work closely with 
Planned Parenthood talking about all of the great, high-quality 
health care Planned Parenthood provides to women and men across 
the country.
    Mr. Jordan. Without objection, so ordered.
    Ms. Duckworth. Thank you.
    I, myself, have received services from Planned Parenthood. 
In fact, I, like many young men and women in this country, when 
I was in my early 20s and first in college, I came from a very 
poor family and I wasn't really able to afford college. And, in 
fact, I went to college based on student loans and Pell grants 
and two jobs, one of which was as a waitress. I couldn't get 
that waitressing job without getting a health exam, and I 
couldn't afford to go to a doctor. And the job was there. You 
can start Friday if you come in with a valid health exam. Go to 
your local Planned Parenthood. They will do it for you today 
and you can start work in 2 days. It was a lifesaver.
    And so I remember what it was like to be a young person, 
needing the health care and being able to trust that I could go 
to my local Planned Parenthood to get all the care that I 
needed. So thank you to the organization for providing those 
services for me when I was in need.
    I want to talk a little bit about what you do across the 
country and focus a little bit, as an example, on my home State 
of Illinois. I think it is a critical point that 96 percent of 
the services that Planned Parenthood, according to your most 
recent annual report, are for preventative and screening 
services. In fact, in Illinois for 2015, and I think--tell me 
if these numbers sound accurate to you--nearly 60 percent 
patients were served over the course of approximately 110,000 
visits in Illinois. Nearly 50,000 visits were for contraceptive 
services and over 34,000 visits were for STD testing and 
treatment; 7,000 visits were for cancer screenings. Does that 
sound about right to you, Ms. Richards?
    Ms. Richards. That does. That does, thank you. Yes, 
Congresswoman.
    Ms. Duckworth. Thank you.
    I would like to address an issue that started very early on 
in this hearing, which was this implication that by allowing 
Medicare and Medicaid to reimburse Planned Parenthood we are 
shifting money away that could be better used for military 
defense and for our service men and women. And as a military 
woman who just retired after 23 years of service, I would like 
to ask you to talk a little bit about the services that Planned 
Parenthood has provided to military men and women and their 
families for the past several decades, and also include the 
women of the Peace Corps.
    You know, I think it is especially important to note that 
the very women who are willing to lay down their lives to 
defend the Constitution of this great Nation were denied 
services under the Hyde Amendment for abortion services, 
especially as a result of rape or incest. And especially, you 
know, this is tragic in light of the many tens of thousands of 
women who are victims of military sexual trauma every single 
year. So can you go over what you have done for military men 
and women and Peace Corps volunteers for the past many decades?
    Ms. Richards. Well, thank you. And I'm glad we were able to 
provide you health care when you needed it. I know for many 
young women, I too, my first real doctor visit was at a Planned 
Parenthood when I had gone away from Texas. So I am grateful as 
well to the organization.
    We do serve everyone, and that is really--our mantra is 
``Care. No matter what.'' We believe it's so important that no 
matter what walk of life someone comes from, whether they're 
insured, whether they're in the military, that they get 
services. In fact, I remember the last time that this House of 
Representatives went through a similar exercise, I remember 
hearing from a woman in North Carolina, who said, you know, she 
wrote in, she said: I don't know that they know that us 
military wives go to Planned Parenthood when the doctor on base 
can't see us.
    And so I do know that we serve military families all over 
this country, and we're proud to do so.
    Ms. Duckworth. Can you talk a little bit about Senator 
Murray's bipartisan legislation to allow--Women Veterans and 
Family Health Services Act--which would allow us access to IVF 
treatment, many of us for infertility issues caused by our 
military service, being withdrawn as a result of the attacks on 
Planned Parenthood?
    Ms. Richards. Well, I'm not familiar with all the details 
of her bill, but I know Senator Murray has been a strong 
advocate for addressing--ensuring that women in the military 
get the same types of services that women do here in the 
States. And I think we are highly supportive of that. It is 
incredibly important to me that women--we equalize women's 
access to health care, both globally and in the U.S.
    Ms. Duckworth. Thank you very much, Ms. Richards.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. [Presiding.] I thank the gentlewoman.
    We'll now recognize the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. I thank the chairman.
    And I thank the witness for being here. And I want you to 
note I'm wearing a pink tie in solidarity with women's health 
issues today. My wife, my daughter-in-law, my daughter, my two 
granddaughters----
    Ms. Richards. Congratulations.
    Mr. Walberg. --are extremely important to me.
    Just to go back to some of the statements on the videos, 
and I'm not going to spend time there, but Planned Parenthood 
commissioned a report by Fusion GPS examining the authenticity 
of the videos. The conclusion of that report says the analysis 
did not reveal widespread evidence of quote, ``substantive 
video manipulation,'' and it, quote, ``shows no evidence of 
audio manipulation.'' Full versions of the videos are available 
on the Center for Medical Progress Web site and the CMP YouTube 
channel showing that the only parts that have been edited out 
are, one, bathroom breaks, and, two, breaks where no 
conversations took place.
    I just want that stated for the record, Mr. Chairman, as we 
have a lot of controversy about the videos. And yet, the eyes 
show it, but ears even more so hear what was said.
    Let me go----
    Ms. Richards. Could I address that?
    Mr. Walberg. Very quickly.
    Ms. Richards. Yes, I understand that.
    Mr. Walberg. Because I want to go on to more crucial 
issues.
    Ms. Richards. Well, I do think it's important that we at 
Planned Parenthood asked, I think even perhaps prior to this 
committee, that all of the original source footage be released, 
and that's actually--that has still not happened. Because, 
again, we want to know--we want all of it out there.
    Mr. Walberg. Well, we want to know too, and I think that 
would be an opportunity.
    Ms. Richards. So I think we can agree on that.
    Mr. Walberg. But what we have seen so far, the ears have 
heard what was said.
    Also, I would address the unnecessary attacks coming from 
some of the other side, especially on men taking an interest in 
the lives of people most important in our lives. If men in this 
society aren't allowed to stand and defend the women and 
children we love, what has our country fallen to?
    It's a shame we are even having this type of hearing today 
when we have been brought into a frenzy and a concern about 
what happens to our babies, our most defenseless. I just held 
in my arms my brand-new granddaughter 3 weeks ago in an African 
country where she was born. I thank God for that life, that 
unique special life. And I told my son-in-law on the way home, 
I said: It's amazing, Prince, that as we drive home here today, 
having never met this little girl before, I would give my life 
for her. I love her. She is unique and special.
    That's why we have this hearing today. We want to get to 
the truth. We want to make sure women's healthcare issues are 
dealt with, and dealt with appropriately.
    In that same country, meeting with the President of the 
country the next day, and the Speaker of Parliament, who is a 
female, they pleaded with me as a Member of Congress to stop 
hurting their women and families and children, trying to change 
their culture with organizations like our State Department, 
USAID, and Planned Parenthood.
    Let me ask some questions here, and I take this information 
from Planned Parenthood Federation of America, your Web site, 
and I take it from Medicare Benefit Policy Manual. It says that 
both federally qualified healthcare centers, 13,000 of them in 
this listing, and Planned Parenthood centers provide pelvic 
exams, Pap, HPV testing, STD testing, manual breast exams, 
birth control. Both entities provide that. Is that correct?
    Ms. Richards. I don't know what all of the entirety of what 
all FQHCs provide, but I know that we provide all of that.
    Mr. Walberg. But you provide all that I just mentioned?
    Ms. Richards. Yes.
    Mr. Walberg. But emergency first responder care, 
mammograms, immunizations, diabetes and glaucoma screenings, 
cholesterol screenings, pediatric eye, ear, dental screenings, 
well-child services, radiological services, cardiovascular 
blood test, bone mass measurement, nurse on staff, all of 
those, according to your Web site, you don't provide.
    Ms. Richards. We provide in some places, but it's not a 
core service, so it depends on the State.
    Mr. Walberg. It's not a promised service.
    Ms. Richards. It depends on the State.
    Mr. Walberg. According to the Medicare Benefit Policy 
Manual, the federally qualified healthcare centers provide 
those services. Now, if we're talking about care for women, I 
would suggest that the care is there in 13,000 without the 
controversy of the abortions, the fetal manipulation, and 
potential use of body parts in the wrong way.
    And I think for the record, if we're talking about women's 
health care, the issue of where we find it, it's found in 
13,000-plus centers available to women, and Medicaid isn't 
dealing with it. And oh, by the way, your opening statement 
indicated great problems with Medicaid, and ObamaCare is 
supposed to take care of that.
    I hear my time has ended, and thank you, Mr. Chairman.
    Ms. Richards. I would be happy to----
    Chairman Chaffetz. The gentleman yields back.
    I now recognize the gentlewoman from Michigan, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you.
    There's a couple of things. It is very troubling to sit 
here as a woman and to hear some questions that obviously are 
insensitive. One, the continual question of why don't you 
provide the x-rays for a mammogram where every woman here knows 
you have a primary doctor, and that doctor examines you, and if 
there is a lump, you are referred to a specialist. So I wish 
those who would sit here to ask those questions would actually 
have the sensitivity to understand what a woman goes through 
with her health care. That would allow us to ask more pertinent 
questions.
    Secondly, it is exhausting to keep hearing about Federal 
dollars being spent on abortion when repeatedly the facts 
state--and it's not a controversy, read the facts, do your 
research before you ask these exhausting, sometimes, I feel, 
insulting questions--we cannot use Federal dollars for 
abortion.
    This is not a lump-sum budget item that we give to Planned 
Parenthood. It is reimbursement. How many times does that have 
to be repeated for this to become an embraced fact? If there 
were no citizens of the United States going to Planned 
Parenthood to receive these medical approved services, that we 
approve as a Congress, there would be no reimbursement going to 
Planned Parenthood. They would not receive any funds.
    I just, for the life of me, sitting here today, I know my 
colleagues are more intelligent than this, and it is exhausting 
to hear just a philosophy of attack to just use information 
that is totally incorrect, as if I keep saying it, some kind of 
way it becomes factual.
    My question. Ms. Richards, there seems to be this 
continuous thought that if Planned Parenthood went away, that 
there would be these other healthcare services for a million of 
women because you went away. There is a suggestion that all of 
these community health centers would just step in and fill up. 
Sara Rosenbaum, a professor of health and law and policy at 
George Washington, has worked with the community health centers 
for years. And I quote, ``A claim that community health centers 
readily can absorb the loss of Planned Parenthood is a gross 
misrepresentation.''
    I would ask you, Ms. Richards, can, in your experience in 
health care, the perception that if you went away, it would be 
totally absorbed, can you please respond to that?
    Ms. Richards. Thanks, Congresswoman. Yes, I think this is a 
really important point, and I know there has been a lot of 
discussion.
    First, just for the record, we see 2.7 million patients a 
year; 78 percent of them are at 150 percent of poverty or 
below. So these are a group of women and men and young people 
who are often uninsured and certainly have less access to care.
    I know there have been a lot of reports that have come out 
since Congress has suggested eliminating access to Planned 
Parenthood for patients. I know the CBO own study, the 
Congressional Budget Office, estimated that 390,000 women would 
lose care next year if women could no longer go to Planned 
Parenthood.
    And I think to some of the questions that have been raised, 
it's really important for folks to understand, just as you 
talked about how women actually get breast exams and breast 
care in this country, in some areas we are the only safety net 
family planning provider. And that is the care for most women, 
and particularly young women, the care that they need is family 
planning, it's access to their cancer screenings, and their 
well-woman visits. In many areas there are long waits. Sixty 
percent of our clinics will see folks the same day. In some 
areas they won't take any more Medicaid patients, and Planned 
Parenthood is the only entity.
    Mrs. Lawrence. And it is true that the Medicare and the 
targeted audience or group that use Planned Parenthood are 
often those who are most at risk. African American, minority 
women die at a higher level than any other population when it 
comes to breast cancer, when it comes to actually dying from 
having pelvic or cervical cancer. So we are actually giving 
opportunities.
    I want to interject or ask, Mr. Chairman, unanimous 
consent, to enter a letter into the record from Latino 
organizations that stated that they know for a fact in their 
communities the community health centers could not absorb this.
    And I just want to close because I only have a few 
seconds----
    Chairman Chaffetz. Without objection, so ordered.
    Chairman Chaffetz. But the gentlewoman's time has expired.
    Mrs. Lawrence. Thank you.
    Chairman Chaffetz. Thank you.
    We will now recognize the gentleman from Arizona, Mr. 
Gosar.
    Mr. Gosar. Mr. Chairman, I yield my time to the gentlewoman 
from Utah, Mrs. Love.
    Mrs. Love. Thank you.
    I'm right here.
    Ms. Richards. Thank you.
    Mrs. Love. First of all, I want to say thank you for coming 
and answering questions. I want to be very clear that there are 
no gotcha questions here. I just want to be able to get as much 
information as possible. I'm not here to try and change your 
mind or change the minds of our colleagues. I'm just trying to 
get as much information out to the public as we possibly can 
because some of these funds are their taxpayer dollars, and I 
think that they deserve to have some answers.
    First of all, Ms. Richards, in the annual report, Planned 
Parenthood's annual report, says that you are providing over 
489,000 breast cancer screenings. And you have stated that none 
of your clinics actually have the mammogram machines. How many 
of your affiliates have those mammogram machines?
    Ms. Richards. Well, our health centers are part of our 
affiliates. We have more than 650 health centers. So affiliate 
is simply the corporate structure for those health centers.
    Mrs. Love. And how many of those have mammogram machines?
    Ms. Richards. The affiliate isn't a health center. I said, 
I think I spoke earlier, we do not have mammogram machines at 
our health centers and we have never stated that we did. 
Because as was mentioned earlier, for women who go for a breast 
exam, just as I go for my annual, you get a breast exam, and if 
you need a mammogram you're referred to a radiological clinic, 
and that's what we do at Planned Parenthood every day.
    Mrs. Love. Okay, so you refer them to radiological clinics.
    Ms. Richards. Or whatever--we have partnerships with the 
Komen Foundation. And a lot of different ways----
    Mrs. Love. Okay.
    Ms. Richards. There are a lot of different ways in which we 
refer for mammograms.
    Mrs. Love. That's what I want to know.
    Okay. So how much does Planned Parenthood make from cancer 
screenings? Do you know how much you make?
    Ms. Richards. How much we make?
    Mrs. Love. Yes, the revenues.
    Ms. Richards. Well, for Federal--for Federal--so just 
talking the Federal funding, we don't make money off of cancer 
screenings.
    Mrs. Love. Okay. That's great. How much--well, you don't 
get anything from mammograms either. How much is made from 
abortions? What's the revenue that comes in from abortions?
    Ms. Richards. So let me just--you're going to have to bear 
with me a minute so I can be responsive.
    Mrs. Love. I only have a little bit of time, so if you 
could respond as quickly as possible.
    Ms. Richards. I will. There's 59----
    Mrs. Love. Okay.
    Ms. Richards. There are 59 affiliates. Each of them are 
completely different, right, they all run their own operation. 
And I can't tell you--I think this question was raised 
earlier--I can't tell you----
    Mrs. Love. You can't tell me how much you actually make 
from abortions. You can't give that number. Okay----
    Ms. Richards. The national office--just also so you know, 
we do not provide health services at the national office. We 
have provided information for all 59 affiliates, their annuals, 
their audited financial statements.
    Mrs. Love. I wasn't even asking about the affiliates. I'm 
just asking about----
    Ms. Richards. Well, that's where health services are 
provided, so I think that's----
    Mrs. Love. Okay. Okay. So you don't----
    Ms. Richards. --that's relevant to your question.
    Mrs. Love. Okay, but you don't have those numbers. All 
you're saying is that the healthcare affiliates have these 
numbers and you don't have them, so you don't know.
    Ms. Richards. Certainly not----
    Mrs. Love. So for the year ending June 30, 2014, according 
to Planned Parenthood reports, $127.1 million in revenue over 
expenses. From 2005 to 2013 Planned Parenthood reported a 53 
percent reduction in cancer screenings and preventive services 
and 42 percent reduction in breast exams and breast care, while 
abortions have increased 24 percent.
    Can you understand a little bit of the hesitancy in trying 
to figure out why those numbers have gone down where abortions 
have actually gone up?
    Ms. Richards. Okay, so we're talking about two different--
I'm trying to--so we don't mix apples and oranges here. So 
Federal funding pays--Medicaid funding and Title X pays for 
very specific preventive care services, as we've discussed. And 
Federal funding does not pay for abortion except for very 
limited circumstances.
    Mrs. Love. So what I'm trying to say is why would it be so 
offensive if we actually took funding and put it into clinics 
that actually provide--where those numbers are actually 
increasing providing healthcare exams, providing mammograms----
    Ms. Richards. We're providing----
    Mrs. Love. --that actually have those?
    Ms. Richards. The Medicaid reimbursements, if they are 
going up, if the numbers are going up, that's because more 
services are being provided. And as you know, many women now, 
because of the Affordable Care Act and Medicaid expansion, 
there are more patients on Medicaid that are coming to us for 
health care.
    So that's--all the reimbursements are directly related to 
healthcare delivery services. We work--Planned Parenthood--you 
were not here earlier--Planned Parenthood is just like any 
other hospital or healthcare provider----
    Mrs. Love. Okay. So--but you have also made it----
    Ms. Richards. --that provides services to Medicaid 
patients.
    Mrs. Love. --you've also made it very clear that if Planned 
Parenthood wasn't around, this would be very difficult for low-
income families. So what is the responsibility of hospitals and 
other clinics that, you know, that you actually--that people 
can actually go to? I mean----
    Ms. Richards. Well, many of them----
    Mrs. Love. --you can't say that Planned Parenthood is the 
only place that's available.
    Ms. Richards. No, but obviously it's a place that 2.7 
million patients choose voluntarily to come to every year. And 
I think what's important is that in a lot of areas of the 
country they won't take more Medicaid patients.
    Mrs. Love. But what is our job here? It's to provide as 
many options as possible. So all I'm saying is that----
    Ms. Richards. I would agree.
    Mrs. Love. --there's no reason why we can't provide those 
options elsewhere, where people can have their choice as to 
where they go.
    Ms. Richards. Exactly. Congresswoman, I think actually this 
may be an area where you and I agree.
    Mrs. Love. My time is up, but, Mr. Chairman, I would----
    Ms. Richards. I would like a chance to answer this.
    Mrs. Love. You did actually. You answered my questions.
    Mr. Chairman, if you could help in getting some of the 
information about how much, the numbers that I have asked for, 
that would be really helpful.
    Chairman Chaffetz. I appreciate it.
    The gentleman from Arizona who yielded to you, his time has 
expired.
    I would ask unanimous consent to take--there are four pages 
from the annual reports, and we'll have the documentation on 
the reduction in the breast exams and breast care. And so 
without objection, I'd like to enter that into the record.
    No objection, so ordered.
    Chairman Chaffetz. We now recognize the gentleman from 
California, Mr. Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Thank you, Ms. Richards, for your testimony and the 
gracefulness in which you have answered the questions today. I 
want to also thank you for running an organization that has 
helped millions of women and men across America. And on behalf 
of the majority of women and men in this great Nation, I want 
to say thank you.
    And having sat here for the last hour-and-a-half I feel 
like I'm in some sort of bizarre alternate universe. I think 
it's crazy we're having this hearing based on heavily edited 
videos and misleading videos that actually show the exact 
opposite of what was happening. And what was happening was that 
Planned Parenthood was following the law.
    I think it is also crazy that we're here when we have fetal 
tissue research that is not only entirely legal, but has 
bipartisan support. And I think it's insane that in my district 
now, because of these misleading videos, women have in some 
cases had to go through two sets of bomb-proof doors just to 
access health care.
    And I thank you for your courage, and I note the 
cowardliness of the maker of these videos who was too scared to 
come before to us testify.
    So let's just come back to reality for a few minutes.
    Mr. Lieu. Abortion is legal in the United States of 
America. Isn't that correct, Ms. Richards?
    Ms. Richards. It is correct.
    Mr. Lieu. And we don't live in a theocracy. The law of the 
land is not the Old Testament or the New Testament or the Koran 
or the Torah. The law of the land is the Constitution of the 
United States. Isn't that correct, Ms. Richards?
    Ms. Richards. Correct.
    Mr. Lieu. And abortion is a constitutional right. Isn't 
that correct?
    Ms. Richards. Correct.
    Mr. Lieu. And Planned Parenthood allows women to access 
that constitutional right. Isn't that correct?
    Ms. Richards. Yes, we do.
    Mr. Lieu. And none of that gets any Federal funding. Isn't 
that correct?
    Ms. Richards. That's correct, except in the very limited 
circumstances allowed by Federal law.
    Mr. Lieu. Thank you.
    Now, there are multiple medical clinics across America that 
also provide abortion services, correct?
    Ms. Richards. I'm sorry. Could you repeat the----
    Mr. Lieu. There are multiple medical clinics----
    Ms. Richards. And hospitals.
    Mr. Lieu. --and hospitals across America that provide 
abortion services, correct?
    Ms. Richards. Correct.
    Mr. Lieu. And they also provide services that have Medicaid 
reimbursement. Isn't that correct?
    Ms. Richards. I believe that's correct, yes.
    Mr. Lieu. And no one is saying, let's shut down medical 
clinics and hospitals because they also happen to provide 
abortion services. Isn't that correct?
    Ms. Richards. I don't think that's been proposed.
    Mr. Lieu. In fact, they're going right after Planned 
Parenthood, even though you do the same thing as many of these 
medical clinics, because you actually, like any organization, 
have separate line items. That's not a new or novel concept, 
correct?
    Ms. Richards. Correct.
    Mr. Lieu. Okay.
    So let's talk about fetal tissue research. It has made 
enormous, lifesaving changes for millions of Americans and 
people across the world. Isn't that correct?
    Ms. Richards. That's right.
    Mr. Lieu. In fact, fetal tissue research has resulted 
directly in the development of the polio vaccine, vaccines for 
hepatitis A, rubella, chickenpox, shingles, and rabies.
    Anyone in America that has had a family member or 
themselves been affected by multiple sclerosis, ALS, and other 
central nervous system diseases, you can thank fetal tissue 
research for making advancements in that field.
    If anyone has been affected by age-related macular 
degeneration, by all sorts of cancer, by diabetes, by 
cardiovascular disease, by immune system issues, and by 
glaucoma, you can thank fetal tissue research for making 
advancements in those areas.
    It is crazy that we're here because the other side wants to 
shut down government because Planned Parenthood was following 
the law because fetal tissue research is something that's 
helping lots of people, and now we want to shut down government 
because we want to defund all of that. That doesn't make any 
sense to me.
    And let me, sort of, conclude now by asking you to respond 
to, sort of, the question about why there has been a reduction 
in cancer screenings. Isn't it true, it's because guidelines 
have changed?
    Ms. Richards. That's correct.
    Mr. Lieu. They said, let's do less mammograms. And then, in 
terms of Medicaid reimbursements, guidelines changed there too. 
About pap smears, let's do lots of those, too. Isn't that 
correct?
    Ms. Richards. That's correct. And we always follow the best 
science and the best medicine at Planned Parenthood.
    Mr. Lieu. And then let me read a quick letter from one of 
my constituents who saw that Planned Parenthood might get 
defunded.
    She said that she grew up in a small desert town, made some 
poor choices, ditched school at age 15, starting having sex. 
And she didn't want to end up pregnant like a lot of young 
girls in my town, so she went to the one place that she knew 
would help her, Planned Parenthood. They made her feel 
comfortable. They gave her an exam, gave her birth control 
pills. They told her that she had an STD, would need to take 
antibiotics.
    Ms. Richards. Yep.
    Mr. Lieu. She says, without that, the STD could've made me 
permanently infertile. But because of what Planned Parenthood 
did, she corrected herself, graduated with straight A's, and is 
now a medical doctor. And she thanks Planned Parenthood for 
helping her and her family.
    Ms. Richards. I'm so pleased to hear that. Thanks for 
sharing that.
    Mr. Lieu. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    But I would also admonish all members on both sides, the 
prescription of motivation is not something we generally allow 
members to push on other members.
    I will tell you, in response to what the gentleman said, 
the producer of these videos was not invited to this hearing. 
And part of the reason we didn't do that is we think--I think I 
did the responsible thing--and you've heard Mr. Cummings in 
support of this--is I issued a subpoena to get all the videos. 
And the only reason that they have not been produced is that 
there's a temporary restraining order by a court in California.
    I would love to have the videos. But if we're going to 
ferret out what the accusation is, you have to see all the 
videos. And that's what we're trying to do. But there was never 
a suggestion that this gentleman, Mr. Daleiden, was anything 
but cooperative. He simply was not invited here, because 
without the videos we can't have a good discussion about that.
    Mr. Lieu. Thank you, Mr. Chairman, for the clarification.
    Mr. Cummings. Mr. Chairman, let me just ask you this. With 
this order coming out of California, are we going to continue 
to try to get all of the videos?
    You know, I just--I see how we have been aggressive with 
regard to getting witnesses and trying to get documents. And 
this is such a very important issue. And, as I've said to you 
privately, I think, that what I'm concerned about is the 
integrity of the process no matter what, no matter where people 
end up on either end. At least I want--if these videos are 
going to be even partially the foundation of what we're doing, 
I think we need to have all of them. And we need to pursue them 
just like we would pursue other items and information that we 
need.
    And I would just ask the chairman, are we going to continue 
to try to pursue that? I mean----
    Chairman Chaffetz. Absolutely. That's what we did, without 
the support----
    Mr. Cummings. And will continue to do.
    Chairman Chaffetz. We will continue to do it. That's what 
we did without the support of the minority, in this case. We 
will continue to do that. But for this temporary restraining 
order, I think we would actually have had them by the time that 
we got here, but we did not.
    We will continue to pursue them. We're working closely with 
House legal counsel, who is now representing us, to try to make 
that case to that court and to that client, where there is a 
legitimate conflict.
    Mr. Cummings. Would the gentleman yield just for 30 
seconds?
    Chairman Chaffetz. Sure.
    Mr. Cummings. Let me make it very, very clear that--you've 
now said it two or three times, and I want to make it clear. We 
will join you in a subpoena to get every single tape, period--
no ands, no ifs, or buts--period. And I don't know where that's 
coming from, but, as the ranking member of this committee, I'm 
letting you know that, all right?
    Chairman Chaffetz. I appreciate that. Thank you.
    Mr. Cummings. All right.
    Chairman Chaffetz. Thank you. Appreciate the clarification.
    Now we'll recognize the gentleman from Tennessee, Mr. 
DesJarlais, for 5 minutes.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    And I would like to yield to the gentleman from Arizona, 
Dr. Gosar.
    Mr. Gosar. Well, I thank the gentleman.
    Mr. Cummings, you made a comment earlier that I want to 
address. The New York Times reported that the EPA unleashed a 
major lobbying campaign to rally comments in support for its 
new ``waters of the U.S.'' regulation. You earlier went off an 
Lockheed Martin in regards to that application. I have to tell 
you, the EPA also disregarded the anti-lobbying act and broke 
the law.
    If you actually believe in what you were talking and 
preaching about, I'd hope that you would cosponsor my removal 
of Ms. Gina McCarthy as the EPA Administrator.
    Now back to those processes in here.
    Ms. Richards--I'm up here. You're a CEO, right?
    Ms. Richards. Yes, sir.
    Mr. Gosar. So you do understand market penetration, right?
    Ms. Richards. Well, I mean, I'm a nonprofit CEO, so----
    Mr. Gosar. Well, no, but, I mean, you look at those 
numbers. I mean, all CEOs are looking at, you know, how to 
expand and profit. I mean, you're obviously----
    Ms. Richards. We don't profit, so I don't look at how--I 
don't actually look at how to profit. But we do, obviously, 
look how to expand into areas particularly where there's unmet 
need.
    Mr. Gosar. Okay. I like that. So your market penetration in 
Arizona is different than your market penetration in New York 
State, would you say?
    Ms. Richards. I'm sure it is.
    Mr. Gosar. Yeah. You know, there's three in Arizona, and 
there's quite a few more in New York. And there's a pretty good 
web of preventative services.
    So I kind of want to go back. In your annual report, the 
report said----
    Ms. Richards. Actually----
    Mr. Gosar. --$117.63 million in excess revenues for the 
fiscal year of 2013-2014. That number has jumped $18.5 million 
from its report in 2009-2010.
    I'd like you to tell me how you got the growth of those 
funds, why we're seeing such a growth in those--that profit.
    Ms. Richards. Well, we--it's not profit. So let me just be 
really clear just in terms of terminology. It's not profit.
    Mr. Gosar. Okay.
    Ms. Richards. Actually, it's revenue that we use for 
services. So one example----
    Mr. Gosar. So would we agree that it's excesses of revenue 
over expenses?
    Ms. Richards. Correct.
    Mr. Gosar. Okay.
    Ms. Richards. It's----
    Mr. Gosar. So how do you explain that?
    Ms. Richards. Right.
    Mr. Gosar. I want you to explain that.
    Ms. Richards. It's from fundraising. That's what I spend a 
lot of my time doing.
    And so there are areas of the country where we want to 
expand, to your question about if you only have one health 
center in a State and you think that there is more need. So we 
are involved currently in raising money and spending it.
    Mr. Gosar. Okay. I think----
    Ms. Richards. We just opened a new health center in----
    Mr. Gosar. --you gave me a great answer.
    Ms. Richards. I could give you several examples.
    Mr. Gosar. Well, you fundraise. And I think that--so----
    Ms. Richards. But we fundraise specifically to expand 
services.
    Mr. Gosar. I understand that.
    Ms. Richards. Yeah.
    Mr. Gosar. I understand that. I understand that.
    Ms. Richards. Okay.
    Mr. Gosar. So what are you looking to report in 2014?
    Ms. Richards. I'm sorry, what's that?
    Mr. Gosar. So what's that number in 2014?
    Ms. Richards. I don't have all the--I mean, we've 
provided----
    Mr. Gosar. Okay. So I thought----
    Ms. Richards. --I'm sorry--thousands of pages of documents.
    Mr. Gosar. It's actually going up. It's actually going up 
to $127 million in regards to--so there's an escalating aspect. 
So you're a pretty good CEO. So you're looking at excess 
revenues over expenses. So that's pretty good.
    I'm having trouble in all this, in regards to the 
fundraising application, particularly when I look at these 
numbers: the 80-percent reduction in prenatal care services, 
the 57-percent reduction in cancer screenings preventative 
services, the 45-percent reduction in breast exams, on and on 
and on and on.
    And, by the way, I was a dentist, so I do understand 
Medicaid reimbursement rates. They don't pay, right?
    Ms. Richards. Correct.
    Mr. Gosar. Okay. So----
    Ms. Richards. Well, it depends on the State.
    Mr. Gosar. You're lucky--you're lucky if you get reimbursed 
your costs.
    Ms. Richards. Well, and, actually, I would say, since you 
do understand Medicaid, as you know, it varies in all 50 
States. And so we do raise money over expenses in order to 
supplement the cost of----
    Mr. Gosar. I understand.
    Ms. Richards. --Medicaid services.
    Mr. Gosar. So let me ask you a question. And with a 
mediator, what have you been able to facilitate for a lump cost 
for the price of contraceptives? Is there a unit price that 
you've been able to lower down, to get a price fixed? Can you 
give me that number?
    Ms. Richards. I don't--no, I actually don't. And I don't--
--
    Mr. Gosar. It's been reported----
    Ms. Richards. I don't do that.
    Mr. Gosar. It's been reported by those numbers that it's 
about $3 that you're paying for the average contraceptive.
    Ms. Richards. Actually, I really--I don't want to----
    Mr. Gosar. So----
    Ms. Richards. It's very much all over the map, as you know, 
and it depends on what----
    Mr. Gosar. On the average.
    Ms. Richards. It's not--I really----
    Mr. Gosar. Well----
    Ms. Richards. Actually, I disagree with you. I don't think 
that fact is correct.
    Mr. Gosar. --I mean, this is a very salient point, because 
this is a profit center. Because what ends up happening, you're 
reimbursed by the Federal Government in Medicaid at $35, right?
    Ms. Richards. It's----
    Mr. Gosar. So if we're truly looking at mediation and 
spreading the wealth of the pharmaceuticals, when we get a 
break, we ought to pass it on. Don't you agree?
    Ms. Richards. Well, as you know----
    Mr. Gosar. No. Don't you agree? Because that facilitates 
more services, does it not, Ms. Richards?
    Ms. Richards. Our entire focus is on serving as many 
patients as we can, and so your example----
    Mr. Gosar. That is not exactly true, because what you've 
done now, and the reason I can show this is, is you've narrowed 
the focus. What we end up having is, there's very few primary 
care docs out there because they can't afford to stay in 
practice. So what you've done is narrowed the scope of the 
practice, so where there's profit centers----
    Ms. Richards. I----
    Mr. Gosar. No?
    Ms. Richards. I disagree.
    Mr. Gosar. This is my time. This is my time, so don't 
interrupt it.
    And so, from that standpoint, what you've done is narrow 
that focus so that you're profiting off death. Because the 
numbers--where you're making that profit center is actually off 
abortions. And that's appalling to me.
    So thank you very much.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentlewoman from New Jersey, Ms. 
Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Thank you, Ms. Richards, for enduring--enduring what I 
consider to be a very offensive approach on the part of my 
colleagues on the other side of the aisle as they've badgered 
you with questions, as they've used their rhetoric to suggest 
in a questionable way that they're seeking information and at 
the same time not giving you a chance to answer the questions.
    I'm actually a little confused of why we're here. Are we 
here because of these videos and there's a questionability 
about Planned Parenthood doing something that's illegal as it 
related to the collection of fetal tissue? Are we here simply 
because the ideological right wing of this Republican 
Conference here in Congress, the dysfunction has manifested 
simply so anti-woman's-right-to-choose that they would bring 
you here for a fourth hearing? Or are we here because somebody 
believes that Planned Parenthood doesn't need Federal 
reimbursement for the health care that it gives?
    For whatever reason, for whatever one of those reasons, 
those are specious reasons. And for my colleagues on the other 
side of the aisle to act like they don't understand and to 
suggest that they're ill-informed, if they are ill-informed, 
it's because they choose to be.
    I couldn't hardly get into this room today, with all of the 
people on the outside in the hallways that were trying to get 
in here to be supportive of Planned Parenthood, because we know 
and recognize the impact that Planned Parenthood has had on 
healthy lives--not just women's lives but including men's 
lives.
    We know in New Jersey, in my State, where this Governor, 
Chris Christie, spent so much of his leverage defunding Planned 
Parenthood and then suggesting that the federally qualified 
healthcare centers would be able to pick up the slack, they 
came in and testified that they couldn't possibly accommodate 
all of the deficiencies that would occur without Planned 
Parenthood. We know that--the work that you do.
    So I just want to do a couple things, and I want to do them 
quickly.
    I want to acknowledge all the young women and men in the 
overflow room.
    I want to talk to you a little about Mr. ``Daleiden'' or 
``Daleiden'' or whatever his name is, but the mystery man who's 
spent so much of his life trying to discredit Planned 
Parenthood.
    You all had a forensic report done----
    Ms. Richards. Correct.
    Mrs. Watson Coleman. --on those videos.
    Ms. Richards. Correct.
    Mrs. Watson Coleman. And that forensic report revealed that 
there were so many discrepancies, that there were so many 
inaccuracies, and that it would be impossible to characterize 
the extent to which CMP's undisclosed edits and cuts distort 
the meaning of the encounters the videos purport to document. 
However, the manipulation of the videos does not mean they have 
no evidentiary value in legal context and cannot be relied 
upon.
    I want to put that report into the record. And I am asking 
unanimous consent to accept this forensic report. Because 
somewhere along the line, we ought to be getting part of the 
other story.
    Mr. Chairman?
    Chairman Chaffetz. Before I rule on that, I'd place a 
temporary objection in place. Let me look at the report prior 
to entering it into the record.
    Mrs. Watson Coleman. Well, then, I guess I should also 
register my temporary objection to the fact that we have one 
witness here and we haven't even tried to get Mr. Daleiden here 
or anyone else who would be--who we would be able to question 
with regard to the accuracy of all the allegations that we are 
moving on right now.
    And I also want to say, before I give you an opportunity to 
answer any question that was left out there in the universe 
hovering over us so that you can put things that you think that 
are on--on the record, that this is another very poor 
illustration of our deflecting our attention away from the work 
that the people have elected us to do.
    We need to have an Export-Import Bank that creates jobs. We 
need to have an infrastructure program that creates jobs. We 
need to be reauthorizing the appropriate aspects of the Voting 
Rights Act.
    We've got so much good work to do, but, instead, what do we 
do? We harp on a woman's right to make choices that are hers to 
make. And that, to me, is very offensive.
    And, with that, Ms. Richards, I would like to yield to you 
the balance of my time to answer any unanswered question that 
you might have.
    Thank you.
    Ms. Richards. Thank you so much, Congresswoman.
    Well, I would mention, too, to the chairman that I believe 
we've actually given the forensic report already to you and 
provided that a while back. But we can follow up if there's any 
questions.
    I appreciate your comments. I think we have now had 
either--today, the 14th vote will be on restricting women's 
access to health care in this country.
    And I think, going back to one of the questions on the 
other side, this is about women's choice to me. This isn't 
about Planned Parenthood. It's about allowing women in this 
country and particularly women of low income or who live in 
areas that are underserved by other healthcare providers, it's 
allowing them to make their own decision about their 
pregnancies, about their health care, and about where they get 
services.
    And many women come to us even if they have other options 
because, frankly, we are the best at women's health. And I 
think they deserve the right to make their own decisions about 
where they access the doctor and clinicians of their choice.
    Mrs. Watson Coleman. Thank you.
    Reclaiming the last 25 seconds of my time, it seems to me 
to be----
    Chairman Chaffetz. No. The gentlewoman's time has more than 
expired.
    Mrs. Watson Coleman. Oh, I'm so sorry. Would you indulge me 
for 10 seconds?
    Chairman Chaffetz. We really--if I do that, I've got to do 
it both. I've got to keep going.
    Mrs. Watson Coleman. You have done it, Mr. Chairman. With 
all due respect, Mr. Chairman, you have done it.
    Chairman Chaffetz. Ten seconds.
    Mrs. Watson Coleman. It just seems to me that this is not 
the appropriate time to be making decisions about defunding 
Planned Parenthood, when we don't even know why we want to do 
it.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    So the gentlewoman had made--asked unanimous consent to 
enter into this--into the record this GPS Fusion analysis.
    I'd also like to add on to that, if I could, the digital 
forensic analysis report delivered to Alliance Defending 
Freedom, prepared by Coalfire Systems.
    I'd ask unanimous consent that both of these be entered 
into the record.
    Without objection, so ordered.
    Chairman Chaffetz. We'll now recognize the gentleman from 
Texas, Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And I might want to talk a little bit about one of the 
reasons we need to take a closer look at the funding of Planned 
Parenthood, not just as a result of these videos but as a 
result of some financial issues that are coming up.
    As president of Planned Parenthood, you're aware, of 
course, that Planned Parenthood of the Gulf Coast--that's the 
Houston area--Planned Parenthood last year paid a $4.3 million 
settlement for false claims made to Medicaid in the Texas 
Women's Health Care Program. Is that not correct?
    Ms. Richards. That's correct.
    Mr. Farenthold. And you're also aware that the Obama 
administration's Department of Justice contended that Planned 
Parenthood had submitted false claims against the women's 
health program?
    Ms. Richards. I'm not aware of that.
    I do know that we've been the target of the same group that 
has filed many, many, many lawsuits. And that's the one area I 
know that was settled in order for the----
    Mr. Farenthold. Well, let me read a little bit from the 
settlement. It's--the United States contends that Planned 
Parenthood of the Gulf Coast submitted false claims and made 
false statements to the United States in conjunction with 
claims submitted to the United States.
    And just, Mr. Chairman, without objection, I would like to 
have this settlement agreement entered into the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Farenthold. All right.
    So, as a consequence, Planned Parenthood paid $4.3 million 
to settle those claims just 2 years ago.
    Are you aware that, this spring, another audit by HHS 
Office of the Inspector General concluded that Planned 
Parenthood--it overbilled taxpayers another $128,028 under 
Medicaid in the Texas women's health program?
    Ms. Richards. I'm not aware of what you're referring to. 
I'm happy to look at it.
    Mr. Farenthold. Thank you.
    And are you aware that the Planned Parenthood affiliate in 
El Paso, just a few years before, had failed to reimburse its 
subcontractors for roughly half a million dollars in claims?
    Ms. Richards. I'm not aware of that. And that organization 
doesn't exist and hasn't for years.
    Mr. Farenthold. Okay.
    Ms. Richards. But I'm happy to look at your report.
    Mr. Farenthold. And, actually, that is another issue I 
would like to bring up. One of the things that we're talking 
about today is taking some of the money that's going to Planned 
Parenthood and sending it to community health centers.
    Do you know how many facilities in Texas you have?
    Ms. Richards. I don't, but I can certainly--actually, bear 
with me 1 minute. I'll just make sure I give you the right 
number.
    Now, this may be--I know we just opened one in Plano. So I 
think we have 38 health centers.
    Mr. Farenthold. Thirty-eight. And there----
    Ms. Richards. It may be 39 now. I'm not sure.
    Mr. Farenthold. And so we've got 732 community health 
centers. Admittedly, some of those focus on pediatrics or men's 
health care or other specialties. But wouldn't you admit there 
are substantially more facilities, federally qualified 
facilities, that offer women's health care than there are 
Planned Parenthood facilities in Texas?
    Ms. Richards. Well, actually, I think, Congressman, one of 
the big problems in Texas is there has actually been a drop in 
access to women for health care, and particularly after Planned 
Parenthood was, for political reasons I believe, taken out of 
the women's health program. We had a 25-percent drop in women's 
access to basic preventive care, and particularly in some areas 
like the Rio Grande border that are vastly underserved.
    Mr. Farenthold. I think we have three or four facilities 
down in the Rio Grande Valley, if I'm not mistaken.
    I also promised to ask you a couple of questions that some 
constituents and folks on social media asked me to ask, so I'd 
like to use my last minute and a half to do that.
    Warren wanted me to ask you, what efforts and what steps 
does Planned Parenthood take to guarantee their providers 
follow State laws requiring reporting of child sex abuse?
    Ms. Richards. We have very rigorous standards we apply. The 
health and wellbeing of our patients is our number-one concern, 
and we certainly comply with all State and Federal laws. And if 
there is ever an issue, we take swift action.
    Mr. Farenthold. Okay.
    And Peg and Allison both expressed a concern about the same 
thing the chairman did when he began this questioning about the 
activities of the 501(c)(4) organization that Planned 
Parenthood has helped fund, you've helped manage, and funds 
have been transferred into for lobbying in almost exclusively 
Democrat political campaigns.
    One of my concerns is, with your purported goal of making 
access to women's health care more available, isn't the money 
that you are diverting to a lobbying effort in politics money 
that could better be spent actually delivering health care to 
women?
    Ms. Richards. Well, Congressman, as you know, in the State 
of Texas, the number of laws that the State legislature has 
passed to try to restrict women's access to almost every kind 
of health care requires not only the Planned Parenthood Action 
Fund but other organizations to lobby extensively to try to 
protect----
    Mr. Farenthold. And let me just note----
    Ms. Richards. --particularly low-income women.
    Mr. Farenthold. --one more--you also spoke earlier about 
how you have doctors that are providing women's health care, 
and those doctors are funded by the taxpayer money under Title 
X or other reimbursement.
    Are some of those doctors also providing abortion? Would 
you be able to afford to have those doctors and keep them 
entirely busy but for the Federal funds coming in?
    Ms. Richards. I'm not sure exactly--that's a kind of long, 
complicated question, so I want to be responsive.
    Obviously, Federal funds--the most important thing, I 
think, out of all of that is Federal funds do not pay for 
abortions at all, except in very limited circumstances of when 
the woman has been raped, has been the victim of incest, or 
when her life is endangered.
    Mr. Farenthold. And I would contend, even though not 
directly spent, they help facilitate it. And that's one of the 
reasons I support defunding.
    I see I'm out of time. I appreciate it. Thank you, Mr. 
Chairman.
    Chairman Chaffetz. I thank the gentleman.
    Before I recognize Mr. DeSaulnier from California, after he 
does his questioning, we're going to do a brief 4- to 5-minute 
break, sort of a humanitarian break, for a moment. And then we 
will continue--continue on until we get the chance for the rest 
of the panel.
    For those in the audience, I suggest remaining in your 
seats if you want to continue to witness the hearing.
    For those members who have yet to ask questions, hang 
tight.
    But we'll go to Mr. DeSaulnier for 5 minutes, and then 
we'll take a very brief break, and then we'll resume.
    Mr. DeSaulnier, you are now recognized.
    Mr. DesJarlais. Thank you, Mr. Chairman. I don't know quite 
how to take that break after my questioning. Usually it's 
better to take a break before I ask questions.
    Anyways, I want to thank you, Ms. Richards, for being here, 
the way you've carried yourself through this hearing and 
through this recent history and the wonderful work that your 
organization does.
    And I want to, sort of--two lines of questioning: one, the 
latter part, very specific on the bipartisan history of support 
for fetal tissue research.
    But the first part is just, in my experience in State 
government in California and then local government, 
particularly in local government--and in California, the 
counties provide health care for disadvantaged communities, 
low-income communities--it was always my experience that the 
clients chose Planned Parenthood, when they had the 
opportunity, because they wanted to, whether they were a 
private payer or not. And we developed relationships between 
the county health system and you because the clients clearly 
preferred you, at least in our community.
    So, in the spirit of local control, it seems to me within 
the Federal guidance you competed very well in the open 
marketplace, whether it was private pay or reimbursed clients. 
Is that not true?
    Ms. Richards. Well, I appreciate that. And, absolutely, 
providing high-quality, affordable health care is our entire 
mission. And so we are pleased that many women and men--now we 
have about 10 percent of our patients are men--they choose 
Planned Parenthood over other healthcare providers. We believe 
we provide an excellent service that's affordable, and we do a 
lot of outreach in the community to provide education, as well.
    Mr. DesJarlais. Yeah. And that was my experience, was that 
in local government you were more efficient and effective, 
certainly, than, with all due respect to my friends in the 
county system, than the county system.
    So, with my colleagues, this is one of those instances 
where it's a little bit odd listening here. And without being 
judgmental, it reminds me of the old legal expression, ``When 
the law is with you, pound the law; when it's not, you pound 
the table.'' And that's just my perspective.
    Having said all that, on the specific issue of bipartisan 
historical support for fetal tissue research, 1988--and maybe 
you could just respond after I go through a series of these 
observations if this is correct or not and if you have any 
other comments.
    So, in 1988, there was a panel called the Human Fetal 
Tissue Transplantation Research Panel. And that panel was 
established under President Reagan; the chairman was a 
Republican. The panel came together and studied the science 
behind fetal tissue research, and they issued this conclusion, 
and I quote: It was acceptable public policy to support 
transplant research with fetal tissue.
    Now, just to be clear, that was a Republican chair of a 
panel established under President Reagan. Is that accurate?
    Ms. Richards. That's correct. And, again, I've now just 
learned more about the history, but it was a very--it was a 
committee that had both supporters of abortion rights, 
opponents of abortion rights. It was a very bipartisan effort 
to come to what seems like a very good conclusion that was 
passed overwhelmingly by the United States Senate.
    Mr. DesJarlais. Right. And this panel issued its report. 
Congress passed, after the report, in consulting with the 
report, passed the NIH Revitalization Act of 1993, and that law 
set forth the rules of how fetal tissue research is done in 
this country.
    That law, again, was passed with Republican and Democratic 
support. That's correct, isn't it?
    Ms. Richards. That's correct.
    Mr. DesJarlais. So the bipartisan line is that, for 
decades, fetal tissue research has had significant bipartisan 
support. One of the reasons this research has had such strong 
support--and Mr. Lieu alluded to this--is because it helps 
millions of people.
    Recently, the New England Journal of Medicine published an 
article, and its observations in this regard were, and I quote: 
``Virtually every person in this country has benefited from 
research using fetal tissue. Every child who's been spared the 
risks and misery of chickenpox, rubella, or polio can thank the 
Nobel Prize recipients and other scientists who used such 
tissue in research yielding the vaccines that protect us.''
    Would you agree with that?
    Ms. Richards. That's correct. I think probably everyone in 
this room has benefited in some way.
    Mr. DesJarlais. So, just in conclusion, again, thank you 
for the work you do.
    And, Mr. Chairman, while I appreciate your initial 
comments, particularly as we evaluate, as always, the best and 
most efficient use of taxpayers' money, at least from my 
perspective and my opinion, both from a local level, with 14 
years of overseeing a relationship in the Bay area with 
affiliates there--at least at that level, we did our due 
diligence, and this was the most effective and efficient way of 
investing in our clients' needs.
    So, with that, I'll yield back.
    Mr. Cummings. Would the gentleman yield?
    Ms. Richards. Glad to hear it. Thank you.
    Mr. Cummings. Would the gentleman yield?
    Mr. DesJarlais. Yes.
    Mr. Cummings. Just one quick question, Ms. Richards. What 
do you like most about your job?
    Ms. Richards. What do I like most about my job?
    Mr. Cummings. Yeah.
    Ms. Richards. It's getting to see the patients that we 
serve every day and the young people who are, frankly, going to 
have, I think, more opportunities than we ever did. It's great.
    Mr. Cummings. Thank you.
    Chairman Chaffetz. The gentleman's time has expired.
    As I noticed prior, we are going to recess for roughly 5 
minutes, but we intend to start back up again at 12:35. We 
stand in recess till then.
    [Recess.]
    Chairman Chaffetz. The committee will come to order.
    The next person to be recognized is the gentleman from 
North Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ms. Richards, thank you for your testimony.
    I'm going to try to take the emotion out of it and stick 
strictly to the numbers. Earlier, you said you need to consider 
the source, so everything that I'll be quoting comes from 
Planned Parenthood.
    It is my understanding that 3 percent, according to your 
Web site and your testimony today, 3 percent of the services 
that Planned Parenthood offers are abortion services. Is that 
correct?
    Ms. Richards. Three percent of----
    Mr. Meadows. Of your total services, 3 percent.
    Ms. Richards. Sorry, my mic wasn't on.
    Three percent of the services delivered--I mean, of the 
total services.
    Mr. Meadows. But yet you say that you don't have the total 
amount of money--you can't give this committee the total amount 
of money that you make or receive for abortions. Is that 
correct?
    Ms. Richards. It's because the national office doesn't, as 
you know--or may not know--but the national office doesn't 
provide healthcare services. Fifty-nine affiliates provide a 
variety of healthcare services, so that would be--every single 
organization would be different.
    Mr. Meadows. But your affiliates gather that information, 
so you would have access to that.
    Ms. Richards. Well, I'm sure they have it. I don't have it 
myself.
    Mr. Meadows. Okay. But how do you come up with the 3 
percent? So let me----
    Ms. Richards. That's the number of services----
    Mr. Meadows. Let me go----
    Ms. Richards. Because we----
    Mr. Meadows. Let me ask the question.
    2.7 million women and men are served by Planned Parenthood, 
according to your testimony. Is that correct?
    Ms. Richards. That's correct.
    Mr. Meadows. 2.7.
    Ms. Richards. That's correct.
    Mr. Meadows. Annually, you provide, according to your 
report, 327,000-plus abortions last year, according to your 
annual report.
    I do the math, 2.7 million people, 327,000 abortions, that 
comes up to 12 percent. So how do you get 3 percent? And these 
are your numbers. Why is it not 12 percent?
    Ms. Richards. Because people come to us for--some people 
come to us more than once, and they come to us for different 
services. And some people come to us and they need a pap 
smear----
    Mr. Meadows. All right. Well----
    Ms. Richards. --they need a variety of services.
    Mr. Meadows. --let's go on a little bit further, because 
I'm having a real trouble coming to this.
    And if you would put up the graph on--this is a tax return 
from one of your affiliates in Rochester-Syracuse region. If 
you could read for me line 2B. What does that say? What is the 
designation there?
    Ms. Richards. ``Pregnancy termination.''
    Mr. Meadows. Okay.
    Ms. Richards. But----
    Mr. Meadows. And the dollar amount next to ``pregnancy 
termination'' there is how much?
    Ms. Richards. It--again, I don't--I've never seen this 
before, so I'm simply reading what you're asking me to read. 
$1,424,275, I'm assuming.
    Mr. Meadows. All right. So $1,424,000 for pregnancy 
termination, according to your affiliate's tax return.
    Ms. Richards. One affiliate, correct.
    Mr. Meadows. Okay. So----
    Ms. Richards. I mean----
    Mr. Meadows. --wouldn't you have tax returns for all your 
affiliates, where we could get this information?
    Ms. Richards. Well, I know that we have provided----
    Mr. Meadows. Okay. Because here's my concern. If you take 
the number, that $1.4 million, and divide it into the total 
revenue of a little over $5 million, that would indicate 
revenues of almost 28 percent for abortions. So what is the----
    Ms. Richards. Well, I think you're mixing services and 
revenue. Because, obviously, above the above line says, 
``Family planning, $3,718,474.''
    Mr. Meadows. But wouldn't you think the 3 percent is a 
little bit misleading----
    Ms. Richards. No. Actually, we have----
    Mr. Meadows. --if 28 percent----
    Ms. Richards. We calculate--I mean, we are----
    Mr. Meadows. Well----
    Ms. Richards. I'd say we are the most highly regulated 
organization probably in this country, and we----
    Mr. Meadows. Well, I would disagree with that, but let me 
ask you----
    Ms. Richards. But we're very transparent about our numbers.
    Mr. Meadows. I've got this for one of your affiliates. Will 
you provide this same kind of documentation for all your 
affiliates to this committee?
    Ms. Richards. I believe we actually already have.
    Mr. Meadows. No, you haven't.
    Ms. Richards. Well, I'm happy to speak to the chairman, 
because we have--I believe we----
    Mr. Meadows. This is the only one that had it. Will you 
today, yes or no, provide this for all your affiliates?
    Ms. Richards. We have produced all 990--okay, well, we just 
have a disagreement of opinion, and I'm happy to talk to the 
chairman----
    Mr. Meadows. Well, it's not a disagreement. Will you 
provide the number of----
    Ms. Richards. We have already provided the 990s for all of 
our affiliates, and so that's----
    Mr. Meadows. But they didn't outline it like this.
    Ms. Richards. Well, maybe----
    Mr. Meadows. So are you saying that you don't keep track of 
it?
    Ms. Richards. You said that. I did not say that.
    Mr. Meadows. No, I'm asking you. Do you keep track of it?
    Ms. Richards. Every single affiliate in Planned Parenthood 
meets with all the laws and regulations, and they file their 
990s, and we provide----
    Mr. Meadows. That's a great answer to a question I did not 
ask.
    Ms. Richards. We've provided----
    Mr. Meadows. Would you provide it to this committee?
    Ms. Richards. I don't exactly know what ``it'' is, since 
I've said to you----
    Mr. Meadows. Okay. Well, I'll tell you what it is.
    Ms. Richards. --repeatedly we've provided the 990s----
    Mr. Meadows. It's the revenue that you, Planned Parenthood, 
derives from abortions.
    Ms. Richards. And I have said to you, we have provided--and 
we have been extremely cooperative with this committee and the 
other three committees, and we have provided all the 990s, all 
the audit and annual statements of our affiliates. And if 
there's anything after--I'm happy to talk to the staff here 
about what else is needed that we're not providing. Because I 
really believe we have gone above and beyond in providing 
everything that's been requested of us.
    Mr. Meadows. Okay. My time has expired. I'll yield back, 
Mr. Chairman. Thank you.
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentleman from Pennsylvania, Mr. 
Boyle, for 5 minutes.
    Mr. Boyle. Thank you, Mr. Chairman.
    And I also want to thank Ms. Richards for the manner in 
which you have conducted yourself today.
    There was one answer you've given that surprised me, when 
Ranking Member Cummings asked what the favorite part of your 
job was. I assumed you were going to say sitting here for 3 
hours answering these questions from Members of Congress.
    But I do want to focus--a couple of these statistics have 
been cited before; a couple have not. But I don't think they've 
strongly led to a very important point, and that would be the 
consequences of the legislative action that we're proposing. So 
let me just briefly go through them.
    As has been cited, there are approximately--actually, 
exactly 2.7 million women and men that Planned Parenthood see 
every year, correct?
    Ms. Richards. Correct.
    Mr. Boyle. And, of that, 1.5 million of those patients 
receive services through Title X, the Nation's family planning 
program, right?
    Ms. Richards. Well, I think that--and I'm not--let me make 
sure that I--I want to make sure I answer you correctly.
    About 1.6 million of our patients are either--come to us 
through some Federal program, either Title X or the Medicaid 
program. But a number of them are Title X--yes, Title X 
recipients.
    Mr. Boyle. Well, contraceptive services at Title X centers 
annually prevent 1.2 million unintended pregnancies, which 
would result, significantly, in 590,000 unplanned births, 
400,000 abortions, and 190,000 miscarriages.
    So, in a country with approximately a million abortions a 
year, what we're talking about is, without such Title X 
services, the services that Planned Parenthood provides and 
clearly constitutes the majority of your work, the number of 
abortions each year in the U.S. would be approximately 40 
percent higher.
    I think the consequences of what we're talking about 
haven't fully been laid out, not just in terms of the cancer 
screenings and the treatment of STDs, but also, ironically, in 
what would be inevitably an increase in the number of 
unintended pregnancies and abortions.
    Ms. Richards. That's correct.
    And it's interesting, because right now there is such 
exciting research happening with better contraceptives. Young 
women now can get long-acting, reversible contraceptives. They 
don't even--I know--I've been questioned about why in some 
cases we have fewer visits in some areas, and one of the 
exciting things is now you actually sometimes don't have to 
come back to Planned Parenthood every month to get birth 
control pills because we can provide them for 6 months or you 
can get a longer-acting method.
    And in the States that have really pioneered this work to 
provide women any birth control, we're seeing dramatic drops in 
both unintended-pregnancy rate and abortion rates.
    Mr. Boyle. I also just--and, by the way, I think that's 
something that we can all celebrate. And maybe the focus should 
be more on how best to provide women the health care they need, 
and that actually this is something where we can build common 
ground.
    I did also want to point out--and I think you've cited this 
before, and it's only been mentioned once in these 3 hours. 
According to the nonpartisan Congressional Budget Office, if 
this legislation goes through, 390,000 women would lose their 
access to health care.
    Ms. Richards. That's correct.
    Mr. Boyle. Where else could they turn?
    Ms. Richards. Well, I think that's the difficulty in that--
you're right. I appreciate you bringing back up the CBO study 
because it's really important.
    As I said earlier, there are some areas of the country 
where we are the only safety-net family planning provider. 
There's other areas where they--the Medicaid folks who are 
taking Medicaid patients won't take any more. Because, as has 
been discussed by everyone, Medicaid patients--Medicaid 
payments don't necessarily pay for services.
    But the other thing I'd like to just emphasize is that 
there are women and young people that choose Planned Parenthood 
even though they have other options because we provide very 
high-quality health care, particularly family planning services 
that they may not be able to get anywhere else, without 
judgment and without shame.
    Mr. Boyle. Per one of the points you were making in terms 
of the population that Planned Parenthood serves, the statistic 
I have and I think that you've cited is that at least 78 
percent of Planned Parenthood's healthcare patients have 
incomes of 150 percent of the income--of the poverty level or 
less.
    Ms. Richards. That's correct. That's correct.
    Mr. Boyle. So it's pretty clear we're talking about people 
who don't have a great deal of options----
    Ms. Richards. Right.
    Mr. Boyle. --in anything, given their income.
    Ms. Richards. Well, and, to me, that is the point, is that 
I believe low-income women in this country should have all the 
same options to have high-quality, affordable health care as 
every other woman.
    Mr. Boyle. Thank you.
    And with 11 seconds left, I'll yield back.
    Ms. Richards. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Ms. Richards, if a child survives an abortion attempt, 
should it be given nourishment and medical care?
    Ms. Richards. I've never heard of such a circumstance 
happening. I----
    Mr. DeSantis. Really?
    Ms. Richards. Yes. I mean, I--certainly----
    Mr. DeSantis. So, if it did happen, you would say it 
would----
    Ms. Richards. Well, I can say----
    Mr. DeSantis. --be entitled to it or not?
    Ms. Richards. --at Planned Parenthood, I'm aware of no 
instance where--you know, we don't provide abortions after 
viability, so--but, certainly, in my experience at Planned 
Parenthood, we haven't ever had that kind of circumstance.
    Mr. DeSantis. But you would say that there would be--
medical care would be in order, at that point? Forget about 
Planned Parenthood, just generally.
    Ms. Richards. Well, I'd say--I mean, again, I want to be 
responsible for Planned Parenthood and what we do there. 
Certainly, in this situation--which, again, has never occurred 
that I know of--of a baby born, that baby should, as a mother 
should, get appropriate medical care from the physician----
    Mr. DeSantis. Now, have you watched----
    Ms. Richards. --and would.
    Mr. DeSantis. Have you watched all the videos released by 
the Center for Medical Progress?
    Ms. Richards. I haven't watched the multi-hour, edited 
videos, but I have read all of the written transcripts----
    Mr. DeSantis. So the ones that are on YouTube, you haven't 
watched those? I know there have been a series of----
    Ms. Richards. Well, there have been, like, hours and hours 
and hours. So I haven't--I mean, I'll just--I did read through 
all the--and I've watched many of the videos, and I've read 
through all the transcripts that have be provided.
    Again, I would say it's important that--my position is, I 
would like to see all of the videos that are not edited----
    Mr. DeSantis. No, I understand.
    Ms. Richards. --and those haven't been provided.
    Mr. DeSantis. What about--there was one specific one that 
there was a technician, Holly O'Donnell, that she was 
describing harvesting the brain of a late-term boy. She said 
she wasn't sure if the baby was alive since his heart was still 
beating and that she harvested the brain by cutting his head 
open, starting with the chin.
    Do you recall that?
    Ms. Richards. That woman does not work for Planned 
Parenthood, so I can't really speak to anything that she said. 
I'm not responsible for her.
    Mr. DeSantis. Do you deny that her description of what 
happened is something that does occur in Planned Parenthood 
clinics----
    Ms. Richards. I have never---
    Mr. DeSantis. --or its affiliates?
    Ms. Richards. There is nothing that she has ever described 
that I could attest has ever happened. And I----
    Mr. DeSantis. So you can categorically testify to that, 
then?
    Ms. Richards. Categorically testify to what? Because I want 
to be very careful what you're asking.
    Mr. DeSantis. That what she described is not something----
    Ms. Richards. Well, I don't remember that particular video 
of Holly O'Donnell, but I will tell you she has never worked at 
Planned Parenthood, and I----
    Mr. DeSantis. She was a technician for StemExpress. But I 
think it was something that was very, very troubling, to sit 
there and read that--or to sit there and watch that video.
    But let me ask you this. Do you admit that Planned 
Parenthood or its affiliates harvest and sell fetal body parts 
for profit?
    Ms. Richards. We are very clear at Planned Parenthood. We 
have a very clear policy on fetal tissue donation. It's done 
with the full consent of the patient. And, as I said earlier in 
my statements, it is only currently done in fewer than 1 
percent of Planned Parenthood health centers and in one----
    Mr. DeSantis. But no profit.
    Ms. Richards. --and in one--excuse me--and their one 
affiliate in Washington State that does not receive any 
reimbursement for their costs. And there's only one other one, 
which is in California. And they have assured us that, whatever 
reimbursement they receive, it is less than what the costs are 
for providing fetal tissue to that organization.
    Mr. DeSantis. If that's the case, then the video with Dr. 
Gatter negotiating over the price of the parts--if there's no 
profit being made, then why would you be negotiating over how 
much the parts are going to be sold for?
    Ms. Richards. Well, with respect, I completely disagree 
with your characterization of that. And that is why I read all 
of the transcripts, the full, not these edited, sensationalized 
videos. And what I read----
    Mr. DeSantis. Well, there was a----
    Ms. Richards. Because we take this very seriously. I read 
over and over----
    Mr. DeSantis. There's a negotiation----
    Ms. Richards. Over and over and----
    Mr. DeSantis. I understand how you are going to----
    Ms. Richards. I just disagree with your characterization.
    Mr. DeSantis. And that's fine, and people can judge for 
what it is.
    Let me ask you this. Do you deny that Planned Parenthood 
and/or its affiliates will alter abortion procedures in order 
to better harvest fetal body parts?
    Ms. Richards. We have a very clear policy, which I'm happy 
to read to you, about how we allow patients to make fetal 
tissue donations. Would you like me to----
    Mr. DeSantis. So, since the release of the videos, have you 
or the Planned Parenthood Federation issued any updated 
guidance to the companies to whom you provide fetal tissue 
regarding the sale of fetal body parts for profit and/or the 
manipulation of abortion procedures?
    Ms. Richards. Well, I just--there's no way to answer that 
because I disagree with your formulation. We allow women 
voluntarily----
    Mr. DeSantis. Let me put it this way. Have you issued any 
new guidance within the past 3 months?
    Ms. Richards. No. Although, as I said in my letter to 
Congress, we've--I've asked our chief medical officer and our 
medical team to review all the work we do--and, again, it's 
very limited--in fetal tissue donation to ensure that if there 
are any things that we could be doing better, we would like to 
do that.
    Mr. DeSantis. My time has expired.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Vermont, Mr. Welch, 
for 5 minutes.
    Mr. Welch. Thank you very much.
    A couple of things preliminarily.
    Number one, there is a sharp disagreement on members of 
this committee about abortion, and I think each side is 
entitled to mutual respect. There is a significant disagreement 
about fetal tissue research, and each side is entitled to 
respect.
    What is clear is the law says abortion is legal, and the 
law has limited authorization for fetal tissue research. That's 
the law. What Planned Parenthood is doing is completely 
consistent with the law.
    We're now having an argument about a video that has been 
redacted and doctored. There's no dispute about that. All of us 
would like to get the entire video. And, in a prudent 
investigatory process, we would get the evidence before we 
argued about the evidence that we don't have. So that is a 
limitation on our ability to get, quote, ``to the truth.''
    Second, I'm just going to speak for Vermont. Sixteen 
thousand women voluntarily choose to get their primary health 
care from Planned Parenthood. These are individuals of free 
will acting on the basis of what they believe is in the best 
interest of them getting the health care that they need.
    Second, the proposal here that we could transfer the 
services that Planned Parenthood provides to our community 
health centers doesn't stand up in Vermont. We have community 
health centers that we're very proud of. Senator Sanders, 
Senator Leahy, and I have all been big promoters. But its 
clientele is a significantly different population than women 
who have made a choice to go to Planned Parenthood for their 
women's healthcare issues.
    So this proposed remedy here would have an incredibly 
negative impact on the choice that Vermont women make about 
getting their basic health care. And, by the way, that health 
care that's important to the woman who decides to go to Planned 
Parenthood is really appreciated by her family, their partners, 
and the community.
    So what is Congress doing here? We're having an argument 
that's never going to end about abortion. But we're proposing 
to proceed in a way where the effect of our, quote, 
``investigation'' is going to have collateral consequences that 
compromises the ability of women to get access to basic 
healthcare needs. And it's also in the context where it's 
undisputed that the services that Planned Parenthood provides 
have helped reduce dramatically teen pregnancies and other 
pregnancies.
    So I think we should all take a step back here and think 
about what we do before we act. The first medical principle 
that all doctors follow: Do no harm.
    Ms. Richards, I do want to ask you a couple of questions, 
this alarming inquiry about whether you were selling for--or 
Planned Parenthood was selling for profit body parts.
    We've seen a proposed contract from Mr. Daleiden sent to 
the Planned Parenthood affiliate in Colorado earlier this year 
offering to buy tissue samples. And that contract included a 
compensation clause. Were you familiar with that document?
    Ms. Richards. Yes, I am.
    Mr. Welch. And, in response, your affiliate removed the 
word ``compensation'' and added the following text, and I 
quote: ``The payments shall not, under any circumstances, be 
calculated in such a way as to generate a profit for source.''
    So, Ms. Richards, is that what the affiliate did, and was 
that the strict policy of Planned Parenthood?
    Ms. Richards. So that's a very good example of what 
happened across the country. This group, who, as I said, are 
committed to--they weren't really committed to routing out any 
misdeeds. They were actually trying to entrap doctors and 
clinicians into signing bogus contracts and breaking the law.
    Mr. Welch. So is that----
    Ms. Richards. And so this example is a very good one of 
where they were completely rebuffed----
    Mr. Welch. And----
    Ms. Richards. --and yet they continued to badger and badger 
and badger our doctors to try to get them to commit to 
something that was unethical or illegal.
    Mr. Welch. And after your affiliate sent that deletion of 
the word ``compensation,'' did Mr. Daleiden agree to the terms, 
or did he lose interest?
    Ms. Richards. We never--there was never a contract, you 
know, that I know of that was actually sent back.
    Mr. Welch. Let me ask another question about a failed 
attempt by Mr. Daleiden. On July 20, you sent a letter to 
Chairman Upton, and you said this, quote: ``In another 
instance, Biomax offered to pay much more, sending the 
affiliate a procurement agreement that offered a payment of 
$1,600.''
    Your letter says this was a, quote, ``astronomical amount 
compared to the reasonable cost affiliates are allowed to 
recoup under Federal law.'' Is that right?
    Ms. Richards. I don't have that in front of me, but it 
sounds--to the best of my knowledge, it's correct.
    Mr. Welch. All right.
    I see that I'm out of time, and I yield back. Thank you.
    Ms. Richards. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Thank you, Ms. Richards, for being here today. Appreciate 
your testimony.
    I am also married to a strong lady. She is a family nurse 
practitioner----
    Ms. Richards. Oh, good.
    Mr. Walker. --helped launch the Sexual Assault Nurse 
Examiner program at Wake Forest Baptist Medical Center many 
years ago.
    But we stand together. We have done work in our inner 
cities, in places like Cleveland and Baltimore and New York. 
And I'm troubled with some of the statistics that we've even 
seen out of New York, and maybe you can address that.
    I don't want to talk over you; I want to give you a chance 
to respond.
    But, according to New York Health Department statistics, we 
now know that there are more African-American babies that are 
aborted in New York than actually born alive. Are you aware of 
that statistic?
    Ms. Richards. I'm not aware of that statistic.
    Mr. Walker. Okay. If that is correct, would that concern 
you? Because, obviously, Planned Parenthood has more clinics in 
New York State than any other State.
    Ms. Richards. Actually, that's not true. We do not. I----
    Mr. Walker. What is the number-one leading State? Do you 
have----
    Ms. Richards. I think it's--I believe it's California. I'll 
have to look, though, to make sure.
    Mr. Walker. But if you know that's not true----
    Ms. Richards. And it's not only--it's not only--I mean, 
Planned Parenthood--there are a number of healthcare providers 
in the State of New York beyond Planned Parenthood. It's one of 
the better-served----
    Mr. Walker. I understand. But we've already established 
that somewhere between 30 and 40 percent of all abortions come 
from your organization. So if we're going to put out the stats, 
we want to make sure that we're talking correct on the numbers.
    Ms. Richards. And I do think, Mr. Walker, it's a really 
important point, because I think one of the other--I don't know 
what all the statistics are that you have, but, of course, the 
lack of access for African-American women, in particular, to 
basic preventive health care, including family planning, is a 
huge problem in this country----
    Mr. Walker. It is. And I don't want to spend--and I agree 
with you. That's, as I aforementioned, time or places that 
we've served and worked in.
    But it does concern me that three times--the African-
American population is 13 percent, yet they're being aborted at 
three times the percent of the population, at 35 percent. That 
should concern all of us. I'm sure it concerns you, as well.
    I do have a specific question regarding the $32 million 
that's sent overseas. Does Planned Parenthood send any funds to 
the Democrat Republic of Congo?
    Ms. Richards. You know, this was asked earlier, and I----
    Mr. Walker. We did touch on it, but I want to come back to 
it, yes.
    Ms. Richards. I have to get back--honestly, I didn't bring 
materials about the--our international global program. I would 
have to get back to you that. I'm not trying to evade it. It's 
just not something that I thought was a topic of the committee 
meeting.
    Mr. Walker. Well, I hope you would, because we have laws in 
this country that permit--or prohibit us from sending money to 
places where we have sanctions on. And if Planned Parenthood is 
doing that, I would imagine that would be something that would 
concern you, would it not?
    Ms. Richards. We would certainly comply with all the laws 
both globally and domestically. And that's why I commit to you 
I will get information--we'll work with the committee to get 
information about the Congo.
    Mr. Walker. Fair enough.
    I have a question. As a former pastor, 15 years in a couple 
large churches, there were many times where we counseled women 
at different ages, various ages, for different things they were 
going through. Sometimes, 15, 20, 25 years later, after going 
through an abortion, there was still some struggle there.
    I don't disparage these women for making tough choices. As 
you've talked about, many have come from underprivileged 
communities, didn't feel like they had options.
    But of the $500 million of the taxpayers' money that goes 
to your organization, how much of that is set aside to offer 
counseling to some of those women who are still struggling with 
that issue?
    Ms. Richards. Well, we are--we don't--this is what it's 
really hard to explain to you, because I feel like we're just--
maybe we're not--we're talking past each other.
    We don't get a big check from the Federal Government. We're 
reimbursed for direct services. But I will--they're all family 
planning, STD testing, wellness visits.
    I will say, though, where one area I think you and I might 
agree, I would love in this country if we would fully fund, for 
Planned Parenthood or anywhere else, comprehensive counseling 
services for women on a whole host of issues. It is very 
underfunded, and it is really important to us, as well, because 
we do counseling with women every single day.
    Mr. Walker. I understand that. And I agree that there are 
some legitimate services offered. But this is something that I 
saw for 15 years.
    So, of the $1.3 billion in revenue, even if it doesn't come 
from taxpayers, how much of that is set aside to offer these 
services of women who are seeking counseling?
    Ms. Richards. We counsel--I don't know how--I could get the 
numbers for you. We counsel women and young people and men 
every single day at Planned Parenthood health centers all 
across the country, and most of it, as you probably know, is 
uncompensated care.
    Mr. Walker. Well, I look at your numbers, and I would tell 
you this: It is amazing as far as the amount of revenue that 
exists. And that's why I wanted to talk a little bit about how 
many how much you're sending overseas. But I do have one final 
question.
    If--this is a big ``if''--if there is proven to be criminal 
activity through an investigation, would you have any problem 
redirecting the $500 million or the $60 million of the 20 
percent that is not Medicaid, would you have any problem 
redirecting that to other women's healthcare organizations who 
offer genuine health care.
    Ms. Richards. Well, I'm not going to answer to a 
hypothetical. And again, I--we follow all the laws at Planned 
Parenthood. The health and safety of our patients is our number 
one concern. If there is any issue ever at the State or local, 
national level, we will address it, and we do so swiftly, and 
we always have.
    Mr. Walker. Thank you, Ms. Richards.
    I yield back.
    Chairman Chaffetz. Thank you.
    We now recognize the gentlewoman from the Virgin Islands, 
Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman and Ranking Member, 
Mr. Cummings.
    Thank you, Ms. Richards, for being here for the inordinate 
amount of time that you have. And I reiterate so much of what 
my colleagues here on this side of the aisle have said 
regarding this hearing and some of the concerns. You and your 
office know that I vocalized to you privately the fact that I'm 
displeased that Planned Parenthood is not present in my own 
district in the Virgin Islands or in any of the territories, 
which have approximately 4 million people. And the reason I'm 
displeased about that is because I know the good work that 
Planned Parenthood does in preventative health towards women. 
With the Virgin Islands having 141 unplanned teen pregnancies 
per 1,000, when the national rate is 29 pregnancies per 1,000, 
I see how important the work that you guys do is to different 
areas.
    And, you know, the chairman has seven clinics in his area 
in Utah. And Mr. Chairman, we would be glad to take any one of 
them in the Virgin Islands to be able to support women's health 
and the work that you do, knowing that 78 percent of those 
seven clinics are in rural areas.
    And I know that this committee is searching for truth, and 
that's the purpose of the Oversight and Government Reform 
Committee. And I believe that we need to do that in a neutral 
and evenhanded manner that reflects the integrity of this 
committee.
    Which is why I think that this is a premature committee 
hearing, if not the fact that the other side, the individual 
that the minority has requested to be here, Mr. Daleiden, is 
not here. And while I understand that Mr. Daleiden has had 
restrictions on the videos being produced, he has not produced 
one document that has been requested by this committee from 
either side.
    Ms. Richards, do you know how many documents, how many 
pages of documents Planned Parenthood has produced?
    Chairman Chaffetz. Will the gentlewoman yield?
    Ms. Plaskett. No, not at this time, sir. Afterwards I will 
leave you some time.
    Ms. Richards. I know thousands and thousands of pages of 
documents.
    Ms. Plaskett. I think it is 20,000 pages. And I know that 
the Ranking Member Cummings has sent a request for documents, 
and the Chairman Chaffetz and Representative Jordan have sent 
their own request for documents. And a subpoena was issued and 
it has not, not one page of documents, although I understand 
that, from the testimony, that the videos were, in fact--there 
was a question regards that.
    And so, Ms. Richards, I want to ask you some questions 
since we only have Planned Parenthood here, and we only have 
your documents that we are able to put up, and put up on 
screens and for you to be able to be questioned about, not the 
other side, which as an attorney is a little problematic for me 
to be able to get to the truth if I don't see both sides of the 
evidence being presented to me. But I understand that there are 
several States that have launched investigations against 
Planned Parenthood. Is that correct?
    Ms. Richards. Well, there have been a variety of--I mean, 
we're constantly being, you know, overseeing our healthcare 
services. And, yes, I think as a result of this recent 
campaign, there have been various State----
    Ms. Plaskett. And I understand that several of those States 
have cleared Planned Parenthood of any wrongdoing?
    Ms. Richards. That's correct. That's correct.
    Ms. Plaskett. And that there has not been produced any 
credible evidence that your organization has broken a single 
law. Is that correct?
    Ms. Richards. I believe that's true.
    Ms. Plaskett. And, however, there is plenty of evidence 
that Mr. Daleiden and his associates have violated both Federal 
and State laws. One example is his group obtaining tax-exempt 
status and apparently solicited charitable contributions under 
false pretense.
    Ms. Richards, are you aware that the Center for Medical 
Progress obtained a 501(c)(3) status as, I quote, a 
``biomedicine or bioengineering organization.''
    Ms. Richards. All I know is what I've read in the paper 
about the organization.
    Ms. Plaskett. And that that, in fact, is a fake 
organization that filed official paperwork with the State of 
California to create a sham tissue procurement company called 
BioMax Procurement Services, LLC? Ms. Richards, as far as I 
know, illegally filing false paperwork with a State agency is--
it's illegal and against the law, right?
    Ms. Richards. It may be. I don't know. And I know there is 
a lawsuit now pending, and I think the Attorney General of 
California has indicated that there will be an investigation.
    Ms. Plaskett. And so for me, for us to have this discussion 
with you without having the balance of the other side, becomes 
problematic.
    Mr. Chairman, did you want to say something at this point?
    Chairman Chaffetz. Yes. I thank the gentlewoman for 
yielding. She made a suggestion that Mr. Daleiden had not been 
responsive to our inquiries. That's not true. We issued a 
subpoena, he responded within the time. That package that 
arrived has not been opened. It's in our safe. He's unable to 
provide all of the documents given that there is a temporary 
restraining order. We understand that.
    House counsel is involved. Mr. Cummings and I evidently 
agree on this point, that we're trying to get all of that 
information. But to suggest that he was nonresponsive is simply 
not true because he did respond within the time allocated under 
the subpoena.
    Ms. Plaskett. Well, it's my position, Mr. Chairman, that 
until you're able to open all of those documents and receive 
all of them and we're able to balance them against the 
documents, the 20,000 pages of documents produced by Planned 
Parenthood, that this is an unfair hearing and that we're not 
getting the documents we need to do that.
    Chairman Chaffetz. Will the gentlewoman yield? I agree that 
we need all the information. That's why Mr. Daleiden was not 
invited to this hearing. The subject is exactly what I said in 
my opening comments and statements, which many members have 
asked, inquired about. It's the funding component. We did not 
title this hearing as a hearing on the videos. It caused some 
controversy, but we have, in the essence of time, some 
legitimate discussion about a continuing resolution and ongoing 
funding for Planned Parenthood, and we have laid that out. But 
my comments were not about the video, it was about the funding. 
That's where my concern lies. And we will----
    Ms. Plaskett. Mr. Chairman----
    Chairman Chaffetz. --we will get to, hopefully, see all of 
those videos, but we have got to get past the restraining order 
that has been put in place by a judge in California.
    Ms. Plaskett. Mr. Chairman, if we're going to discuss 
funding, and knowing that Members of Congress can sit here and 
ask questions that run the gamut, and that funding question is 
related to those videos which are the genesis of the question 
of whether to defund, then I think it's a little naive of us to 
think that that discussion can be done in a vacuum without the 
videos and the other documents from the other side.
    And I think that my time is up.
    Mr. Cummings. Would the gentlelady yield, with the 
chairman's indulgence.
    Chairman Chaffetz. Sure.
    Mr. Cummings. In fairness to the gentlelady, I'm looking at 
the memorandum from the majority and it talks about background 
for this hearing. In the first sentence, under background, it 
says: ``Recently released videos demonstrate Planned Parenthood 
Federation of America participates in transactions involving 
transferring fetal tissue for remuneration.'' And then it goes 
on.
    But let me just very briefly so that the record is clear, 
the gentlelady referred to documents that we had not received. 
And, again, I would like to briefly clarify one point on the 
record because it is important for the committee members to 
understand and I will be very brief.
    On Friday afternoon the Republican staff informed 
Democratic staff that Mr. Daleiden sent them a package, a FedEx 
box, but they said that they did not want to open it until this 
week. We thought this was strange because if the Republicans 
delayed opening this package, members would not have had enough 
time to review whatever was inside before today's hearing.
    So our staff also made it clear that if the Republicans 
wanted to use any of this material at today's hearing, it 
should be opened immediately on Friday so we could begin to 
reviewing it as soon as possible through the weekend. But the 
Republican staff told us that they wanted to just keep the box 
closed. They said they would not open it and they would not use 
it at the hearing.
    So, as of this moment, we still do not know for sure what 
is inside that box from Mr. Daleiden. However, we did receive a 
copy of minutes from a recent hearing in a lawsuit in 
California where Mr. Daleiden's attorneys apparently told the 
court in that case that they delivered additional video footage 
to our committee. So even more footage that Mr. Daleiden cut 
from the videos he's released publicly.
    So we went on to--we went on--we want to open the package. 
We want members to have equal access to the videos that are 
apparently inside. And we definitely want to see what the other 
footage Mr. Daleiden was concealing from the public. And I'll 
yield back.
    Chairman Chaffetz. Yeah, I want to see all the video too. 
That's why we issued a subpoena. I wish you all had supported 
us when we issued it.
    Mr. Cummings. Again, Mr. Chairman, I have said it before, 
and I don't want to----
    Chairman Chaffetz. I'm glad to have your support now.
    Mr. Cummings. I don't want to belabor----
    Chairman Chaffetz. I'm glad to have your support.
    Mr. Cummings. No, no, no, it's not now. We have been--we 
have supported it, and I can show you the documents to show you 
that we--consistently, we have asked that we get all of the 
tapes. And I will certainly, if you give me a few minutes while 
others are asking questions, I'll give you the very documents 
that we sent you showing that. Okay?
    Chairman Chaffetz. All right. We're going to go now to the 
gentleman from South Carolina, Mr. Mulvaney, for 5 minutes.
    Mr. Mulvaney. I thank the chairman. And I'll try and make 
my Democrat colleagues happy and ask funding questions that 
have nothing to do with the videos. How about that?
    Which is more important to you, Ms. Richards, actually 
providing women's healthcare services or lobbying?
    Ms. Richards. Well, I think these two things go hand in 
hand. And certainly what we have learned over the years is that 
in order to be able to provide healthcare services to women you 
have to also be able to advocate particularly for women who are 
underserved. So I think the two things actually go hand in 
hand.
    Mr. Mulvaney. Fair enough. You spent $21 million on 
lobbying in the last couple years. You spent zero dollars on 
mammograms. Why is that?
    Ms. Richards. Well, I think we've discussed mammograms 
repeatedly and how women's health care works. So when I go to 
my doctor, I get a breast exam. And we refer to----
    Mr. Mulvaney. You do a referral. I get that. Why don't you 
do them? Why don't you do them?
    Ms. Richards. Well, we're not a radiological clinic and I 
actually don't think that's----
    Mr. Mulvaney. Why not? That is a women's service.
    Ms. Richards. Well, I guess we could take it up, but we 
never have provided mammograms because we work in concert with 
folks who do provide radiological services.
    We do a number of breast exams----
    Mr. Mulvaney. You are aware, by the way, there's people 
running for President saying that you do provide mammograms. 
And that's not accurate, is it?
    Ms. Richards. Well, there are a number of people running 
for President saying a lot of things that----
    Mr. Mulvaney. On that side.
    Ms. Richards. --I can't certainly rely on.
    Mr. Mulvaney. You said earlier that you don't make any 
money from Federal funds, right, you don't make any profit off 
of Federal funds? Is that correct?
    Ms. Richards. So Planned Parenthood is a national office. 
We have one source of Federal funding right now. It's a 
$21,000, roughly, grant for a birth control clinical trial 
where we are actually reimbursed for costs alone, and that's 
the only source of Federal resources that come to the national 
office. So we couldn't make a profit off that, though.
    Mr. Mulvaney. Where is the $532 million going?
    Ms. Richards. So Medicaid and Title X----
    Mr. Mulvaney. So when you said you don't make any money off 
the Federal funds you were talking about the parent, not about 
your operations?
    Ms. Richards. I was trying to explain that the national 
office, and then there are--we have 59 affiliates.
    Mr. Mulvaney. Right.
    Ms. Richards. We have 650 to 700 health centers that 
provide healthcare services.
    Mr. Mulvaney. Is it your testimony that none of those make 
any profit off of Federal funds?
    Ms. Richards. Well, I would have to--they're all reimbursed 
for services that they provide, and I, my experience is that--
--
    Mr. Mulvaney. And that provides a profit, right?
    Ms. Richards. Excuse me?
    Mr. Mulvaney. That provides a profit. You get reimbursed 
for services.
    Ms. Richards. Well, we're a nonprofit so that----
    Mr. Mulvaney. You're a nonprofit that made $127 million 
last year.
    Ms. Richards. We didn't make money. We don't make money. We 
actually reinvest money in healthcare services and education 
and a lot of other things.
    Mr. Mulvaney. Okay, so let's talk about that.
    Ms. Richards. But I wanted to answer your first question.
    Mr. Mulvaney. Well, I'm going to follow up on that 
question. Now let's go on to this one. You just mentioned that 
you don't make money, but you had revenues in excess of your 
expenses of $127 million last year. That's right. That's your 
testimony. It's your numbers.
    Ms. Richards. We raised----
    Mr. Mulvaney. Right. So here is my question. I'm going to 
get to the question. Where does the money go? Where does that 
$127 million go?
    Ms. Richards. So like any organization of our size and 
scale, a lot of our resources are in what is a board-designated 
endowment or reserve. We are a 99-year old organization and so 
we have built our endowment. But also, I'm investing----
    Mr. Mulvaney. But you retain those earnings. In the private 
sense, you would retain those or you put them in the bank.
    Ms. Richards. Well, I hope they're in the bank and not just 
laying around. But certainly, in addition to that, so some are 
in reserves, and the other is, I have just invested in 
expanding healthcare services and building new clinics in a 
variety of States across the country. That's not paid for----
    Mr. Mulvaney. How is that not an expense?
    Ms. Richards. Excuse me?
    Mr. Mulvaney. How is that not an expense?
    Ms. Richards. Well, it is an expense.
    Mr. Mulvaney. But your books reflect revenues in excess of 
expenses of $127 million.
    Ms. Richards. I'm sorry, they're not all out the door, but 
I've made commitments to opening up new health centers in New 
Orleans, in Dallas, in other States in the South. We are 
opening in other States that I won't mention here. Probably----
    Mr. Mulvaney. Okay, so let's say that that money goes 
towards expanding your service. One of the proposals here, Ms. 
Richards, is to defund Planned Parenthood, which includes 
taking $60 million, roughly $60 million away from what you get 
out of discretionary funding. If we took $60 million away from 
you, you could still perform every single service that you gave 
last year, can't you?
    Ms. Richards. I can't say that because those----
    Mr. Mulvaney. Well, you made--you said you have revenues in 
excess of expenses of $127 million. Now, you told me what 
you're doing with $127 million. You're spending it. You're 
investing it. You're expanding. I get that. But if you'd had 
$60 million less last year you could have provided every single 
service to every single woman that you did last year.
    Ms. Richards. Well, I constantly raise money to expand 
services to the patients that look to us. And so I don't----
    Mr. Mulvaney. And God bless you. I think that's great. But 
answer my question, please. You could have provided every 
single service that you did to every single woman last year if 
you did not get a penny from the discretionary fund from the 
United States Congress?
    Ms. Richards. Well, I actually disagree. There's no way I 
could agree to that. These are services that are spread all 
across the country, and I can't possibly account for how each 
dollar that I raise----
    Mr. Mulvaney. You still would have had----
    Ms. Richards. --which is committed to other services and 
expansion of services could simply replace Federal dollars.
    Mr. Mulvaney. That's not expansion of services. I'm talking 
about services you actually provided. You would have had $67 
million----
    Ms. Richards. Well, we're expanding services beyond what we 
already provide.
    Mr. Mulvaney. Not that. That's not my question. My question 
is, if we had not funded you last year, you still would have 
been able to provide the services. And I think the answer is, 
unequivocally, yes. You might not have been able to expand your 
services, but every single woman that walked into every single 
clinic would have been served if you had not received that 
money from Congress.
    Thank you, Mr. Chairman.
    Ms. Richards. I disagree, but----
    Chairman Chaffetz. And we are just trying to figure out 
why, why you would disagree with that. Revenues would still 
exceed expenses even with $60 million less.
    Ms. Richards. So do you want me to start talking? Are we 
now having this conversation? I'm sorry, I wasn't sure if we're 
finishing this?
    Chairman Chaffetz. Yeah, sure.
    Ms. Richards. So I raise money every single day to expand 
services, education services to people in America. That's what 
we do at Planned Parenthood. And like any other nonprofit, we 
reserve money for all kinds of services that need to be 
expanded, assistance that needs to be provided, and that's what 
we do with our money. We are a nonprofit. We don't do anything 
else with our money other than put it back into the services, 
the education, and sometimes the advocacy that we provide.
    Chairman Chaffetz. I'll now recognize the gentlewoman from 
New Mexico, Ms. Lujan Grisham for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And thank you, Ms. Richards.
    And if this committee is going to undertake how Medicaid 
money is used and not used by every healthcare provider in 
every State and every local government in the United States, it 
might be a very interesting hearing about how we can assure 
that the Medicaid funds that are not reaching so many still, 
even with the progress of the Affordable Care Act, so many 
women and so many families, that would be a hearing that I 
think would be well worth having.
    I'm going to go back to both the funding aspects here, the 
unintended consequences. And really, I appreciate the comments 
of all of my colleagues, but Mr. Welch and Mr. Boyle. I served 
as the New Mexico secretary of health and one of my challenges 
was certainly to deal with teen pregnancy, but to also make 
sure that we had the right partnerships and viable access on a 
public health system where women and their families could get 
access to healthcare services that were of high quality and 
services that they trust.
    I can tell you something you already know, that without 
Planned Parenthood we could not meet those access points, and 
quite frankly, even in the public health system there are many 
women, particularly in rural and frontier areas of the State 
who, A, did not have access or would absolutely under no 
circumstances choose that access, where I'd like to tell you 
that our record about prevention and preventing pregnancy was 
better in the public health system.
    And that was in a world where we didn't have the 2008 
budget issues, where our State now is not putting money into 
public health or expanding public health or working on women's 
health care. And without the Affordable Care Act our rural 
hospitals and community health centers would all but be closed. 
And I will tell you that we now have the highest teen pregnancy 
rate in the country, with efforts at looking at what we can do 
for 15-year-olds to prevent the second and third pregnancy.
    Women need and deserve unfettered, high-quality, 
confidential access to comprehensive health services. And I'm 
hearing from hundreds of constituents, and I also know that 
thousands of New Mexico women and their families will not have 
access to these services because it is all connected. And even 
if it wasn't, we'd still want them to have the choices that 
they make that are right for them.
    But with all of the funding issues that we debate in this 
Congress, I know unequivocally that they don't have access in 
many of the places that they should. And under the Equal 
Protection Clause, they certainly ought to with Medicaid 
funding.
    Can you talk a little bit more about what States like New 
Mexico with these high teen pregnancy rates, without public 
health access, without those rural access points, where would 
those 21,000 women go?
    Ms. Richards. Well, thank you for your service in the 
public health arena and for your question. I do think it's 
incredibly important that we're constantly looking at new ways 
to help particularly young people access information and 
services. And it sort of goes back to the chairman's question 
maybe earlier, which is one of the things we do at Planned 
Parenthood, in addition to providing Medicaid family planning 
services, another is, we now run education programs all across 
the country and through the Web that have an average of 6 
million visitors every single month and visited by young people 
and by their families, English and in Spanish, because many 
people don't have access to adequate sex education in their 
communities.
    In addition, we are looking at more ways to provide birth 
control through--virtually, so that actually you can order it 
online and don't have to be in a clinic, because for many rural 
Americans it's very difficult to access a family planning 
provider in your community.
    So those are the kinds of things----
    Ms. Lujan Grisham. They're just not there. I have a pastor 
in my district who's let me know that he refers women to 
Planned Parenthood because he knows that there aren't the right 
community access points. And I know it has been touched on in 
this committee, but I have personal experience and know many of 
my constituents in their 20s and 30s and 40s who without the 
comprehensive healthcare services would have died from cervical 
cancer.
    And I know exactly how important, again, in a State that 
has higher per capita averages in many of these cancer areas 
for these populations, and particularly for minority 
populations, that we want to do a much better job investing in 
comprehensive health, simply do not have it. And the notion 
that we would continue to discriminate against those 
populations by not providing adequate Federal funding and 
access makes no sense if what we're trying to do is to maintain 
my choice about my high-quality confidential provider.
    Thank you, Ms. Richards, for being here today. I appreciate 
your testimony.
    Ms. Richards. Thanks for letting me be here.
    Ms. Lujan Grisham. Thank you.
    Chairman Chaffetz. Thank you.
    Members are advised we have two votes on the floor. There 
are approximately 8 minutes left in this first previous 
question vote. It is the intention of the chair to recognize 
Mr. Hice for his 5 minutes of questioning, then we're going to 
go to recess, then we're going to have to come back. We thought 
we could get through it, but we still have a number of members 
who have questions.
    So we'll now recognize Mr. Hice for 5 minutes. Then we'll 
go into recess and we'll reconvene after the votes.
    Mr. Hice. Thank you, Mr. Chairman.
    Ms. Richards, just a point of clarification. It's already 
been established that Planned Parenthood serves a lot of 
underprivileged people. And I just want to be clear. In your 
testimony you stated that it is significantly more difficult 
for individuals on Medicaid to access a provider as opposed to 
someone with a private insurance because so many providers now 
are not accepting Medicaid. Is that correct?
    Ms. Richards. Medicaid patients. It really varies across 
the country, but certainly there are some States where it's 
very difficult.
    Mr. Hice. And that's one reason that you would say that 
Planned Parenthood is needed, because there is a gap there. Is 
that correct?
    Ms. Richards. Well, I think we're--I mean, I think we have 
tried to demonstrate that we are an important provider of 
Medicaid services to a lot of folks in this country.
    Mr. Hice. But particularly the underprivileged and----
    Ms. Richards. Well, that's who, I mean, I guess by 
definition, yes, that's who is on Medicaid.
    Mr. Hice. All right. So you also said in your testimony 
that the Government Accountability Office found that about two-
thirds of the States are challenged now recruiting OB-GYNs 
because of the difficulty in ensuring provider participation in 
Medicaid and that, according to the CBO--this again is in your 
testimony--that by next year, ObamaCare is expected to reduce 
the uninsured, and nearly half of those are going to be on 
Medicaid.
    So from these testimonies from--or these statements in your 
testimony, is Medicaid, in your opinion, a substandard 
insurance?
    Ms. Richards. In my opinion is it--no.
    Mr. Hice. Is it an inferior product?
    Ms. Richards. Well, I'm not sure--I'm not exactly sure how 
to answer that. I think it's important that Medicaid----
    Mr. Hice. Well, this is according to your testimony, and I 
just want to know.
    Ms. Richards. No, no, I didn't--I don't think I said that, 
so I just want to make sure I'm clear what you're asking. I 
think it is important that Medicaid patients be able to get the 
same kind of quality of care as other insured people.
    Mr. Hice. But you said they can't, they're not able to 
because so many providers are not--let's go on to some other 
things. I was just curious and those were some questions that I 
had jotted down.
    Ms. Richards. Okay.
    Mr. Hice. It seems to me that there is a question mark 
there. You praise it on one end, Medicaid, and then----
    Ms. Richards. It's very important.
    Mr. Hice. --say it's a problem on the other, and that's 
why----
    Ms. Richards. No, it's not--I hope I didn't misstate that. 
I don't think Medicaid is a problem. I think the challenge is, 
because the reimbursement rates are very, very low in many 
States, there are not enough doctors and healthcare providers 
that will take new Medicaid patients. It's something that 
everyone struggles with.
    Mr. Hice. Okay. Let's go further. I do have some other 
questions.
    We have also established today that there has been excess 
revenue, as you describe it, other than, say, in profit, excess 
revenue, nearly three-quarters of a billion dollars in the last 
10 years, $127 million last year. We can break that down in a 
number of different ways. And yet, at the same time, dramatic 
reduction in prenatal care, preventive services, cancer 
screening, and so forth.
    And do you have any idea, by the way, how many Planned 
Parenthood clinics have closed over the last 10 years?
    Ms. Richards. I don't have those exact numbers. And you're 
referring to a lot of things I'd have to go back and look at 
charts for. I think we've addressed--although I know not 
everyone is here for all of it--why some women's healthcare 
services aren't needed on an annual basis anymore. But many of 
our Planned Parenthood health centers have merged to be more 
efficient. We started 99 years ago, and I will be candid, 
there's not always totally efficiency----
    Mr. Hice. Okay, well, let me go on. There's been over 100 
that have closed just over the last----
    Ms. Richards. Or merged. Well, I would say, or merged.
    Mr. Hice. Closed or merged, whatever. But the bottom line 
is, you stated just a few moments ago that this $127 million, 
three-quarters of a billion over the last 10 years, that you 
are largely holding it and using it for investment purposes. 
Why is it on the taxpayers' hook to provide for your 
investments in expansion when you are declining your services 
and clinics are closing?
    Ms. Richards. I don't think the Federal--the Federal 
Government isn't investing in our expansion. In fact, the 
Federal Government----
    Mr. Hice. The taxpayers are, according to----
    Ms. Richards. The Federal Government----
    Mr. Hice. You've got $127 million over the last year that's 
excess.
    Ms. Richards. None of that is Federal dollars, I'm sorry, 
that's all raised by private----
    Mr. Hice. All right, so we have $60 million that are 
Federal dollars that comes through the discretionary fund. Why 
do the taxpayers need to be providing $60 million when you've 
got $127 million a year? I mean, I'm just going back to the 
question already asked. I'm trying to find, why is the taxpayer 
responsible for your expansion?
    Ms. Richards. I'm not holding the taxpayers responsible for 
our expansion. In fact, the money that is paid for by the 
Federal Government through Medicaid, through Title X, through 
CDC grants, or HIV/AIDS programs, all pay for services directly 
provided to patients. And there is strict accountability and we 
are accountable. HHS looks at all of the Medicaid payments.
    So this is--we are grateful for the opportunity to serve 
patients who come into us on those programs. I think we provide 
very high quality, and that's why patients continue to come to 
us. And I think patients, regardless of whether they're on 
Medicaid or not, should have the option to go to the healthcare 
provider of their choice.
    Mr. Hice. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    The committee will now stand in recess and reconvene no 
sooner than 2:00 p.m. But we'll will be beholden to the 
conclusion of these votes. The committee stands in recess.
    [Recess.]
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order and we will resume our 
hearing regarding Planned Parenthood.
    We are now going to recognize, if the gentlewoman would--I 
need her to change.
    If we would--we'll now recognize the gentleman from 
Missouri, Mr. Clay, for 5 minutes.
    Mr. Clay. Ms. Richards, welcome, and thank you for your 
patience for being here so long. Let me start with the point 
that a lot of Republicans have relied on these doctored videos 
to accuse Planned Parenthood physicians of violating Federal 
laws. Just yesterday, the Missouri attorney general, Chris 
Koster, just completed his investigation of Planned Parenthood 
and found no wrongdoing. However, I want to walk through some 
of these accusations and ask you to give us the facts.
    Just as a preliminary matter, does Planned Parenthood 
receive any Federal funding for its tissue donation program?
    Ms. Richards. No, not that I'm aware of.
    Mr. Clay. Okay. Let me ask about the accusation that 
physicians are illegally altering abortion methods to harvest 
fetal tissue in violation of Federal law. First, here is what 
the law says. Doctors must certify, and I quote, ``no 
alteration of the timing, method, or procedures used to 
terminate the pregnancy was made solely for the purposes of 
obtaining tissue.'' This provision applies to federally funded 
research involving the transplantation of human fetal tissue 
for therapeutic purposes.
    This has been confirmed by the Department of Health and 
Human Services, which wrote that the Department, and I quote, 
``has not funded or conducted this specific type of research in 
recent years.''
    So even though this law does not apply to Planned 
Parenthood affiliates, you have still issued guidance that is 
consistent with the law. Is that right?
    Ms. Richards. That's correct. So just to be perfectly 
clear, the Federal law you're citing doesn't apply to Planned 
Parenthood because it, as you said, it only applies to 
donations for related transplantation research funded by the 
NIH.
    One other thing, Congressman Clay, actually I would like to 
mention, that when all of this came up, I actually wrote to the 
NIH and said if it's time to review the way fetal tissue 
research is done in this country, we welcome that. It's a very 
small part, obviously, of what we do, only 1 percent of our 
health centers even allow for tissue donation. But it seems 
that it would be an appropriate forum for biomedical ethicists 
and researchers and doctors to do that, and we welcome that if 
the NIH chooses to do so.
    Mr. Clay. Wonderful. Wonderful.
    Okay, let's turn to these accusations. David Daleiden and 
the Republicans accuse Planned Parenthood physicians of 
changing the timing, method, and procedure of abortions solely 
for the purpose of obtaining fetal tissue. So let me ask you 
directly, do Planned Parenthood physicians alter the timing, 
method, or procedure of an abortion solely for the purpose of 
obtaining fetal tissue for research in violation of Federal 
law?
    Ms. Richards. Well, first, just to go back, as we've 
established, Federal law doesn't apply, and yet our own 
standards and guidelines go above and beyond what's required. I 
have spoken with our chief medical officer and she assures me 
that she knows of no instance where the method or the procedure 
or the timing of an abortion was altered in any way in order to 
facilitate what is the patient's desire to donate fetal tissue 
for fetal tissue research.
    Mr. Clay. Let me ask you, when the physicians do make 
clinical adjustments during the course of the procedure, why 
would they do that and how does that work?
    Ms. Richards. Well, I'm not a doctor, so I can't speak to 
everything that doctors do. But I do know that our number one 
goal at Planned Parenthood is the health and safety of our 
patients, and so patient--certainly our doctors' number one 
goal is to make sure that if it is an abortion patient, that 
they have a successful procedure. And I know from talking to 
doctors all across the country, long before any of this 
happened, that doctors do all kinds of things, as do all 
surgeons, I assume, make decisions in the middle of procedures 
to ensure a good outcome.
    Mr. Clay. Let me--let's move to a different accusation, 
which is that women are not consenting to participate in these 
tissue donation programs. Can you speak to that, that women may 
not be consenting to donating the fetal tissue?
    Ms. Richards. Women are fully consenting, and they consent 
at Planned Parenthood prior--certainly prior to an abortion. 
And one of the interesting things that has happened, in part as 
a result, I think, of all of the press, is that there are more 
and more women asking if they could actually donate fetal 
tissue because they understand the importance of the research 
that's done. But, again, we only have two affiliates now who 
are able to, you know, can help women who want to make a fetal 
tissue donation.
    Mr. Clay. Thank you for your response.
    Mrs. Lummis. [Presiding.] The gentleman's time has expired.
    Ms. Richards. Thank you.
    Mrs. Lummis. The chair now recognizes the gentleman from 
Oklahoma, Mr. Russell.
    Mr. Russell. Thank you, Madam Chairman.
    And thank you, Ms. Richards, for being here today.
    How much total revenue collected or reimbursed for Planned 
Parenthood and its affiliates comes from abortion services?
    Ms. Richards. I believe we provided all of our financial 
information. I don't have that number.
    Mr. Russell. Do you have a ballpark?
    Ms. Richards. No, I don't. But again, we have provided--I 
know there was some back and forth about this, but--and I just 
verified it on the break. We provided all of the 990s, not only 
for the national organization, but our 59 affiliates, and I 
believe the audited financial statements.
    Mr. Russell. I guess if we were to extrapolate from the 
Planned Parenthood Web site of the cost of an abortion, the 
average cost, or of an abortion pill, it would be at $1,500 for 
the service of abortion or $800 for the pill. If you multiply 
that times 327,000, that would come somewhere between 40 
percent or 22 percent of a figure. Regardless, it's $491 
million down to $261 million just from the ballpark figures we 
see on Planned Parenthood's Web site.
    Ms. Richards. And I have to--could I just, I'm sorry to 
interrupt, but actually that is not----
    Mr. Russell. If you could very quickly.
    Ms. Richards. That's not accurate. But in any case----
    Mr. Russell. Well, then would you be willing to provide us 
what the accurate figure is, and when could you provide that to 
us?
    Ms. Richards. Well, what was inaccurate is, I think, what 
you reported in terms of the cost of an abortion. Obviously, it 
varies State to State, so I can't say, but I think your number 
was high.
    Mr. Russell. Well, we would await the accurate figures and 
when would you provide those to us?
    Ms. Richards. I have said to the chair, and we have been 
abundantly cooperative to this committee, we've provided 
thousands and thousands of pages of documents. And I'm happy to 
work with the committee and the staff and with my team to 
provide other information that you need.
    Mr. Russell. Okay. And I appreciate that. We'll continue 
on.
    Absent Federal funding, what effect specifically would it 
have on the organization's ability to provide abortion 
services?
    Ms. Richards. I'm sorry, could you restate your question? I 
don't think I understood it.
    Mr. Russell. Yes. Absent Federal funding, what specifically 
would it have on the organization's ability to provide abortion 
services?
    Ms. Richards. Well, okay, I hope I'm answering your 
question correctly. No money, no Federal dollars go to Planned 
Parenthood or other hospitals or other healthcare providers to 
provide abortion services.
    Mr. Russell. So it would have no impact, is that your 
answer?
    Ms. Richards. No impact on what?
    Mr. Russell. On abortion services.
    Ms. Richards. If we were not reimbursed for family 
planning, for preventive care----
    Mr. Russell. No, I'm asking specifically. Absent Federal 
funding, what specific impact would it have on abortion 
services?
    Ms. Richards. I can't think of a specific impact. I'm just 
trying to make sure I--I really am trying to be responsive to 
your question.
    Mr. Russell. No, and I can see that. Thank you.
    Ms. Richards. Okay.
    Mr. Russell. Can Federal funds be used for abortion 
equipment?
    Ms. Richards. Federal funds are only, in my understanding, 
and if there is something that I--there may be something I'm 
unaware of--but Federal funds can only be used for abortion 
services in very specific instances which I--we talked about 
earlier, which is if a woman has been raped----
    Mr. Russell. Sure.
    Mr. Russell. --if she is a victim of incest, or if it is 
the life of the mother.
    Mr. Russell. Well, I'm curious on the equipment, on the 
salaries, cleaning services, rent and maintenance of 
facilities, what about that?
    Ms. Richards. So let me just--on the abortion services, and 
on Federal funding for abortion services, these are--this is 
actually done through the States. That's where Medicaid funds 
come through, and they--I can get--we could look at any 
specifics on that. But that is oversight by----
    Mr. Russell. Okay. We would like that, if you could answer 
to that, because I realize----
    Ms. Richards. It's the Federal Government, though, that 
actually is making those decisions.
    Mr. Russell. Well, thank you.
    Ms. Richards. It's not--I mean, just it's not Planned 
Parenthood.
    Mr. Russell. For the record, Mr. Chairman, we've heard 
testimony today that 2.7 million received services in the last 
reported year. That number is actually over 3 million when you 
add the 327,000 aborted children to that figure. For the 
record, 2.7 million receive services and 327,000 receive a 
legal termination with no right to choose life.
    Three of my five children are adopted. It is my firm belief 
and the financial evidence substantiates that Planned 
Parenthood clearly does not need taxpayer funding to survive. 
We can carve up a child and call it a choice. We can destroy 
human life and call it health care. We can make the killing of 
children legal and pretend it is beneficial. We can cover acts 
of barbarity with the veneer of civility. But we cannot escape 
our accountability before the Creator of life.
    And with that, Madam Chairman, I yield back my time.
    Mrs. Lummis. The gentleman yields back.
    The chair now recognizes the gentleman from Pennsylvania, 
Mr. Cartwright.
    Mr. Cartwright. Thank you. Thank you, Madam Chair.
    And, Ms. Richards, I want to thank you for being here 
today. I want to ask about Planned Parenthood's Federal funding 
since that's supposed to be the topic of today's hearing.
    Ms. Richards. Uh-huh.
    Mr. Cartwright. What we're hearing is that Planned 
Parenthood receives about $500 million in Federal funding every 
year, and it is easy to see why you hear that figure a lot 
because it is an awful lot of money. And it seems like, I mean, 
the way you hear it, it sounds like Planned Parenthood receives 
a big check, a big cash payment every year. But I want to break 
down the numbers. According to the data compiled by the GAO, 
something like 80 percent of Planned Parenthood's government-
related revenue in 2012, about $400 million, came from Medicaid 
reimbursements.
    I think that's the point you've been trying to make today, 
is that it comes in the form of Medicaid reimbursements through 
the States for activities such as cancer screenings and 
wellness exams. Ms. Richards, first off, is that figure 
correct, around 80 percent, to the best of your knowledge?
    Ms. Richards. I think, to the best myself knowledge, it is 
correct. About 1.6 million of our patients in a year receive--
are covered by some kind of Federal program, Title X, or they 
are Medicaid patients, or there is a few other programs that we 
work on, HIV/AIDS programs and the like.
    Mr. Cartwright. And so is that figure fairly consistent 
with more recent years?
    Ms. Richards. Yes. And also one thing I just wanted to make 
sure is clear, it's not all Federal funds. A lot of State funds 
are combined in that figure, and I don't know the exact 
breakdown.
    Mr. Cartwright. Fair enough.
    Ms. Richards. So it's just not all Federal dollars, is all 
I meant to say.
    Mr. Cartwright. But what these numbers really mean is that 
Planned Parenthood affiliates provide a massive number of 
healthcare services to Medicaid patients, and then they are 
reimbursed on a fee-for-service basis.
    Ms. Richards. That's exactly correct.
    Mr. Cartwright. Is that a fair statement?
    Ms. Richards. And I think we provide really, really good 
health care for Medicaid patients and we're proud of that.
    Mr. Cartwright. Okay. Well, I come from a district that has 
a lot of rural territory in northeastern Pennsylvania. We have 
an awful lot of Medicaid-eligible patients.
    Ms. Richards. Yes.
    Mr. Cartwright. So it is an issue of concern to me. 
Medicaid patients are primarily people who are poor, elderly, 
or have disabilities, isn't that right?
    Ms. Richards. I don't know the breakdown of all Medicaid 
patients and certainly don't know for your area of 
Pennsylvania. I do know how many patients we see in 
Pennsylvania.
    Mr. Cartwright. Just in general, Medicaid patients--stay 
with me here----
    Ms. Richards. Okay.
    Mr. Cartwright. --Medicaid patients tend to be poor, 
elderly, or have disabilities, don't they, in general?
    Ms. Richards. Again, I'm just speaking--I only know of the 
folks we serve, so I can't speak about Medicaid patients more 
broadly. We don't serve many elderly Medicaid patients. 
Primarily we serve women between the ages of 18 and 24.
    Mr. Cartwright. Of course, that's true.
    Ms. Richards. Okay.
    Mr. Cartwright. And many of Planned Parenthood's Medicaid 
patients come from medically underserved communities, right?
    Ms. Richards. That's correct.
    Mr. Cartwright. And that's why the $500 million figure gets 
thrown around so much, that's why that's so misleading, because 
this is not an appropriated amount from discretionary spending, 
it is reimbursements for fee-for-service treatment. And like 
other medical providers, Planned Parenthood is reimbursed for 
the health care it provides for these patients, and that's 
generally the way healthcare insurance works anyway, right?
    Ms. Richards. That's exactly right. It's a different 
insurance program.
    Mr. Cartwright. In fact, we rely on providers to take in 
these patients, especially since Medicaid generally reimburses 
at a lower rate than private insurance.
    Ms. Richards. That's correct. And I think it's really 
important because in so many States, as we have talked about 
earlier, there are not that many healthcare providers that will 
take Medicaid patients.
    Mr. Cartwright. In fact, I think Dr. Gosar made that point. 
Medicaid reimburses rather poorly.
    Ms. Richards. It does. Although we are really proud, just 
looking at your State of Pennsylvania, we see 108,000 patients 
in the State of Pennsylvania, and many of them are in rural 
communities.
    Mr. Cartwright. Well, so when we hear talk about defunding 
Planned Parenthood, a big part of that is excluding Planned 
Parenthood affiliates from Medicaid, isn't that right?
    Ms. Richards. Correct. Essentially, and that's what is 
important, I'm so glad you made this point, because we can't 
make it strongly enough, as you said, we don't get an 
appropriated amount of money. This would actually--what 
Congress is proposing doing would deny people on Medicaid the 
ability to go to the provider of their choice, and many of them 
do choose Planned Parenthood for a whole host of reasons.
    Mr. Cartwright. Thank you for being here, Ms. Richards.
    I yield back.
    Mr. Jordan. [Presiding.] I thank the gentleman.
    The gentleman from Georgia, Mr. Carter, is recognized.
    Mr. Carter. Thank you, Mr. Chairman.
    Ms. Richards, you were kind enough to provide this 
committee with a list of the salaries and compensation of the 
officers of Planned Parenthood. That is correct and up to date, 
is that right?
    Ms. Richards. I'm sure it is if we provided it.
    Mr. Carter. Okay. Well, thank you. And I'm looking at this 
and I'm seeing an employee at Planned Parenthood's affiliate in 
Minnesota, North Dakota, and South Dakota was paid $459,827 in 
2013, is that correct?
    Ms. Richards. I don't have the figures in front of me. I do 
happen to know that affiliate is--this is a woman who has been 
a healthcare professional for decades.
    Mr. Cartwright. Okay, $459,000. And it is correct that you 
were compensated $590,000 in 2013, is that correct?
    Ms. Richards. Well, I tried to address this earlier, my 
salary----
    Mr. Carter. I understand.
    Ms. Richards. Well, did you like--I'm sorry----
    Mr. Carter. I'm just--yes, or no? Is that correct?
    Ms. Richards. $520,000 is my annual salary, and there was a 
benefit that was accrued to me over several years.
    Mr. Carter. And $590,000 was your compensation in 2013?
    Ms. Richards. It's set by the board of directors. And it's 
important to me----
    Mr. Carter. All I need to know is yes or no.
    Ms. Richards. --no Federal funds go to my salary.
    Mr. Carter. I understand. But $590,000, $590,000 was what 
you were compensated in 2013, according to what you provided 
this committee with, correct? Yes. That is----
    Ms. Richards. Your Honor, you're answering your own 
question.
    Mr. Carter. All right. Okay.
    Ms. Richards. I think I've answered the question.
    Mr. Carter. Okay. Well, let me ask you about the travel for 
Planned Parenthood. Planned Parenthood spent over $5 million on 
travel in 2013. That's almost $14,000 a day.
    Ms. Richards. Well, that----
    Mr. Carter. Was that first class or was any of it chartered 
jet?
    Ms. Richards. Boy, that would be nice. No, I've never--I 
don't fly first class.
    Mr. Carter. But $14,000 a day.
    Ms. Richards. We have 8 million supporters in this country. 
We provide health care to 2.7 million people. We provide sex 
education to 1.5 million people. And----
    Mr. Carter. Is that number correct, $14,000 a day? Is that 
correct?
    Ms. Richards. I don't have the figures in front of me. But 
I'm happy to look----
    Mr. Carter. Okay. Well, that's what you provided and I just 
want to make sure.
    Ms. Richards. I'm happy to look at them.
    Mr. Carter. Can you provide this committee, can you provide 
this committee with the records that show the modes of travel 
that you have taken, whether they have been first class or 
whether they have been chartered jet? Can you break down that 
travel?
    Ms. Richards. I will work with the committee staff to 
provide whatever we can on the questions that have been asked.
    Mr. Carter. We appreciate that very much.
    Let me ask you something----
    Ms. Richards. Although I will say for the record, I do not 
travel first class.
    Mr. Carter. Neither do I, but I don't spend $14,000 a day 
either.
    Ms. Richards. Well, I have----
    Mr. Carter. Nevertheless, let me ask you, you have made the 
claim that many patients wouldn't have timely access to basic 
reproductive health care if it weren't for the services of 
Planned Parenthood. Yet, the U.S. Department of Health and 
Human Services in 2015 said that there are almost 9,700 
healthcare service delivery sites and over 4,000 rural health 
clinics, including over 1,200 federally qualified health 
centers operating over 9,000 sites in the United States.
    How many clinics does Planned Parenthood operate? I believe 
earlier you said 650 to 700?
    Ms. Richards. It's between 650 and 700, depending.
    Mr. Carter. But yet if that 650 to 700 were to go away, 
these patients wouldn't have access to health care?
    Ms. Richards. Well, I mean, I'm looking at the CBO report, 
the Congressional Budget Office just came out with a report 
that if Planned Parenthood, if women were unable to go to 
Planned Parenthood, Medicaid patients or Title X patients, 
390,000 women would immediately lose health care next year.
    Mr. Carter. You know, the problem I have with that----
    Ms. Richards. So I'm just--I'm reporting back what the 
government reported.
    Mr. Carter. --the problem I have with that is that the 
Obama administration reports that there are over 13,000 
publicly supported healthcare alternatives in the United 
States. Have you seen that? Are you aware of that?
    Ms. Richards. I haven't seen that.
    Mr. Carter. That's what the Obama administration is telling 
us. So that's almost eight times as many as Planned Parenthood 
has. And out of those clinics, I mean, we've got almost--excuse 
me, I misspoke--over 20 federally funded clinics as opposed to 
every Planned Parenthood. Yet those federally funded clinics, 
they don't have $100 million endowments. They don't have $70 
million dollar Manhattan condo. They don't spend hundreds of 
thousands of dollars on Grammy-winning performers performing at 
their galas. They don't do any of those things. Yet, they are 
able to provide services, needed services to women.
    Why is it that Planned Parenthood has got to have that in 
order to provide the same services? Do you believe----
    Ms. Richards. Planned Parenthood----
    Mr. Carter. Do you believe that they have to have that?
    Ms. Richards. Well, I----
    Mr. Carter. It's yes or no. That's all it is.
    Ms. Richards. With all respect, that wasn't really a 
question. I would say I really stand by the fact that we 
provide health care to many, many women in this country who 
have no other option.
    Mr. Carter. The question is--the question, Ms. Richards, 
the question was, have you got to have that in order to provide 
health care to women?
    Ms. Richards. We provide----
    Mr. Carter. These other clinics don't have it and they 
provide it.
    Ms. Richards. Well, I'm not going to speak to every other 
hospital, healthcare center, and FQHC in the country.
    Mr. Carter. Do you think they have to have it in order to 
provide health care to women?
    Ms. Richards. I think we provide excellent health care to 
women in this country. And I think the point here----
    Mr. Carter. That's not the question. The question is, do 
you have to have a $100 million endowment, $70 million condos? 
I think not.
    Ms. Richards. I don't know what----
    Mr. Carter. Mr. Chairman, I yield back.
    Ms. Richards. With respect, I think it's important that the 
question here is, do low-income women in this country have the 
right to choose wherever they want to go to for health care? 
And 2.7 million of them choose Planned Parenthood.
    Mr. Carter. Why don't you let them go to one of those $70 
million condos in Manhattan?
    Mr. Jordan. The gentlelady from Texas is recognized.
    Ms. Jackson Lee. Mr. Chairman, thank you so much for the 
courtesies extended. Let me thank the chairman of the full 
committee for his courtesies, and to Mr. Cummings certainly for 
his courtesies as well, for my participation in this very vital 
hearing today.
    I am a member of the Judiciary Committee as well, and we 
held such a hearing some weeks ago. And so I can almost say dj 
vu.
    Let me thank Ms. Richards, first of all, as a fellow Texas, 
to thank her for the legacy of her family that has always been 
engaged in public service. And that's what I consider you and 
Planned Parenthood as doing.
    Coming from Texas, let me cite the Houston Planned 
Parenthood offices, of which I have been in and walked through 
and seen the clinics and seen individuals who fell into my arms 
indicating that without Planned Parenthood they would not be 
able to, in fact, have health care.
    Let me ask you very quickly as my time goes, it may be, as 
I have been listening this afternoon, that we have been mixing 
more than apples and oranges. It might be apples and potatoes. 
Because we are talking about abortion. When I say that, many of 
these questions have come forward. And I just wanted to read 
this quote from a Senator in Oklahoma in discussing Planned 
Parenthood. ``My focus is to try to deal with the life issue. 
Defunding Planned Parenthood is just a sideshow for the real 
event.''
    Has this come to your attention, Ms. Richards, that many 
are talking about something that really has nothing to do with 
your Federal funding?
    Ms. Richards. Well, I do think it's been a bit of a theme. 
And I think that is one thing I'd like to say. It's important 
that I don't really believe that an organization, a healthcare 
provider should be discriminated against for providing a legal 
service, whether it's Planned Parenthood or a local community 
hospital or anyone else.
    Ms. Jackson Lee. Let me follow up as well and hold this up 
and ask unanimous consent to place it into the record. And let 
me cite for some of my colleagues: Ohio, 28 clinics, 80,000 
patients, 66,000 on contraception, total sexually transmitted 
diseases, 105,000; Texas, 38 clinics, 150,000 patients, and 
108,000 on contraception, and others dealing with sexually 
transmitted diseases. But if those clinics went away, then we 
are talking about 28 in a big State like Ohio, 38 in Texas, 
thousands of women losing access to health care. Is that not 
correct, Ms. Richards?
    Ms. Richards. That's correct.
    Ms. Jackson Lee. And are you familiar with the Texas cases 
which challenge or discuss the legislative initiative in 2014-
2015 that would literally implode clinics in Texas and the 
Supreme Court decision that ruled in 2014 and 2015?
    I think the United States Supreme Court, maybe based on Roe 
v. Wade, maybe based on the fact that abortion services, which 
are not part of the funding here, but in any event, just so my 
colleagues would know that, in my State of Texas the law, the 
State law would have cut off 75 percent of reproductive 
healthcare clinics. The Supreme Court indicated that the Texas 
law was unconstitutional, indicating that the separate work 
that you do dealing with people's right to choose is a lawful 
act and has nothing to do with Federal funding. Is that 
correct?
    Ms. Richards. I believe that's correct.
    Ms. Jackson Lee. And the Supreme Court has indicated that 
abortion, by law, is not illegal in those cases.
    Ms. Richards. And I know a lot of these are still on 
appeal. I do think since we both come from Texas, I think it is 
important to know that when the State of Texas shut down the 
Texas Women's Health Program and Planned Parenthood's ability 
to serve women, there are 25 percent fewer women in Texas that 
are receiving care as a result. And so I think that's why it's 
so important that we don't ever put politics ahead of women's 
health.
    Ms. Jackson Lee. Let me get these last two questions in. As 
a member of the House Judiciary Committee we deal a lot with 
the FBI. So does this committee as well. Let me just ask you 
about Mr. Daleiden's work. Is Mr. Daleiden a member of the 
Federal Bureau of Investigation, to your knowledge?
    Ms. Richards. Not to my knowledge.
    Ms. Jackson Lee. Is he an FBI agent, to your knowledge?
    Ms. Richards. Not to my knowledge.
    Ms. Jackson Lee. Is he a member of the Department of 
Justice.
    Ms. Richards. I don't believe so.
    Ms. Jackson Lee. Has the Health and Human Services ever 
investigated, or investigated you, per se, about your Medicaid 
reimbursements, meaning something that you have not been able 
to answer or file in another filing?
    Ms. Richards. We follow all of the laws at the State and 
Federal level every day.
    Ms. Jackson Lee. So Mr. Daleiden has been engaged in an 
investigation, has no authorization, is not a member of the 
FBI, which I would call dastardly and deceitful. So I'd ask you 
this question: Are you aware that Mr. Daleiden has pleaded the 
Fifth Amendment in some cases that he has engaged in?
    Ms. Richards. I have read that in the paper.
    Ms. Jackson Lee. Are you aware that it has been checked by 
RH Reality Check that Mr. Daleiden stole the identity of the 
president of the feminist club at Mr. Daleiden's high school? 
Have you heard that?
    Ms. Richards. I have also read that in the paper.
    Ms. Jackson Lee. And let me cite not you, but RH Reality 
Check. Would we then, Mr. Chairman, as I finish, would we then 
say that we are here today to speak about the facts. And 
therefore, are you saying on the record today that Planned 
Parenthood does not use any Federal funding for anything that 
is not authorized under the laws of the United States of 
America?
    Mr. Jordan. The time of the gentlelady has expired.
    Ms. Jackson Lee. Can she answer that question?
    Mr. Jordan. Of course.
    Ms. Richards. We follow all the laws at the Federal and 
State level, and whenever we find issues we take care of them 
and address them.
    Ms. Jackson Lee. I thank the gentleman for his courtesy. I 
thank this committee for its courtesy. Thank you. I yield back.
    Mr. Jordan. I thank the gentlelady.
    The gentleman from Wisconsin is recognized.
    Mr. Grothman. Thank you. A few questions. I would just like 
to clear up some things.
    First of all, you talk about the percentage of women who 
are low income served by Planned Parenthood. I am under the 
impression that for defining income, if you have a younger 
person, a 21-year-old college student, or even a 16-year-old 
high school girl, that for the purpose of defining income you 
leave out the mother's income. So, for example, if a 
billionaire's daughter who made $5,000 last year came to 
Planned Parenthood, she would be considered low income. Is that 
correct?
    Ms. Richards. I would have to check on that. I don't know 
of any billionaire's daughters that are coming to Planned 
Parenthood, but I'm happy to look into that and to address your 
question.
    Mr. Grothman. Okay. I'm saying for the purpose of the 
family planning waiver, I think it is pretty well-publicized 
that, you know, both high school kids, college kids, they, for 
the purpose of determining income, they look at their--they are 
considered a family of one despite living with parents. Is that 
true?
    Ms. Richards. I'm happy to check on that.
    Mr. Grothman. Okay.
    Ms. Richards. And I think a lot of high school or college 
women, they may--at that point they don't have the resources of 
their parents, and a lot of young women do come to us because 
they need family planning but can't talk to their families.
    Mr. Grothman. Okay. The next question I have, when I look 
at cities around me that have a Planned Parenthood clinic, 
usually they are what, by Wisconsin standards, they are medium-
sized cities, 20-, 30-, 40,000 dollars. Usually in those cities 
as a guy, I could go to many clinics locally that have all of 
the machines that one would need. All of these clinics, as far 
as I know, take Medicaid dollars. So, you know, you could go to 
any of those clinics to get any medical service you could.
    I guess what I'm getting at is, in my opinion, if Planned 
Parenthood disappeared tomorrow in those towns there would 
still be three or four or five clinics or hospitals providing 
all the Medicare--all of the medical care you would want, and, 
quite frankly, providing superior care to people who are on 
Medicaid.
    Ms. Richards. Well, I think we do provide superior medical 
care, but, in any case----
    Mr. Grothman. I'm saying superior care in the sense that on 
Medicaid, without the deductibles and copays, it's usually 
better insurance than other people have.
    I guess what I'm saying is, it would seem to me, if Planned 
Parenthood clinics were not around in those cities, with the 
exception of a couple of abortion clinics, there would be three 
or four other clinics available to do any women's health or 
men's health or health of any nature whatsoever. Don't you feel 
that's true?
    Ms. Richards. Well, I don't. And I have been to Wisconsin a 
lot. Obviously, you know more about Wisconsin than I do, but I 
know we have 22 health centers in the State of Wisconsin. And, 
last year, we provided--or the most recent year we have 
figures, we provided health care to 65,000 people. And, 
actually, I think we are the largest--don't quote me on this, 
but I will check to make sure. But I think we're the largest 
family-planning provider of the network in Wisconsin, so that's 
pretty hard to replace.
    Mr. Grothman. Well, no. I think you're not answering my 
question.
    Ms. Richards. Oh, I'm sorry.
    Mr. Grothman. If you have a city in which there are four 
clinics, full-service clinics that you could go to for anything 
under the sun, and a Planned Parenthood clinic, I would assume 
that if the Planned Parenthood clinic disappeared you would 
have four or five other clinics to deal with anything that 
Medicaid paid for.
    Ms. Richards. Well, we just haven't seen that to be true. I 
mean, I use the example of the State of Texas, where they 
eliminated Planned Parenthood as an option in communities, and 
25 percent of women lost access to care.
    So I actually don't think--there are a number of reasons 
that women go to Planned Parenthood. It's personal choice, as 
well as availability, as well as the services we provide. And, 
for many women, we are the provider that they think best meets 
their healthcare needs. And I do think that's really, kind of, 
what's at stake here.
    Mr. Grothman. Okay.
    You emphasized before the lack of ability of access to 
health care for minorities. Do you feel that you have a special 
role to fill there?
    Ms. Richards. I'm sorry, I just--it's very hard to hear 
you.
    Mr. Grothman. Okay.
    Ms. Richards. I apologize.
    Mr. Grothman. Before, you emphasized that you felt there 
was a lack of access of health care to minorities. Do you feel 
that you have a special role to play there?
    Ms. Richards. We have a special role to play for anyone who 
is underserved, and that includes folks of low income, folks of 
rural America, folks in areas of the country where there is 
less public healthcare access. So it really is all across the 
gamut.
    Mr. Grothman. Okay. I'll give you one more question and 
come back to the prior one. In Wisconsin, all of the Planned 
Parenthood clinics are in sizable cities in which there are, as 
far as I can see, probably multiple other medical providers.
    Is there anywhere in the country that you know of, any 
metropolitan area in which Planned Parenthood offers services 
in which there are no other providers to take Medicaid dollars?
    Ms. Richards. I--it's just beyond my--what I know. I can't 
really respond to that.
    But I think, again, if we're in 22 communities in 
Wisconsin, which we are, according to these records, that's a 
lot of--I'm not saying those aren't all decent-sized cities, 
but that's a lot of rural community, as well.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Alabama, Mr. Palmer, 
for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Thank you for being here, Ms. Richards.
    Planned Parenthood Action engages in political activity; is 
that correct?
    Ms. Richards. The Planned Parenthood Action Fund, which is 
a separate corporation, does.
    Mr. Palmer. And you're compensated by that organization?
    Ms. Richards. Well, I mean, my--I get compensation really 
to reimburse for my costs----
    Mr. Palmer. Yes or no, for brevity?
    Ms. Richards. I'm just trying to explain. I'm sorry.
    Mr. Palmer. I understand. And I know how these things work. 
But the answer is yes or no, and I think you've already 
answered it.
    It's, what, $31,000? Is that about right?
    Ms. Richards. I don't have the figures for last year, but 
whatever my compensation was, it is for work that I do on 
behalf of the Action Fund.
    Mr. Palmer. Okay. Where does Planned Parenthood Action get 
its funding?
    Ms. Richards. Private donations. We have 8 million 
supporters in this country and a number of donors from all 
over, all over the country.
    Mr. Palmer. And is there any money from Planned Parenthood 
that goes to Planned Parenthood Action?
    Ms. Richards. They're not--there is--the Planned Parenthood 
Action Fund, which is--it does advocacy and it does electoral 
work. There is advocacy work----
    Mr. Palmer. But that--I know what they do. I'm asking----
    Ms. Richards. Well, I think I'm trying to be responsive to 
your question----
    Mr. Palmer. I know, but for----
    Ms. Richards. --right? So----
    Mr. Palmer. --brevity's sake and out of respect----
    Ms. Richards. Well----
    Mr. Palmer. --for brevity's sake----
    Ms. Richards. --as you know, for 501(c)(4) organizations, 
they cannot do a majority of their work as electoral work. 
That's under IRS Code.
    Mr. Palmer. I understand.
    Ms. Richards. And so more than 60----
    Mr. Palmer. I understand that.
    Ms. Richards. I think between 65 and 70 percent of the work 
of the Action Fund is non-electoral.
    Mr. Palmer. And you also have a PAC; is that correct?
    Ms. Richards. Okay. Yeah. I was just going to--yeah. Yes, 
there is a Federal PAC.
    Mr. Palmer. All right. And that Federal PAC, how much--just 
round figures, what did it spend in 2014?
    Ms. Richards. How much the Federal PAC spent in 2014, I can 
get that for you.
    Mr. Palmer. Okay.
    Ms. Richards. I'm not being evasive. It's obviously public 
record. I just don't have it with me.
    Mr. Palmer. Where do they--where does the PAC get its 
money?
    Ms. Richards. It raises its money from individuals----
    Mr. Palmer. Are you compensated----
    Ms. Richards. --and sometimes----
    Mr. Palmer. Are you compensated by the PAC?
    Ms. Richards. I don't believe I have any--have ever been 
compensated by the PAC. Although I know that the Federal law 
requires, if you are doing work on behalf of a Federal 
candidate, I believe you actually have to--your time has to be 
paid for by a PAC. So we follow all the----
    Mr. Palmer. And do you have any oversight over the PAC?
    Ms. Richards. --laws and regulations.
    Mr. Palmer. Do you have any oversight over the PAC, any 
managerial responsibility?
    Ms. Richards. Sure. I mean, in some----
    Mr. Palmer. Okay. Well, you're supposed to be compensated 
if you do any work for the PAC. And you need to check that out.
    Ms. Richards. Well, I just--I think----
    Mr. Palmer. I want to go to this. In 2004, you founded a 
group called America Votes, a coalition of 42 national 
grassroots organizations focused on elections.
    How many of these organizations collaborate with or are 
incorporated into Planned Parenthood's political operation?
    Ms. Richards. I'm sorry. You're asking me about a job I had 
before Planned Parenthood; is that correct?
    Mr. Palmer. That is correct.
    Ms. Richards. Okay. But can you restate----
    Mr. Palmer. With a focus on elections.
    Ms. Richards. Sorry. Can you restate the question? We're 
just out of--I was just out of context.
    Mr. Palmer. How many of these organizations are 
collaborating with or have been incorporated into Planned 
Parenthood's political operation?
    Ms. Richards. I really don't know. I----
    Mr. Palmer. So I would assume that some do, because you 
can't answer it. It's either a yes or no. Some have, or--
they're either there or they're not.
    Ms. Richards. I really don't--well, I think you asked me 
how many, and I said I don't know.
    Mr. Palmer. Let me----
    Ms. Richards. A lot of these organizations work together. 
But I don't--again, we could get more information for you.
    Mr. Palmer. That would be helpful.
    You've got these high-paid executives. There's--
interestingly enough, 44 of your highest-paid executives make 
more than any Cabinet member; 28 of them make more than any 
member of the Cabinet. And you've got--that's over $200,000. 
You've got another 11 who make over $300,000. That's more than 
anybody in the Cabinet, any Supreme Court Justice, the Chief 
Justice, the Vice President.
    Ms. Richards. I don't think----
    Mr. Palmer. You've got four that make more than the 
President, not counting you.
    Are any of them expected to make political contributions?
    Ms. Richards. By who? I'm sorry.
    Mr. Palmer. By you?
    Ms. Richards. No.
    Mr. Palmer. Do you direct political contributions to 
candidates?
    Ms. Richards. The PAC does.
    Mr. Palmer. Yes, but do you----
    Ms. Richards. It votes on it.
    Mr. Palmer. --have any input in who gets----
    Ms. Richards. No, but there is a PAC committee that votes 
on it.
    Mr. Palmer. Are you on that----
    Ms. Richards. You're asking me a question, and I'm trying 
to be responsive.
    Mr. Palmer. Are you on that PAC committee?
    Ms. Richards. I'm not on the PAC committee.
    Mr. Palmer. Do you have any input into who gets political 
contributions?
    Ms. Richards. No. The PAC committee votes on----
    Mr. Palmer. So there's no collaboration between you and the 
PAC committee. You're saying for the record----
    Ms. Richards. I haven't sat on a PAC committee meeting for 
a long time.
    Mr. Palmer. All right. Let me ask you----
    Ms. Richards. But, I mean----
    Mr. Palmer. --your PAC advertised itself----
    Ms. Richards. --we operate absolutely--you know, we meet 
the Federal laws and restrictions.
    Mr. Palmer. I appreciate how you want to answer this.
    Your PAC advertised itself as being nonpartisan. Yet, in 
2014, 100 percent of the contributions went to Democrats; in 
2012, 99 percent went to Democrats.
    Ms. Richards. I actually don't believe that's accurate, 
but----
    Mr. Palmer. That's what's reported here.
    Ms. Richards. Okay. Well, I'll go back and look, but we 
support--we've done work on behalf of----
    Mr. Palmer. I just----
    Ms. Richards. We support anyone who supports women's 
rights.
    Mr. Palmer. Mr. Chairman, reclaiming my time.
    I just want to point out that it's not nonpartisan and that 
you've given almost--I mean, in every case, almost every dime 
to Democrats, including to nine members of this committee.
    Thank you, Mr. Chairman.
    Ms. Richards. Well, we welcome any Republican who supports 
women's rights and women's healthcare access and--so thank you.
    Chairman Chaffetz. The gentleman yields back.
    We'll now recognize the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    I have a couple of questions for Ms. Richards, and then I'm 
going to yield whatever is remaining to the chairman.
    Ms. Richards, Peter Welch sits right down there on the 
other side. He's a gentleman from Vermont who's a Democrat. 
Peter and I do not agree on very many issues, but there's not a 
more well-regarded Member of our body, I don't think. And he 
evidenced that today by making it crystal-clear that he makes 
an effort to understand both the analysis and the conclusions 
of those who may have a different position from the one that he 
holds.
    Do you understand how some of us may, at a base level, 
disagree with you on the origin of life? Do you make that same 
effort to understand that my friend from Vermont, Peter Welch, 
makes?
    Ms. Richards. I fully respect--and I think I spoke to this 
in my opening statement with the chairman--that I understand 
people have different feelings about whether abortion should be 
legal in this country or not. I think it is important that it 
is legal, and we can disagree. And I know thinking people 
disagree about abortion.
    And our goal at Planned Parenthood is to be judgment-free 
and to allow people and women in particular to make their own 
decisions about their pregnancies.
    Mr. Gowdy. Well, we're going to get to the judgment-free 
zone here in just a second. But you mentioned abortion. How 
about partial-birth abortion? Do you understand how some of us 
may support a ban on partial-birth abortion?
    Ms. Richards. Well, I--I don't want to--I'm not trying to 
be argumentative, but that was a political formulation, not a 
medical formulation. But I certainly understand that it was 
passed and is the law of the land, and Planned Parenthood 
certainly meets the requirements of that law.
    Mr. Gowdy. Well, my question wasn't whether you follow the 
law. My question was whether or not you understand how some of 
us may be very much opposed to that practice. That was my 
question.
    Ms. Richards. I understand how people can disagree based on 
their religious beliefs, their background, their own personal 
experiences. And I also understand that people sometimes change 
over time. And that's the human condition.
    Mr. Gowdy. Are you suggesting those who hold a contrary 
view to you need to change? Is that why you added that line, 
Ms. Richards?
    Ms. Richards. No. I've just, candidly, in my 10 years at 
Planned Parenthood, I've seen--I've experienced, myself, people 
who have picketed outside of our health center and then found 
themselves in need of our services, and we try not to judge----
    Mr. Gowdy. And I'm sure that there have been employees who 
grew tired of participating in the practices that they were 
participating in, and they may have gone to the other side, 
might they?
    Ms. Richards. I----
    Mr. Gowdy. How about opposing abortions on the basis of 
gender or race? Can you understand how people may support 
legislation that ban that?
    Ms. Richards. As I tried to say, I appreciate that people 
have a lot of different views on the issue of abortion, and 
there's any number of different pieces of legislation you could 
describe.
    And I think, fundamentally, at Planned Parenthood, we take 
the position that we trust women to make their decisions about 
their pregnancies. I've made my own decisions, as well, and so 
I feel like I walk----
    Mr. Gowdy. Ms. Richards----
    Ms. Richards. --I can kind of walk in these shoes.
    Mr. Gowdy. Ms. Richards, I appreciate the way you like to 
frame the issue, that you're the reasonable one and those of us 
who have a contrary position are not reasonable.
    Ms. Richards. I didn't say that.
    Mr. Gowdy. No, that's exactly--that's exactly the last 
answer you gave. That's exactly what it was, much like your 
people evolve to a more advanced viewpoint, much like that 
comment was also directed to that.
    Ms. Richards. Those were not the words I said. I said 
sometimes people change their opinions.
    Mr. Gowdy. No, it's not always what you say. Sometimes it's 
just what you mean.
    Ms. Richards. Well, I----
    Mr. Gowdy. In 2014--you disagreed with my colleague's 100-
percent figure. What percent of your money did go to Democrat 
candidates in 2014 if it wasn't 100 percent?
    Ms. Richards. I told him I will look. I know that we 
support Republicans across the country. And I wish there were 
more Republicans who----
    Mr. Gowdy. Name me some. Name me some Republicans in 
Congress that you support financially.
    Ms. Richards. Well, we don't actually want--in this public 
forum, I'm not going to raise their names because they have 
been such the target of their fellow party members, but I'm 
happy to provide that to you later.
    Mr. Gowdy. Well, the donations are public.
    Ms. Richards. Uh-huh. And some of them--yes. I'm not--I 
don't know in terms of Federal office. I was thinking more 
broadly in terms of support for candidates across the country. 
I know there are Republicans that we support. And, again----
    Mr. Gowdy. Well, let me ask you----
    Ms. Richards. --we would like to support more Republicans 
for office. We wish there was--we don't believe that women's 
health or women's rights should be a partisan issue.
    Mr. Gowdy. And we don't----
    Ms. Richards. And I wish it weren't.
    Mr. Gowdy. And we don't think eating dinner salads and 
drinking wine while you're discussing infanticide--we have a 
problem with that, too. So I'm sure you can understand why we 
would be as viscerally opposed to what we saw in some of the 
tapes, would you not?
    Ms. Richards. I think we--I just think we may have a--I 
feel like everything I've answered you've seen a different way. 
So I respect your opinions, and I am always open to listening 
to other people's opinions.
    Chairman Chaffetz. The gentleman's time has expired. I 
thank the gentleman.
    We'll now recognize the gentleman from Iowa, Mr. Blum, for 
5 minutes.
    Mr. Blum. Thank you, Mr. Chairman.
    Thank you, Ms. Richards, for being here today. I think it's 
down to you and I.
    Ms. Richards. No kidding. Okay. We could do this somewhere 
else.
    Mr. Blum. Can you tell me briefly about your background?
    Ms. Richards. I'm a Texan. I----
    Mr. Blum. Your professional background.
    Ms. Richards. My professional background.
    Mr. Blum. What makes you qualified----
    Ms. Richards. Oh, shoot. I thought you wanted to go back to 
the beginning, because I was born in Waco, which I'm very proud 
of.
    I was a labor organizer for many years with low-wage 
working women. I eventually had three kids, moved to 
Washington, D.C. I had the honor of working for Leader Pelosi 
for a period of time here on Capitol Hill. I've started a 
couple of nonprofits. And then, about 10 years ago, I was hired 
to be the president of Planned Parenthood.
    Mr. Blum. Now, do you have any accounting in your 
background, any finance in your background? Do you understand--
I assume you understand well accounting?
    Ms. Richards. I have taken accounting courses as part of 
my--fortunately, my board has been very kind and offered me 
those kinds of--that kind of supplementary learning in my job. 
But I have a--obviously, we have a chief financial officer, we 
have an entire accounting department at Planned Parenthood that 
I work with closely.
    Mr. Blum. The reason I ask is, in a former life, I was a 
public company CEO, so I know a fair amount about revenues, 
expenses, overhead costs. So I'd like to talk a few minutes 
with you about that.
    What's your understanding of overhead?
    Ms. Richards. Well----
    Mr. Blum. What is overhead?
    Ms. Richards. What is overhead?
    Mr. Blum. Yes. What's overhead in Planned Parenthood?
    Ms. Richards. Well, generally----
    Mr. Blum. What are overhead expenses?
    Ms. Richards. --generally, it's the cost of what things 
that--just to keep the organization going. Is that what 
you're----
    Mr. Blum. Salaries? Building expenses? Rent?
    Ms. Richards. It really depends on--it depends on what 
you're talking about. If we're in a grant, it could be--
potentially, overhead could be considered. It really just 
depends.
    But, yes, of course, all organizations, I assume, and the 
one you ran, as well, we have an office, we have staff, we have 
electricity, and----
    Mr. Blum. It must be considerable in a half-a-billion-
dollar corporation, or nonprofit. The overhead must be 
considerable. It has to be, to run that big of an organization.
    Ms. Richards. Well, I guess it depends on your definition 
of ``considerable.'' But, yeah, we have a very dedicated staff. 
And we provide health care to a lot of people, education to a 
lot of people. And so, yes, it requires----
    Mr. Blum. Do you profit or make money on abortion services?
    Ms. Richards. So I've--I think we've discussed this many 
times, and I'll just try to take it one more time.
    So I run the national office. We do not provide abortion 
services. We have provided to this committee, if you're on the 
committee, all of the financial information about the national 
organization, our audited financial statements, our 990s.
    Mr. Blum. Do your providers----
    Ms. Richards. And we've also supplied----
    Mr. Blum. --make money on abortion services? Your 
providers, do they make money? Your individual affiliated 
offices, do they make money providing abortions?
    Ms. Richards. I think you're----
    Mr. Blum. In general.
    Ms. Richards. In general? There is no general. I mean, we 
are a nonprofit. There's three sources of income. There are 
Federal and public funds----
    Mr. Blum. I'm talking about individual abortion, though.
    Ms. Richards. --there are donations, and there are----
    Mr. Blum. If someone cannot afford to--what's an abortion 
cost?
    Ms. Richards. It depends, depending on the State, depending 
on----
    Mr. Blum. What if someone can't pay for it?
    Ms. Richards. --the procedure. Excuse me?
    Mr. Blum. What if someone can't pay for the abortion?
    Ms. Richards. We raise private dollars to try to help women 
who cannot afford abortion services. If they choose--if they 
choose that they want an abortion and they can't afford it, we 
try to raise money to help supplement the cost of an abortion.
    Mr. Blum. Only through private donations do you make up the 
difference is what you're saying.
    Ms. Richards. Well, I don't, but----
    Mr. Blum. Correct?
    Ms. Richards. --our 59 affiliates have a variety of 
donors----
    Mr. Blum. Does Planned Parenthood make a profit or make 
money on reimbursement of Medicaid services?
    Ms. Richards. We don't make a profit on anything. But in 
terms of Medicaid----
    Mr. Blum. Well, it depends on how you----
    Ms. Richards. Okay. Let's just----
    Mr. Blum. You have 127 million----
    Ms. Richards. Let's talk about Medicaid.
    Mr. Blum. --excess dollars every year.
    Ms. Richards. Medicaid is very--yeah, Medicaid is very 
easy. Medicaid reimburses. And, as you know, across the 
country, Medicaid rates vary widely. In some States, they come 
closer to paying for the cost of the services. In a lot of 
States, we actually have to raise private donations to 
supplement what it costs for----
    Mr. Blum. So you may make money on some Medicaid 
reimbursement services, correct?
    Ms. Richards. I don't know that anyone does, but I'd be 
happy to find out.
    Mr. Blum. And I'm sure you're well aware it's against 
Federal law to use taxpayer funds for abortions----
    Ms. Richards. I'm abundantly clear on----
    Mr. Blum. --except for rape, incest, and life of the 
mother.
    Ms. Richards. --abundantly clear on that. And we are 
heavily regulated, as HHS regulates Medicaid services.
    Mr. Blum. Are you saying today with 100-percent surety that 
not one dime of taxpayer money is used to provide abortions?
    Ms. Richards. What I said earlier----
    Mr. Blum. I mean, yes or no, 100-percent surety?
    Ms. Richards. No, because, actually----
    Mr. Blum. Because that is against the law.
    Ms. Richards. The Federal law allows for Federal dollars to 
pay for abortion services in very rare----
    Mr. Blum. Correct.
    Ms. Richards. --instances: rape----
    Mr. Blum. So other than those instances.
    Ms. Richards. --incest, and the life of the mother. We 
don't use any Federal dollars for any abortion services except 
for those that are----
    Mr. Blum. What about the profits generated from----
    Ms. Richards. --permitted by law.
    Mr. Blum. --those Federal dollars? Are any of those used to 
cover abortion services?
    Ms. Richards. Sorry. We were kind of talking over 
ourselves. You'll have to repeat it. I just didn't hear.
    Mr. Blum. The profits generated from taxpayer-funded 
sources, such as Medicaid reimbursements, are any of those 
profits used----
    Ms. Richards. I don't believe----
    Mr. Blum. --to help cover the cost of abortions?
    Ms. Richards. No. And I don't believe there--I will 
absolutely--we can go through all of our 990s, happy to go 
through with the committee, but I don't believe there are any 
profits from any Medicaid services in this country.
    As I've said, one of--that's one of the issues we're 
addressing here, is there are too few people willing to take 
Medicaid patients, because often the Medicaid payments do not 
pay for the cost of birth control, a pap smear, a breast exam, 
and the like.
    Mr. Blum. And what's critically important is how you 
apportion----
    Chairman Chaffetz. The gentleman's----
    Mr. Blum. --or apply the overhead services.
    Chairman Chaffetz. Sorry. The gentleman's time has expired.
    Mr. Blum. I'm sorry. I yield back.
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentlewoman from Tennessee, Ms. 
Black, for 5 minutes.
    Mrs. Black. Thank you, Mr. Chairman. I thank you for 
allowing me to sit in on this committee.
    And I thank the witness for being here today.
    Ms. Richards, on September the 18th of this year, you 
stated that H.R. 3134, the Defund Planned Parenthood Act of 
2015, would, and I quote, ``block access for folks who deserve 
high-quality, compassionate care,'' close quote.
    Now, Ms. Richards, I would like an opportunity for you, as 
I ask you these questions, to give you an opportunity to change 
these false claims.
    So I wrote the Defund Planned Parenthood Act of 2015, so 
let me tell you what it does do. It does not--it does not 
reduce public health funding by a single dime, and it would, in 
fact, increase that funding for community health centers by 
$235 million.
    Were you aware of these facts when you made that statement?
    Ms. Richards. Congresswoman, we've discussed many times 
today that, in fact, the Congressional Budget Office estimated 
that if----
    Mrs. Black. Reclaiming my time----
    Ms. Richards. --women were denied the ability to go to 
Planned Parenthood, 390----
    Mrs. Black. Reclaiming my time, you said it would block 
access. It would block access.
    Now----
    Ms. Richards. For our patients, it would block access.
    Mrs. Black. --yes or no, Ms. Richards, do you acknowledge 
that community health centers outnumber Planned Parenthood 
clinics by roughly 20 to 1?
    Ms. Richards. I don't know the exact number. I know there's 
more community health centers than there are Planned 
Parenthoods.
    Mrs. Black. So you will acknowledge that they outnumber 
Planned Parenthood clinics.
    Ms. Richards. I'm happy to acknowledge that.
    Mrs. Black. Okay.
    And yes or no, Ms. Richards, do you acknowledge that these 
facilities funded under my bill provide a broader range--these 
facilities actually provide a broader range of services than 
what is offered at Planned Parenthood--for instance, 
mammograms?
    Ms. Richards. I'm not an expert on what all community 
health centers provide. I know we work in close collaboration 
with them, and, in fact, often they send us their patients that 
they can't see for birth control.
    Mrs. Black. But you will acknowledge that you do not 
provide mammograms, which was acknowledged in this committee 
today?
    Ms. Richards. We've never made any----
    Mrs. Black. So that would say that they do actually provide 
more extensive services than what you provide there at Planned 
Parenthood.
    Ms. Richards. What I said to you, though, is I don't know 
what all the community health centers provide. We're very clear 
about what we do provide at Planned Parenthood and about the 
number of women who voluntarily choose to come to us because of 
our care----
    Mrs. Black. So, reclaiming my time again, because I have 
just a very short period of time.
    So knowing that the House-passed bill actually increases 
public health funding and redirects those Federal dollars to 
clinics that offer more preventative health care than Planned 
Parenthood, you can't substantiate your claim that the bill 
blocks access to care. It does not block access to care.
    Now, I do want to just end this by saying----
    Ms. Richards. I simply disagree.
    Mrs. Black. --that you had a statement that you made, that 
quality, affordable health care is your entire mission. And you 
made that statement. I actually wrote it down when you made it.
    Why would you not make an executive decision, then, to 
temporarily discontinue your abortion services, which only 
represents, by your testimony, 3 percent of the services that 
you provide, and continue providing what you consider to be 
your entire mission of 97 percent of the services provided?
    Ms. Richards. Well, because abortion is a legal service in 
America.
    Mrs. Black. But----
    Ms. Richards. And we think it's important that women--you 
quoted me as saying quality, affordable health care, and that 
includes access to quality and affordable abortion services, as 
well.
    Mrs. Black. But you acknowledge that--do you say abortion 
is health care? Do you consider that health care?
    Ms. Richards. Yes, it's a healthcare service for women. In 
fact, 3 in 10 women in this country have accessed an abortion 
at some point.
    Mrs. Black. So you define health care--abortion as health 
care.
    Ms. Richards. It absolutely is part of women's health care, 
and women will tell--I think women would agree.
    Mrs. Black. Well, I'm a nurse, and if you look at medicine, 
abortion is not health care. It is not considered to be health 
care.
    Now, let me turn to one other thing that you continue----
    Ms. Richards. We just simply agree to disagree on this 
matter.
    Mrs. Black. Well, let's look at the definition.
    But let me just finish up here, because you have continued 
to say that these videos were doctored. Are you aware of a 
report that just came out today that has been released by 
Coalfire that shows in their report--and they say the 
``forensic analysis removes any doubt that the full-length 
undercover videos released by the Center for Medical Progress 
are authentic and have not been manipulated. Analysts 
scrutinized every second of video recorded during the 
investigation released by CMP to date and found only bathroom 
breaks and other non-pertinent footage had been removed.''
    I would say, if you were to compare the two companies now 
that have done this investigation, you see Coalfire has 
reported on every second of those released audio and video 
investigation footage as opposed to the Fusion report, which 
only had four full-length videos.
    So I think this discussion, Mr. Chairman, is still yet to 
be had about just what these videos do show and the fact that 
they perhaps, coming from Fusion, are not doctored.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    The end is in sight. Ms. Richards, you've been 
exceptionally kind with your time, and generous. We have a 
couple of cleanups that we need to do here, a couple other 
questions, and then we will be concluding.
    We'll start by recognizing the gentleman from Ohio, Mr. 
Jordan.
    Mr. Jordan. Thanks, Mr. Chairman.
    Ms. Richards, since the videos surfaced, has anyone from 
CMS or HHS contacted you, any of your board members, or any of 
your staff?
    Ms. Richards. Since the videos surfaced----
    Mr. Jordan. Surfaced, July 14. Has anyone from the Health 
and Human Services or CMS contacted you or anyone on your staff 
or board?
    Ms. Richards. I don't know. I could--I don't know.
    Mr. Jordan. We need the answer to that.
    Ms. Richards. That's a--I mean, we have a very big staff, 
so----
    Mr. Jordan. Has anyone from the inspector general's office 
at HHS contacted you, anyone on your board, any one of your 
staff?
    Ms. Richards. If you're going to ask me about everything--
about any contact with any--we have a big board, and we have a 
very big staff. So I'm--I can't really----
    Mr. Jordan. Has the Attorney General of the United States, 
Loretta Lynch, contacted you----
    Ms. Richards. No.
    Mr. Jordan. --contacted Planned Parenthood, anyone at 
Planned Parenthood?
    Ms. Richards. Well, she may have--I don't know. I----
    Mr. Jordan. You don't know?
    Ms. Richards. I have hundreds of staff, and we have a very 
large board.
    Mr. Jordan. Has anyone from the Justice Department 
contacted Planned Parenthood since the videos surfaced?
    Ms. Richards. And I'm telling you I don't know if you're 
asking about everybody that's involved in Planned Parenthood--
--
    Mr. Jordan. You don't know? So, I mean, if the Justice 
Department would contact Planned Parenthood, it would seem the 
person who's in charge of Planned Parenthood would know the 
answer to that question. You don't know?
    Ms. Richards. Well, we have a very large staff. And so 
you're asking me----
    Mr. Jordan. But you're here testifying, the videos and the 
funding and everything else in front of a congressional 
committee. And I'm just asking----
    Ms. Richards. Mr. Jordan----
    Mr. Jordan. I mean, there's potentially four crimes that--
potentially, we don't know, but may--four crimes may--
transferring fetal tissue for valuable consideration, changing 
the procedure to obtain--to solely obtain tissue, doing this 
without patients' consent, and performing partial-birth--
there's potentially four Federal crimes. And all I'm asking is, 
has the Justice Department contacted you?
    Ms. Richards. What you asked me not is whether they had 
contacted me. You asked if they had contacted anyone at Planned 
Parenthood or anyone on our board.
    Mr. Jordan. You're here representing Planned Parenthood. 
Have they contacted Planned Parenthood?
    Ms. Richards. And I said to you I will find out. I don't 
know.
    Mr. Jordan. Since the videos have surfaced, have you had 
any conversations with the President of the United States?
    Ms. Richards. No, I have not.
    Mr. Jordan. Since the videos have surfaced, have you been 
to the White House?
    Ms. Richards. No, I have not.
    Mr. Jordan. How many times have you been to the White 
House?
    Ms. Richards. During what period of time?
    Mr. Jordan. Since Mr. Obama's been President.
    Ms. Richards. I don't know. That's been, I think, 7 years, 
so I would have to get back to you on that.
    Mr. Jordan. Our count shows that you, your board members, 
and senior staff have been to the White House 151 times in 6 1/
2 years. I'm just curious--that's why I asked the question--if 
you've been to the White House or you talked to the President 
since these videos have surfaced.
    Ms. Richards. And I said I had not.
    Mr. Jordan. And you'll get back with me on if the Justice 
Department has contacted you since these videos have surfaced.
    Ms. Richards. Well, I think you listed several folks, so 
I'm happy to work with the committee and find out what all you 
need to know.
    Mr. Jordan. CMS, HHS, inspector general, Justice 
Department. Justice Department is the most important.
    Ms. Richards. I'll work with the committee staff and work 
with my team.
    Mr. Jordan. I would--I thank the chairman. I'll yield to 
the gentleman from South Carolina.
    Mr. Mulvaney. Thank you.
    Ms. Richards, I want to follow up very briefly on the line 
of questioning that Mr. Clay had earlier this afternoon. He 
asked you if any--if there were any Federal funds being used in 
what he termed the tissue transfer program.
    Do you remember that question, ma'am?
    Ms. Richards. It's been--I'll be honest, it's been a long 
day.
    Mr. Mulvaney. That's fine. Well, he did ask you, and I 
think--my recollection is that you said no, and then you 
paused, and then you said not that you were aware of, and then 
he continued the question.
    That caught my attention----
    Ms. Richards. Okay.
    Mr. Mulvaney. --because it struck me that the answer to 
that question should be an unmitigated no, not no, not that you 
are or I am aware of. So let me ask you this----
    Ms. Richards. Well, I certainly don't believe so. Again, 
it's--I've been here for several hours, and so I'm just being--
--
    Mr. Mulvaney. Fair enough, but let's start from scratch and 
just say----
    Ms. Richards. --just trying to be very careful.
    Mr. Mulvaney. Okay. Are any Federal funds being used in 
relation to what we have described here today as the tissue 
transfer program?
    Ms. Richards. I do not believe so.
    Mr. Mulvaney. Okay. Since that is other than an unmitigated 
no, I'm going to ask you some followup questions.
    Have you done any investigation to find out if Federal 
funds have been used in that program?
    Ms. Richards. I don't believe they have been, and so there 
hasn't been any need for any investigation into that. But I'm 
certainly happy to get back to you on it.
    Mr. Mulvaney. No, you don't have to--I think you answered 
the question. I asked you if you had done any investigation, 
and you said no.
    Ms. Richards. Well, because I don't think it's been a----
    Mr. Mulvaney. That's fine. I mean, that's your motivation. 
You may not care. But the answer to my question is----
    Ms. Richards. I did not say I do not care. And I----
    Mr. Mulvaney. You could say you couldn't have time, but the 
point of the matter is, you have not done any investigation on 
this point, correct?
    Ms. Richards. That's not what I said. I said I'm not aware, 
and I will absolutely be happy to get back to you----
    Mr. Mulvaney. Okay. Then let me----
    Ms. Richards. --and it's not because I don't care, and it's 
not because I don't pay attention, at all.
    Mr. Mulvaney. Again, not trying to put words in your mouth, 
Ms. Richards, but let me ask the question again. Have you done 
any investigation as to whether or not any Federal funds have 
been used in the tissue transfer program?
    Okay. By the way, who's the bald guy sitting behind you? Is 
he a lawyer?
    Voice. I'm a lawyer.
    Mr. Mulvaney. Okay. That's fine. Could you--what is your 
name, sir?
    Voice. I represent Planned Parenthood.
    Chairman Chaffetz. Hold on, hold on.
    Mr. Mulvaney. That's fine. I just want to know who you are, 
because you actually----
    Chairman Chaffetz. The questions will go to the witness.
    Mr. Mulvaney. Okay. Then I'll ask the witness----
    Ms. Richards. Okay. I'm happy to get back to you on this, 
and I really----
    Mr. Mulvaney. No. No, no, no. No. I'm asking you a 
question. Have you----
    Ms. Richards. And I think I've answered it as many times as 
I can answer. And I am sorry that my answer isn't satisfactory 
to you. I've been here 5 hours now, and I'm trying to just make 
sure I'm as responsive as I can be, so----
    Mr. Mulvaney. Okay. So just so the record is clear----
    Ms. Richards. Okay.
    Mr. Mulvaney. --because there's a young lady here making a 
record of this, I'm going to ask the question one more time, 
and then you can give me the answer that you deem to be 
responsive to this question.
    Have you made any investigation into whether or not Federal 
funds have been used in the transfer of fetal tissue or fetal 
parts?
    Ms. Richards. I have not made any investigation to that 
specific question.
    Mr. Mulvaney. Okay. Thank you. Is it possible, then----
    Chairman Chaffetz. I think----
    Mr. Mulvaney. --that Federal money is being used for that 
program?
    Ms. Richards. I don't believe so.
    Mr. Mulvaney. But that's not based on an investigation, is 
it?
    Ms. Richards. I feel like we're kind of--I think we just 
keep repeating the same questions.
    Mr. Mulvaney. No, it'll end the discussion today, but it 
certainly won't end it.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    A few things just for followup, just so--we've had hours' 
worth of discussion. There are some things that we would like 
to follow up. So I'd like to go through that list as we 
conclude. Then we'll recognize Mr. Cummings, and then I will 
wrap up.
    We would like to get the name and number of affiliates that 
received the majority of their revenues from abortion services. 
If there's clarification as to what we are looking for, let me 
know, but this is--that is one question.
    Ms. Richards. I'm just going to try to write it down as you 
go.
    Chairman Chaffetz. Yeah. And you've got plenty of staff 
there. They'll write it down. I don't mean to have to have you 
take notes. But if you have a question, I want you to be able 
to ask me as we're kind of doing this.
    We are looking for the amount of revenue by affiliate for 
abortion services. So you had the--that should be pretty 
straightforward.
    We would like to know which affiliates provide which 
services.
    Ms. Richards. I believe you have that, but I'm happy--we're 
happy to provide that.
    Chairman Chaffetz. We're still--we want to make sure we've 
got it crystal-clear. I think we have portions of it, but we 
don't have all of it.
    Ms. Richards. Okay.
    Chairman Chaffetz. The names of organizations and the 
countries that Planned Parenthood gives funds to overseas. So, 
based on the tax returns and reports, you're sending money to 
overseas. Some of them that have been listed as investments; 
some have been listed as other things.
    We'd like to get some detail and specificity as to how much 
is going to which countries and what those are for. Is that 
fair?
    Ms. Richards. I really have to talk to my team about that, 
but I will.
    Chairman Chaffetz. Is that--okay.
    Ms. Richards. And I'm happy to talk to the committee staff 
about what it is they're trying----
    Chairman Chaffetz. That's great. A lot of this will be 
followup with committee staff. I just want to make sure that 
we're on the record, what we're asking for.
    We obviously have some concerns about the Planned 
Parenthood Action Fund. So we're trying to get to the duties 
performed and compensation received for all Planned Parenthood 
or affiliate employees. This can be either by--for the Planned 
Parenthood Action Fund or for either of the--I believe there 
are two 527 organizations.
    One of our concerns is the shared services and the sharing 
of employees between political activities and nonpolitical 
activities. And we would like to understand how broad-based 
that is.
    Ms. Richards. Okay.
    Chairman Chaffetz. Okay.
    The cost of reimbursement for both contraception and 
abortion. And abortion, obviously, breaks down into in-clinic 
as well as the pill.
    Ms. Richards. Actually, there's a lot of other kinds of 
contraception too.
    Chairman Chaffetz. Yes. Contraception I left as broad as I 
could, but for the abortion services----
    Ms. Richards. I'm just saying I think it's important. I'm 
not sure we really got into much of that conversation about how 
birth control--how many different kinds of birth control there 
are now. Because it's one of our specialties.
    Chairman Chaffetz. Okay. Well, help us understand what 
services and money you're allocated and what the costs of that 
are. Because there were some points that should be helping to 
drive down those costs, and we're just not understanding the 
ratio and why----
    Ms. Richards. Yes, I think there was some--I mean, I----
    Chairman Chaffetz. Yeah.
    Ms. Richards. That's why----
    Chairman Chaffetz. It needs clarification. And I'm not 
asking for it----
    Ms. Richards. It was clear that folks weren't aware of the 
various costs of different kinds of contraception.
    Chairman Chaffetz. Exactly. And that's where we need help. 
Not right now, just as a followup.
    We would appreciate--the travel seems excessive to us. Now, 
we're looking at it from afar; there may be a very plausible 
explanation. But when you have a nonprofit organization who 
says they're trying to put every dollar they can towards 
women's health and then people are buying first-class tickets 
and getting private aircraft and chartered aircraft, we'd just 
like to have an explanation of that. Fair enough?
    Ms. Richards. Yeah, I have no idea where that's coming 
from. But I'm making a list.
    Chairman Chaffetz. It's in the tax returns.
    Ms. Richards. I'm making a list.
    Chairman Chaffetz. That's where we see it. That's where we 
see it. There's boxes to check for certain things. And we would 
appreciate some clarification.
    Ms. Richards. Happy to provide.
    Chairman Chaffetz. A list of political organizations 
Planned Parenthood collaborates with, including the names and 
compensation of received and shared employees. I think I 
covered that in general, but--I'll keep going. You understand 
what our question there is.
    And then, if there are political donations to Democrats and 
Republicans, I think most of that is probably, financially, is 
probably publicly disclosed, but if you could help us with 
that.
    That's a lot.
    Let me yield now, or let me recognize the gentleman from 
Maryland, and then we will wrap up.
    Mr. Cummings. As I listen to the questions that you have to 
answer and the information that you've just been asked to 
provide, I cannot help but think about the IRS. Our Republican 
friends said that there were certain organizations that people 
in the IRS didn't like. They even accused the President. And 
then they decided that they--they said it was unfair. And I 
understand what they were saying, to go through and ask the 
same kind of things that he's asking you for. I just want to 
make--I just--it just hit me as I'm sitting here and I'm 
listening to all of this. I think it's something that we ought 
to give some serious thought to.
    Ms. Richards, I want to thank you for your testimony.
    You know, as I was sitting here, I was just thinking about 
a question--some questions that were asked of you earlier. And 
the implication was, in even asking the question, that you do 
not respect those who may have a different view with regard to 
abortion.
    And, you know, I think that that is such--so unfair. 
Because I think--I have heard very few people in this Congress 
ridicule us if one group believes that a woman should have 
control over her own body and should be able to choose abortion 
if she likes, she and her family and, you know, her God, if she 
makes that decision, and then the other ones who don't believe 
in abortion. I have not. And I've been here 20 years.
    I think we basically respect each other's opinions, period. 
I mean, is that--right? I mean, you respect----
    Ms. Richards. Yes.
    Mr. Cummings. Because a lot of this is a real personal 
thing. Am I right?
    Ms. Richards. Absolutely. It is.
    Mr. Cummings. But there's one thing that we seem to be sort 
of glossing over and sort of moving around: It is the law. I 
mean, it's the law. You may not like the law, but it's the law. 
And you are doing what is within the bounds of the law.
    And, you know, there are a lot of things I don't like, a 
lot of laws I don't like. But I still live in the United States 
of America, and there is a system of government. And, as a 
lawyer and as a Member of the Congress, I'm sworn to uphold 
those laws. Now, I might want to change them. I'll do 
everything in my power to change the ones I don't like. But, in 
the meantime, that's where I am.
    So I just want to make sure that, you know, that nobody 
walks out of here saying, oh, you know--because people have 
differing views does not mean that you don't respect the other 
person's view. I've never gotten that impression from you. I've 
read a lot of things you've written. And so is that accurate? 
Is that a fair statement?
    Ms. Richards. Well, I hope I've showed today that I have 
total respect for this Congress, I have respect for people of 
different points of views. And I really think that's--it is 
important that we show a respect for people who may make 
different decisions in their lives.
    And I think we need less judgment and more empathy in this 
country for people who may simply have different circumstances 
that we can never know about.
    Mr. Cummings. Now, Mr. Chairman, I just have a few 
questions of you so that we'll be real clear. I would just like 
to ask a couple of clarifying questions to help our members 
understand what our next steps are.
    Republicans have announced that they plan to establish a 
new select subcommittee--and I don't know how much you know 
about all this, but I've got to ask--to take over this 
investigation. The question is, will that subcommittee have 
jurisdiction going forward, or will the Oversight Committee 
continue this investigation of Planned Parenthood? Do you know?
    Chairman Chaffetz. It's the intention of the committee to 
continue to pursue the duly issued subpoena and obtaining all 
the videos.
    According to the information I have from the Speaker, the 
body will consider a bill--I think it's a bill; maybe it's 
under a different structure--next week for the formation of 
this select panel. It may be empowered with subpoena authority. 
We're not sure, haven't seen that yet. But the Speaker 
indicated this morning that that will come before the body next 
week.
    Mr. Cummings. Now, as we both know, when the Benghazi 
Select Committee was created, all of the standing committees 
had to turn over all of their records to the select committee. 
Is that what we are going to do? Is that consistent with what 
you know so far?
    Chairman Chaffetz. I don't know.
    Mr. Cummings. All right.
    And do you know whether this new select committee--
subcommittee will be given additional taxpayer funding to pay 
to investigate the Planned Parenthood?
    Chairman Chaffetz. I don't know the structure, I don't know 
the length, I don't know the powers, and I don't know the 
funding.
    Mr. Cummings. And my last question--and I was unclear on 
your response to a question on this earlier. Do you plan to 
invite Mr. Daleiden to testify? And if so, when do you plan to 
do that, if so?
    Chairman Chaffetz. We need to, A, clarify the disposition 
of these videos. Given that there's a temporary restraining 
order, we need to have that loosened up. When we obtain all of 
those videos, we'll work in partnership with you and develop a 
plan on how to deal with those.
    I don't know what the structure of this new select 
committee, how that affects it, but we'll cross that bridge 
when we get to it. The first step is to obtain all the videos, 
and I'm glad to see you agree with us.
    Mr. Cummings. Yes, definitely.
    The reason that I'm asking is because all of the Democrats 
on this committee have requested a minority day of hearings 
with Mr. Daleiden under the House rules. If our committee is 
going to yield to the new select subcommittee, then we may 
consider withdrawing our request. But if our committee is going 
to continue in addition to the select subcommittee, then we may 
very well insist on our rights to have Mr. Daleiden testify.
    Can you shed any light on this?
    Chairman Chaffetz. Again, the first step is getting all the 
videos, and, at that point, we'll make a determination.
    Mr. Cummings. To reserve our rights, I'm going to submit 
our September 21 letter for the record requesting a minority 
day of hearings.
    Mr. Cummings. But I look forward to talking with you 
further about this issue, as we've been working together 
extremely well. But I want to make sure I protect our members' 
rights.
    Chairman Chaffetz. Very good. I appreciate it.
    Mr. Cummings. And last but not least, again, Ms. Richards, 
I want to thank you for your cooperation. You have been 
extremely cooperative. We have not always had that. You got a 
lot of compliments from up here about the cooperation you have 
provided, and we really do appreciate it.
    And, on behalf of so many women, people like my mother-in-
law and so many others, I want to thank you. Because I know of 
so many women who, if it were not for Planned Parenthood, would 
be in a terrible way. And so thank you very much.
    Ms. Richards. Thank you.
    Chairman Chaffetz. Ms. Richards, again, thank you for your 
participation here today. You've been very generous with your 
time. I think you've honestly tried to share your thoughts and 
perspectives.
    I know it's hard and a long day, but we do appreciate your 
willingness to voluntarily come, provide your testimony in 
advance, all the things that we look for. We do appreciate 
that.
    With that, the committee stands adjourned.
    [Whereupon, at 3:20 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
               
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             
               
               
                                  [all]
</pre></body></html>
